<html>
<title> - PROPOSED CHANGES TO NASA'S EXPLORATION PROGRAM: WHAT'S KNOWN, WHAT'S NOT, AND WHAT ARE THE ISSUES FOR CONGRESS?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                 PROPOSED CHANGES TO NASA'S EXPLORATION
                   PROGRAM: WHAT'S KNOWN, WHAT'S NOT,
                 AND WHAT ARE THE ISSUES FOR CONGRESS?

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 24, 2010

                               __________

                           Serial No. 111-91

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
55-848                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b3d4c3dcf3d0c6c0c7dbd6dfc39dd0dcde9d">[email&#160;protected]</a>  

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. McCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
RUSS CARNAHAN, Missouri              PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               PETE OLSON, Texas
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
JOHN GARAMENDI, California
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

                HON. GABRIELLE GIFFORDS, Arizona, Chair
DAVID WU, Oregon                     PETE OLSON, Texas
DONNA F. EDWARDS, Maryland           F. JAMES SENSENBRENNER JR., 
MARCIA L. FUDGE, Ohio                    Wisconsin
STEVEN R. ROTHMAN, New Jersey        DANA ROHRABACHER, California
BARON P. HILL, Indiana               FRANK D. LUCAS, Oklahoma
CHARLES A. WILSON, Ohio              MICHAEL T. McCAUL, Texas
ALAN GRAYSON, Florida                    
SUZANNE M. KOSMAS, Florida               
BART GORDON, Tennessee               RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
             ALLEN LI Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant


                            C O N T E N T S

                             March 24, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Gabrielle Giffords, Chairwoman, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    19
    Written Statement............................................    22

Statement by Representative Pete Olson, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    23
    Written Statement............................................    25

                               Witnesses:

Mr. Douglas Cooke, Associate Administrator, Exploration Systems 
  Mission Directorate, National Aeronautics and Space 
  Administration
    Oral Statement...............................................    26
    Written Statement............................................    28

Mr. A. Thomas Young, Lockheed Martin (Ret.)
    Oral Statement...............................................    37
    Written Statement............................................    39

Discussion
  Use of FY 2010 Funds for Constellation Termination.............    43
  Status of Constellation Project................................    44
  Funding Termination of Constellation...........................    45
  NASA's Inspirational Mission...................................    46
  Future of NASA Workforce.......................................    46
  Cost of Ares I.................................................    47
  Net Change in Workforce........................................    47
  Benefits of Privatization......................................    48
  Space as a National Security Asset.............................    51
  Collaboration on Budget........................................    52
  Weaknesses of Privatization....................................    53
  Protecting NASA's Acquired Expertise...........................    54
  Funding Termination of Constellation...........................    55
  Status of Tiger Teams..........................................    56
  Filling the Human Spaceflight Gap..............................    57
  Delays to the Constellation....................................    57
  Incremental Transition to Commercial...........................    58
  Planning for Termination.......................................    59
  Transitioning Constellation Infrastructure.....................    59
  Status of Commercial Cargo.....................................    60
  Termination of Orion Capsule...................................    60
  Contractor Response............................................    61
  Composition of Future Panels...................................    61
  Government Inadequacy at Technology Development................    62
  Human Rating Requirements......................................    62
  Efficiency of Government Plan..................................    63
  Technology Development in Constellation........................    64
  Constellation PDR..............................................    65

  ...............................................................      

             Appendix 1: Answers to Post-Hearing Questions

Mr. Douglas Cooke, Associate Administrator, Exploration Systems 
  Mission Directorate, National Aeronautics and Space 
  Administration.................................................    68

Mr. A. Thomas Young, Lockheed Martin (Ret.)......................    77

             Appendix 2: Additional Material for the Record

Letter to The Honorable Gabrielle Giffords from Gary P. Pulliam, 
  Vice President, The Aerospace Corporation......................    80


 PROPOSED CHANGES TO NASA'S EXPLORATION PROGRAM: WHAT'S KNOWN, WHAT'S 
               NOT, AND WHAT ARE THE ISSUES FOR CONGRESS?

                              ----------                              


                       WEDNESDAY, MARCH 24, 2010

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Gabrielle 
Giffords [Chairwoman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                 Proposed Changes to NASA's Exploration

                 Program: What's Known, What's Not, and

                   What Are the Issues for Congress?

                             march 24, 2010
                             2 p.m.-4 p.m.
                   2318 rayburn house office building

I. Purpose

    On March 24, 2010 the Subcommittee on Space and Aeronautics will 
hold a hearing on the administration's proposed changes to the National 
Aeronautics and Space Administration's (NASA) exploration program. At 
this hearing, the Subcommittee will examine:

        <bullet>  The key elements of the proposed changes to the 
        exploration program, including: (1) cancellation of the 
        Constellation Program, (2) investment in the development of a 
        new ``commercial crew'' space transport industry, (3) provision 
        of additional funding to commercial space cargo demonstration 
        [COTS] providers; (4) establishment of a new research and 
        technology program in support of human exploration; and (5) 
        plans to develop and conduct precursor robotic missions.

        <bullet>  The status of the Constellation Program, including 
        the results of the recent program level Preliminary Design 
        Review;

        <bullet>  The workforce, industrial base, and contractual 
        implications of the administration's proposed changes to NASA's 
        exploration program, were they to be implemented; and

        <bullet>  The applicability of work completed by NASA, 
        including activities carried out in the Constellation Program, 
        to exploration options available to the Nation.

II. Scheduled Witness:

Mr. Douglas Cooke
Associate Administrator
Exploration Systems Mission Directorate
National Aeronautics and Space Administration

Mr. A. Thomas Young
Lockheed Martin (Ret.)

III. Overview

    While NASA has stated an overall rationale for changing its 
exploration program and has identified the key elements of its strategy 
in the FY 2011 budget request, many specifics on the proposed 
redirection have yet to be established. For example, at this point in 
time, NASA cannot provide detailed explanations and associated 
supporting analyses with regards to:

        <bullet>  Where the redirected exploration program will lead 
        the Nation to, in terms of goals, destinations, and timetable;

        <bullet>  What key assumptions were used to formulate the 
        proposed commercial crew strategy, e.g., projected cost and 
        pricing; market scope; industry cost-sharing; when such service 
        will be operational; government fall-back options if providers 
        are unable to meet NASA's safety requirements, schedule needs, 
        or their cost commitments; and net number of jobs that will be 
        created;

        <bullet>  The need for additional commercial cargo incentives 
        to Commercial Orbital Space Transportation (COTS) partners in 
        light of their progress in meeting agreed-to milestones;

        <bullet>  The analytical basis NASA used to justify canceling 
        the Constellation Program, such as an analysis of alternatives, 
        and a comparative assessment of the relative probabilities of 
        each of the alternatives to Constellation being able to assure 
        survivable crew escapes;

        <bullet>  The basis for the priorities and funding levels for 
        proposed exploration technology development projects, precursor 
        robotic missions, and heavy lift propulsion research;

        <bullet>  The impact of canceling Constellation on NASA's 
        workforce, the Nation's industrial base, and on existing 
        contracts and what mitigating actions would be taken; and

        <bullet>  The strategy for international engagement in human 
        spaceflight activities and exploration under the proposed plan.

    At this hearing, members will have an opportunity to examine these 
issues in greater detail. Mr. Douglas Cooke, NASA's Associate 
Administrator for Exploration Systems Mission Directorate, the 
organization responsible for managing the Constellation Program and 
transitioning to the proposed redirection, will be a witness at the 
hearing. In addition, Mr. A. Thomas Young, who has had extensive 
experience in both the public and private space sectors, can provide 
insight into issues raised by the proposed changes to NASA's 
exploration program that Congress should consider in its deliberations 
on the president's FY 2011 budget request for NASA.

IV. Background Information

Key Changes to NASA's Human Space Flight Program Proposed in the FY 
        2011 Budget Request
    NASA proposes, in its FY 2011 budget request, to (1) cancel the 
ongoing Constellation Program; (2) extend operations of the 
International Space Station (ISS) until 2020 and possibly beyond; (3) 
cultivate an expanded space exploration industry through a new 
commercial crew transport program and rely on that industry for access 
of its astronauts to the ISS; (4) invest in research and technology 
development and demonstrations including heavy lift and propulsion 
technology, that will enable human exploration beyond Earth; and (5) 
conduct precursor robotic missions.

Cancel the Constellation Program

    Citing that the Constellation Program was ``trying to recreate the 
glories of the past with the technologies of the past'', the 
administration proposes to terminate the program and initiate closeout 
activities. NASA indicates that the FY 2011 budget request funds:

        <bullet>  Termination and liability for existing contracts 
        (including severance pay);

        <bullet>  Closeout costs of content and property disposition;

        <bullet>  Costs to render safe facilities no longer in use, 
        mothballed, or targeted for demolition;

        <bullet>  Potential environmental remediation of agency direct 
        and support contractor facilities no longer in use; and

        <bullet>  Coverage for transitional civil servants as new 
        programs are being initiated.

    $1.9 billion is allocated for these activities in FY 2011; NASA 
plans to request $600 million in FY 2012. A detailed breakdown of 
funding has not been provided. Such detail would help Congress better 
understand the NASA Chief Financial Officer's (CFO) reported 
characterization of the $2.5 billion in NASA's Fiscal 2011 budget 
request to terminate the Constellation Program as being probably 
``oversubscribed.'' According to the CFO's reported remarks, some 
termination-related items are not included in the $2.5 billion figure.

Extend ISS Operations until 2020 and Beyond

    The administration proposes to extend use of the ISS beyond 2016, 
likely through 2020 or beyond, in order to utilize the orbiting 
facility as a basic research facility and a test bed for exploration 
technology development and demonstrations. NASA is requesting $2.78 
billion in its proposed FY 2011 budget to support these efforts and to 
initiate activities to increase ISS functionality; a total of $15.3 
billion is projected for the period of FY 2011 through FY 2015.
    No funding was identified in prior NASA budget requests for ISS 
operations beyond 2015. Funding for future human space flight-related 
activities in prior projections assumed that operations would be 
terminated by the end of 2015 to help defray Constellation Program 
costs.

Rely on Commercial Cargo Services and Cultivate a Crew Services 
                    Industry

    When the Space Shuttle is retired, NASA anticipates that crew 
access to the ISS will be provided by acquiring seats on Russian Soyuz 
spacecraft until the 2016 timeframe.
    Under the president's proposal, the agency plans to cease using 
Soyuz spacecraft at that time and anticipates using commercially 
provided crew transport services instead. Under the ISS international 
agreements, NASA is responsible for providing crew transport for four 
U.S. and International Partner astronauts to and from the ISS twice a 
year, as well as providing a crew rescue capability at the ISS for the 
four astronauts. NASA plans to rely on commercially provided cargo 
transport services for ISS resupply starting in the 2011 timeframe 
using its Commercial Resupply Services (CRS) contract. Funding in FY 
2011 for ISS cargo/crew services is about $857 million; a total of 
$5.77 billion is projected for the period of FY 2011 through FY 2015.
    The FY 2011 budget request also proposes a significant investment, 
spread over five years, that NASA says is intended to spur America's 
space industry. According to NASA, it will build on ``established 
partnerships with the emerging commercial space sector through the 
Commercial Orbital Transportation Services (COTS) effort and expand the 
market to include a range of both cargo and crew vehicles.''
    Regarding the existing COTS effort, NASA proposes to allocate $312 
million in FY 2011 for ``incentivizing NASA's current commercial cargo 
program to improve the chance of mission success by adding or 
accelerating the achievement of already planned milestones, adding 
additional capabilities, or tests that may ultimately expedite the pace 
of development of cargo flights to the ISS.'' According to NASA, the 
two COTS program's funded partners, SpaceX and Orbital, are progressing 
toward flight demonstrations that involve docking at the ISS, in early 
CY 2011 [The COTS Program has two unfunded partners in PlanetSpace and 
SpaceDev]. The $312 million requested for FY 2011 is in addition to the 
$500 million NASA had already planned to spend on the COTS 
demonstration effort and represents a 62% increase in the cost of the 
COTS program. In addition, NASA has already paid $214.3 million to 
Orbital and SpaceX under the follow-on CRS contract, with the payments 
being described by NASA as ``in support of post-demonstration 
missions.''
    According to NASA's budget justification, ``The Commercial Crew 
Program will provide $6 billion over the next five years to support the 
development of commercial crew transportation providers to whom NASA 
could competitively award a crew transportation services contract 
analogous to the Cargo Resupply Services contract for ISS. These funds 
will be competed through COTS-like, fixed-price, milestone-based Space 
Act Agreements that support the development, testing, and demonstration 
of multiple commercial crew systems.'' The budget justification also 
states that ``As with the COTS cargo program, some amount of private 
investment capital will be included as part of any Space Act Agreement 
and NASA will use this funding to support a range of higher- and lower 
programmatic risk systems. Unlike the COTS program, which exclusively 
funded entirely new and integrated systems (launch vehicles plus 
capsules), this program will also be open to a broad range of 
commercial proposals including, but not limited to: humanrating 
existing launch vehicles, developing spacecraft for delivering crew to 
the ISS that can be launched on multiple launch vehicles, or developing 
new high-reliability rocket systems.''
    NASA has provided no information as to whether the $6 billion 
requested is the government's total share needed to complete the 
proposed demonstrations or just represents the five-year total in the 
agency's budget runout. It is also unclear whether NASA plans to award 
crew transportation service contracts following completion of the 
demonstrations or whether the agency would plan to award contracts 
before the companies had ever demonstrated their systems, as was done 
with the CRS contracts for cargo delivery to the ISS. No estimate of 
the cost of these follow-on contracts is provided. Finally, no 
information has been provided as to the percentage of the development 
and demonstration cost to be borne by the commercial participants 
[e.g., 50%, 80%, 0%].

Invest in Research and Technology Needed for Human Exploration

    The FY 2011 budget request proposes a major shift in emphasis from 
building human space flight systems to technology development. In 
describing this change, NASA stated that:
    ``We believe that the technology shortfall we face is so 
fundamental that incremental changes or tinkering on the margins will 
not be sufficient to address current and future needs. Rather, a 
fundamental `re-baselining' of our Nation's exploration efforts is 
needed. We must invest in fundamentally new innovations for space 
technology, and new ways of doing business, if we are to develop a 
space exploration and development program that is truly sustainable 
over the long term.''
    The budget request provides no explanation as to why investing in 
new technologies cannot be undertaken in addition to--rather than in 
place of--the planned exploration flight program.
    According to NASA, activities aimed at advancing technologies 
needed to expand human exploration opportunities, reduce mission costs, 
and contribute NASA innovation to broader national challenges and 
applications will be funded in and managed by the Exploration Systems 
Mission Directorate (ESMD). The agency's budget justification indicates 
that this will be accomplished through investment in the demonstration 
of flagship technology projects, as well as enabling technology 
development and demonstration. ESMD's Exploration Technology and 
Demonstrations activities are proposed to be funded at $652.4 million 
in FY 2011; a total of $7.82 billion is projected for the period of FY 
2011 through FY 2015.
    NASA states that it believes that projects selected as in-space, 
Flagship Demonstrations will be significant in scale, and offer high 
potential to demonstrate a new capability and reduce the cost of future 
exploration missions. NASA officials have told the Subcommittee that in 
FY 2010, the agency plans to develop long-term roadmap and approach for 
near-term missions. According to NASA, the evaluation of highest 
leverage demonstrations is underway and a ``Mars destination is a 
driving case for high leverage demonstration and technology.'' The 
first three primary technology targets for single or combined missions 
are proposed to include in-orbit propellant transfer and storage; 
lightweight/inflatable modules; and automated/autonomous rendezvous and 
docking. The fourth flight program would include candidates such as 
aerocapture/entry, descent and landing; advanced life support; and 
advanced in-space propulsion. In FY 2011, NASA proposes to initiate 
several Flagship Technology Demonstrators, each with an expected 
lifecycle cost in the $400 million to $1 billion range, over a lifetime 
of five years or less, with the first flying no later than 2014.
    Smaller scale development and testing of key, long-range 
exploration technologies are proposed to be pursued as part of the 
Enabling Technology effort. Projects range from laboratory experiments 
to Earth-based field tests and in-space demonstrations and will be 
aimed at transitioning relevant technologies from lower to higher 
technology readiness levels. In FY 2011, NASA proposes to initiate 
demonstration projects leading to flagship/precursor missions in the 
areas of in-situ resource utilization; autonomous precision landing and 
hazard avoidance, advanced in-space propulsion, and tele-operation of 
advanced robotic systems. In FY 2012, NASA proposes to conduct other 
potential long-range technology development projects such as radiation 
shielding; high-efficiency space power systems; and entry, descent, and 
landing technology.
    According to NASA, ESMD will also lead research and development 
(R&D) activities related to space launch propulsion technologies. The 
agency proposes in its budget justification that this propulsion R&D 
effort include development of a U.S. first-stage hydrocarbon engine for 
potential use in future heavy lift (and other) launch systems, as well 
as basic research in areas such as new propellants, advanced propulsion 
materials manufacturing techniques, combustion processes, and engine 
health monitoring. NASA says that advanced in-space propulsion 
technologies may include nuclear thermal propulsion, solar and nuclear 
electric propulsion, plasma propulsion, and other high-power and high-
efficiency propulsion concepts. The proposed FY 2011 funding level for 
heavy lift and propulsion technology is $559 million; a total of $3.1 
billion is projected for the period of FY 2011 through FY 2015. The 
level of detail justifying this funding level and selected technologies 
has not been provided by NASA. The budget request eliminates the 
development of a heavy lift launch vehicle planned as part of the 
Constellation Program [Ares V].

Conduct Precursor Robotic Missions

    Another new initiative included in the FY 2011 budget request 
relates to the conduct of precursor robotic missions. According to 
NASA, it will send precursor robotic missions ``to candidate 
destinations for human exploration such as the Moon, Mars and its 
moons, Lagrange points, and nearby asteroids to scout targets for 
future human activities, and identify hazards and resources that will 
determine the future course of expanding human civilization into space. 
Projects will make critical observations, test approaches and 
operations concepts, and identf specific target destinations directly 
beneficial to future human space activities. Instruments, destinations 
and missions will be prioritized based on their utility to future human 
activities.''
    According to information provided to Congress, NASA proposes to 
initiate at least two mission formulations in FY 2011, (1) lunar 
mission demonstrating tele-operation capable of transmitting near real-
time video to Earth, investigations for validating availability of 
resources for extraction, and (2) additional candidate missions that 
may include landing on near-earth asteroids or on the moons of Mars 
(Phobos and Deimos) and landing in-situ resource utilization capability 
to process lunar or asteroid materials into fuel and/or other 
exploration enabling materials.
    It is worth noting that NASA's Science Mission Directorate's 
Advanced Composition Explorer (ACE) Explorer mission, launched in 1997, 
has been orbiting the Lagrangian L1 libration point since that time. In 
addition, the Science Mission Directorate has placed the STEREO (Solar 
TErrestrial RElations Observatory) spacecraft at a Lagrange point and 
plans to send a spacecraft to a Lagrangian point again in 2014 when the 
James Webb Space Telescope is launched. Finally, the ability to 
transmit real-time video from the Moon to Earth is similar to that 
projected to be demonstrated as part of Google Lunar X Prize 
activities.

Status of the Constellation Program and Recent Accomplishments
    The Constellation Program, which the administration proposes to 
cancel, consists of the Ares I crew launch vehicle and Orion crew 
exploration vehicle, the Ares V heavy-lift launch vehicle, associated 
ground systems, and lunar systems. Constellation was the architecture 
established to deliver Americans to the ISS and later to the Moon and 
other destinations in the solar system following the retirement of the 
Space Shuttle. As of the end of February 2010, NASA reported that it 
had spent a total of about $9.7 billion on Constellation. If the $2.5 
billion NASA has requested for proposed transition costs (including 
close-out of Constellation activities) is accurate, that will mean that 
approximately $14.5 billion will have been expended on the 
Constellation Program upon the program's termination, if that occurs. 
This figure includes the amount appropriated for FY 2010 and that 
provided for exploration activities by the Recovery Act.

Limitations on the Use of FY 2010 Appropriations

    In the Statement of Managers accompanying the FY 2010 Consolidated 
Appropriations Act, ``The conferees note that the Constellation program 
is the program for which funds have been authorized and appropriated 
over the last four years, and upon which the pending budget request is 
based. Accordingly, it is premature for the conferees to advocate or 
initiate significant changes to the current program absent a bona fide 
proposal from the Administration and subsequent assessment, 
consideration and enactment by Congress.'' The Statement of Managers 
also states that ``Funds are not provided herein to initiate any new 
program, project or activity, not otherwise contemplated within the 
budget request and approved by Congress, consistent with section 505 of 
this Act, unless otherwise approved by the Congress in a subsequent 
appropriations Act. Funds are also not provided herein to cancel, 
terminate or significantly modify contracts related to the spacecraft 
architecture of the current program, unless such changes or 
modifications have been considered in subsequent appropriations Acts.'' 
Similar language was included in the Act itself. According to NASA, the 
Constellation Program is currently proceeding per the enacted FY 2010 
appropriation.
    According to NASA, all work that is currently under contract for 
Constellation will continue. The Administrator has instructed the 
Constellation Program to refrain from initiating new work not currently 
under contract, and also to refrain from expanding the scope of any 
work that currently is under contract. As of March 11, 2010, NASA has 
canceled five planned procurements, including planned studies: the 
Exploration Ground Launch Services (EGLS) solicitation at the Kennedy 
Space Center (KSC); the Vehicle Assembly Building High Bay modification 
solicitation at KSC; the Water Basin construction solicitation at the 
Langley Research Center; the Altair Conceptual Design Contracts 
solicitation at the Johnson Space Center; and the Ares V heavy-lift 
design trades solicitation at the Marshall Space Flight Center.
    In terms of activity in FY 2010, NASA ESMD officials told 
Subcommittee staff during a FY 2011 budget request presentation that 
the Directorate and the Constellation Program are currently proceeding 
per the enacted FY 2010 appropriation, specifically:

        <bullet>  The program is working to complete Preliminary Design 
        Review and major tests scheduled for FY 2010 (e.g. Pad Abort 
        1); and

        <bullet>  The Directorate will continue incremental funding of 
        contracted tasks for existing contracts;

    As of January 2010, the Constellation Program has spent close to $1 
billion of FY 2010 funding in execution of the Program. This includes a 
multitude of contracts and other procurement instruments with over 400 
companies, universities, and other government entities.

Constellation Program Accomplishments as of November 2009

    Staff members from the subcommittee were briefed by NASA officials 
in November 2009 on the status of the Constellation program. At that 
time, they were told that:

        <bullet>  NASA's near term plan remained the same, that is, to 
        maintain March 2015 as the goal for the first crewed Orion/Ares 
        flight to the International Space Station, subject to any 
        impact from potential funding changes as a result of 
        Congressional Continuing Resolutions.

        <bullet>  Constellation had been executing the program for 
        about four years and was well into the development phase.

        <bullet>  Technical progress to date, NASA officials said, was 
        substantial:

                  Preliminary Design Reviews (PDR) for the Initial 
                Capability had been concluded for Ares I and Orion and 
                PDR checkpoints were completed for Ground Operations, 
                Mission Operations and Constellation Program; 
                [Subsequent to the November 2009 briefing, NASA 
                informed the Subcommittee that the technical portion of 
                the program's PDR board was completed on March 5, 2010]

                  Ares I had successfully completed its Thrust 
                Oscillation Technical Interchange Meetings in support 
                of the Constellation Program PDR scheduled for March 
                2010;

                  Initial Capabilities major development contracts 
                were active and underway for both Orion and Ares I;

                  Constellation Space Suit Systems Contract re-award 
                occurred in March 2009 and definitization was expected 
                soon;

                  Ares I-X test flight successfully launched in 
                October 2009;

                  Ares I DM-1 ground test was successfully completed 
                in September 2009; and

                  Orion Attitude Control Motor Development Motor Test 
                was successfully completed in December 2009.

    According to NASA's list of planned Constellation Program events 
dated March 12, 2010, an interim Critical Design Review (CDR) is 
scheduled for July 2010.

What is Not Known and What Issues Congress May Wish to Consider
    While NASA has provided its overall rationale for moving in another 
direction and has identified the key elements of its strategy in its FY 
2011 budget request, the proposed change in the agency's exploration 
program is not accompanied by specifics. As such, the absence of detail 
contributes to a number of issues Congress may wish to consider.

Specifics on Exploration Goals and Destinations

        <bullet>  What are the projected dates and destinations in the 
        proposed human exploration program?

           In his prepared statement submitted for the Committee's 
        February 25, 2010 hearing on NASA's FY 2011 budget request, the 
        NASA Administrator said:

           ``Since the introduction of the budget, many have asked what 
        the destination is for human space flight beyond low Earth 
        orbit under the president's plan. NASA's exploration efforts 
        will focus not just on our moon, but also on near-Earth 
        asteroids, strategic deep space zones called Lagrange points, 
        and the planet Mars and its moons. For me, the ultimate 
        destination in our solar system at present is Mars.

           While we cannot provide a date certain for the first human 
        visit, with Mars as a key long-term destination we can identify 
        missing capabilities needed for such a mission and use this to 
        help define many of the goals for our emerging technology 
        development.''

           The Administrator provided another perspective while 
        speaking before the Washington Space Business Roundtable, 
        Satellite 2010 Conference on March 16, 2010. At that event, the 
        Administrator said:

           ``I often hear the criticism that under the President's plan 
        we have no destination. This is also not true. The ultimate 
        destination in our solar system for our exploration efforts is 
        Mars, but we don't have the technological where-with-all to 
        safely get humans there yet. In order to reach this 
        destination, we need a robust research and development program 
        to help us provide the capabilities that will make this goal 
        attainable.''

           The proposed strategy would eliminate any specific human 
        space flight program destinations or timetable. Congress had 
        provided direction on destinations and timetable in the past 
        two NASA Authorization Acts, and the content of NASA's budget 
        requests reflected that direction. The NASA Authorization Act 
        of 2005 directed the NASA Administrator to manage human space 
        flight programs to strive to achieve ``Returning Americans to 
        the Moon no later than 2020'', and ``Enabling humans to land on 
        and return from Mars and other destinations on a timetable that 
        is technically and fiscally possible.'' NASA's FY 2008 budget 
        request submitted in February 2007 acknowledged that ``The 
        President and Congress committed the Nation to a journey of 
        exploration; returning to the Moon in the next decade, then to 
        Mars and beyond'' and proposed initiating the Constellation 
        Program to implement that commitment. The administration's FY 
        2010 budget request reiterated the goal of ``returning 
        Americans to the Moon by 2020.''

           In the NASA Authorization Act of 2008, Congress affirmed its 
        support for ``the broad goals of the space exploration policy 
        of the United States, including the eventual return to and 
        exploration of the Moon and other destinations in the solar 
        system and the important national imperative of independent 
        access to space'' and ``activity related to Mars exploration''.

Extent of Consultations Prior to the Proposed Redirection

        <bullet>  How did the president go about this decision, who did 
        he reach out to, and who was brought in to make the decision?

           According to the Administrator's response to Subcommittee 
        Chairwoman Gabrielle Giffords at the Committee's February 25, 
        2010 hearing, he consulted with the president but characterized 
        his discussion as pre-decisional, adding that he was ``not at 
        liberty to share that.'' The Administrator did not indicate 
        whether NASA made any specific recommendations, when they may 
        have been made, or whether they were adopted.

        <bullet>  Did the NASA Administrator or the president consult 
        with the Department of Defense on the impact to the industrial 
        base before the announcement of the Constellation Program's 
        cancellation?

           According to the Administrator's response to Rep. Rob Bishop 
        at the Committee's February 25, 2010 hearing, he had informal 
        conversations with senior persons in DOD, and that while not 
        talking specifically about the impact of the cancellation of 
        the Constellation program, the Administrator said he asked for 
        information on impacts on the industrial base, particularly 
        with reference to solid rockets. He agreed to provide the names 
        of DOD officials he spoke to for the record.

           It is worth noting that, according to a recent Air Force 
        Times article, the Air Force's Deputy Under Secretary of the 
        Air Force for Space Programs said at a recent Senate hearing 
        that ``the Obama administration had not asked the Air Force to 
        examine the effects of canceling NASA's Constellation program 
        before the Feb. 1 announcement.''

Basis for the Proposed Commercial Crew Strategy

        <bullet>  Were market studies of commercial human spaceflight 
        used by NASA and the administration independently conducted?

           According to his response to Chairman Gordon at the 
        Committee's February 25, 2010 hearing, the NASA Administrator 
        said that NASA had not done any market surveys nor had he been 
        asked to. Consequently, he said that he is ``depending upon 
        surveys and information that has come from the industry 
        themselves.''

           According to a summary of a March 8, 2010 meeting at the 
        National Research Council by Spacepolicyonline.com, staff from 
        the Office of Science and Technology Policy said that a 2002 
        study by the Futron Corporation entitled ``Space Tourism Market 
        Study: Orbital Space Travel & Destinations with Suborbital 
        Space Travel'' was one of the main inputs that gave the 
        administration confidence in the potential non-governmental 
        market for commercial crew services. The study included the 
        analysis of a survey by Zogby International that sought to 
        identify the market size, potential for growth, and the 
        characteristics of the market's customers. The Futron study 
        forecasted the market demand for orbital and suborbital flight 
        over the 20 year period from the time the study was conducted. 
        The study stated that for orbital space travel, ``Given the 
        current ticket price of US$20 million per person, affordability 
        is the major barrier to becoming a viable customer for orbital 
        space travel.'' According to the Futron report, ``at a current 
        ticket price of US$20 million for an orbital trip, the 
        potential customer's minimum net worth would have to be US$200 
        million.'' The Futron study characterized customers meeting 
        such net worth levels as ``super-affluent.''

           The Futron study forecasted that from 2002-2009, 23 tourists 
        would fly on the Soyuz. Space Adventures, Ltd., which states on 
        its website that it is the only private space exploration 
        company to have sent paying passengers into space, has sent 7 
        paying passengers via the Soyuz in the 2002-2009 period--30 
        percent of Futron's forecasted market for that period. Taking 
        into account the analysis of the Futron/Zogby market survey, 
        the Futron report provided a base forecast that assumed ``the 
        current ticket price of US$20 million at the beginning of the 
        forecast [in 2002], linearly decreasing to US$10 million in 
        2012, and further declining to US$5 million by 2021'' which at 
        a $5 million per seat charge would expand the pool of potential 
        passengers to those with net worth levels of at least $50 
        million. Assuming that a commercial crew company or companies 
        provide the price reductions predicted in the market study, 
        Futron forecasted that a total of some 500 passengers would fly 
        commercially over the next twenty years. However, at a March 
        18, 2010 Senate subcommittee hearing, SpaceX's CEO quoted a 
        price of ``less than $50 million a seat'', while Orbital's 
        Senior Vice President estimated that the cost of an individual 
        mission for Orbital's system would be ``probably around three 
        or four hundred million dollars''. In September 2009, an 
        Orbital spokesman indicated their commercial crew system would 
        be capable of carrying three to four astronauts.

           NASA's FY 2011 budget justification states that, ``Once 
        established, these [commercial crew] services will not only 
        allow astronauts to travel to the International Space Station, 
        they will ultimately open space travel to many more people 
        across the globe.'' Considering the analysis conducted by 
        Futron Corp., which was used to inform the administration's 
        plans for human spaceflight, taxpayer funding for the 
        development of commercial crew services--$6 billion for the 
        years FY 2011 through FY 2016 as identified in the FY 2011 
        budget request--would in essence be supporting a market for 
        orbital space travel forecasted to be limited to a total of 
        about 500 U.S. and non-U.S. individuals over a twenty year 
        period who have net worth levels ranging from a minimum of $50 
        million to in excess of $200 million. Whether the reallocation 
        of Federal funding from the government's existing Constellation 
        Program to enable such a market is the best use of those 
        taxpayer dollars is a public policy issue for Members to 
        resolve. No information has yet been provided to the 
        Subcommittee to indicate the Administration's rationale for 
        assigning such a priority to enabling that market.

        <bullet>  What is the rationale for the decision not to include 
        a government-led crew transport system development program as a 
        ``fallback option?''

           The rationale is not identified in NASA's budget 
        justification. It is worth noting that the Augustine Committee 
        report, in commenting on NASA's need for a fallback option, 
        said that:

           ``While there are many potential benefits of commercial 
        services that transport crew to low-Earth orbit, there are 
        simply too many risks at the present time not to have a viable 
        fallback option for risk mitigation.''

        <bullet>  How was the estimate of $6 billion for development of 
        commercial crew derived? Does this represent the totality of 
        the government's share of development and demonstration costs?

           The basis for the $6 billion is not included in NASA's 
        budget justification, including detail on whether this 
        represents the totality of the government's share of 
        development and demonstration costs. The Augustine Committee 
        had estimated that the cost to NASA of creating an incentive 
        for industry to develop a commercial transport capability for 
        crew was about $5 billion. However, that cost was based on 
        estimates provided by would-be commercial providers and the 
        assumptions behind the estimates were not provided.

        <bullet>  What amount of cost-sharing by potential commercial 
        crew transportation providers did NASA assume in determining 
        its $6 billion partnership contribution?

           The budget justification states that ``As with the COTS 
        cargo program, some amount of private investment capital will 
        be included as part of any Space Act Agreement and NASA will 
        use this funding to support a range of higher- and lower 
        programmatic risk systems.''

           Documents provided in conjunction with NASA's FY 2011 budget 
        justification do not identify what level of cost-sharing by 
        industry was assumed in deriving the $6 billion figure.

        <bullet>  What is the basis for cost savings assumed to be 
        accrued from commercial crew services? Was an independent cost 
        estimate analysis performed?

           NASA's reference to cost savings is couched in terms of 
        affordability. In his statement of February 1, 2010 introducing 
        NASA's FY 2010 budget, the NASA Administrator said:

           ``NASA will accelerate and enhance its support for the 
        commercial spaceflight industry to make travel to low Earth 
        orbit and beyond more accessible and more affordable. Imagine 
        enabling hundreds, even thousands of people to visit or live in 
        low Earth orbit, while NASA firmly focuses its gaze on the 
        cosmic horizon beyond Earth.''

           At the Committee's February 25, 2010 hearing, the 
        Administrator said in his prepared statement:

           ``This investment [5-year investment totaling $6 billion] 
        funds NASA to contract with industry to provide astronaut 
        transportation to the International Space Station as soon as 
        possible, reducing the risk of relying solely on foreign crew 
        transports, and frees up NASA resources to focus on the 
        difficult challenges in technology development, scientific 
        discovery, and exploration. We also believe it will help to 
        make space travel more accessible and more affordable.''

           Documents provided in conjunction with NASA's FY 2011 budget 
        justification neither reference how projected savings were 
        derived, nor whether an independent cost estimate was 
        performed.

        <bullet>  What contingencies are in place should a commercial 
        crew provider's business fail and shut down?

           In response to Subcommittee Ranking Member Pete Olson's 
        question at the February 25, 2010 Committee hearing on what 
        backup NASA would use if commercial crew companies failed to 
        deliver, go bankrupt, or could not perform, the Administrator 
        said:

           ``The backup is actually--puts us in a better situation than 
        we would have been with Constellation"

           ``As it is right now, I have two companies that are bidding 
        on or competing to handle access to low Earth orbit. I am 
        hopeful that both of them will be successful. We are also 
        intending to go out and reopen the competition to see if we can 
        add even more companies into the mix. So conceivably there 
        could be multiple companies that we recognize as having met the 
        safety criteria for what we want to do, and then we are much 
        better off than we would have been with a NASA designed and 
        built system in a single Ares I.''

           It is unclear what companies the Administrator was referring 
        to in his response, since NASA has not yet issued any 
        solicitations for commercial crew transportation demonstrations 
        or services.

           Notably, the Augustine Committee's report said, regarding 
        this issue of contingency: ``[T]he commercial community may 
        fail to deliver a crew capability in mid-program, and the task 
        would revert to NASA. This could be caused by either a 
        technical failure or a business failure--a failure to obtain 
        financing, changes in markets or key suppliers, re-alignment of 
        business priorities, or another non-technical reason. Either 
        type of failure would require NASA intervention, and the 
        possibility that NASA would either have to operate the system, 
        or fall back to an alternative.''

           In addition, there is no information available as to what 
        the cost to the government would be to sustain two or more 
        companies. The Department of Defense's experience with the 
        Evolved Expendable Launch Vehicle (EELV) Program where the 
        services from the two initial companies were merged into a 
        single joint venture [United Launch Alliance or ULA] is 
        illustrative of the challenge of assessing future government 
        funding requirements based on assumed future commercial 
        markets. Last week, the CEO of ULA told a Senate subcommittee:

           [T]he consolidation to form ULA was done in part because the 
        commercial market projected in the late 1990s did not 
        materialize as was originally expected and the remaining market 
        was insufficient to sustain two healthy launch service 
        providers. Therefore, we believe the nation's human access to 
        space should not be dependant [sic] on the success of a future 
        adjacent commercial market.

        <bullet>  On what basis does NASA estimate that commercial crew 
        services will be available by 2016?

           At the February 1, 2010 teleconference where NASA and Office 
        of Science and Technology Policy (OSTP) officials, including 
        NASA's Deputy Administrator, briefed the media on NASA's budget 
        request, the latter said that for planning purposes, NASA 
        expected a commercial crew transport system to be ready to go 
        in 2016.

           Documents provided in conjunction with NASA's FY 2011 budget 
        justification do not indicate how the 2016 date was 
        established. It should be noted that the NASA Administrator 
        said during his February 6, 2010 press conference that he was 
        not in his position long enough to warrant his taking potential 
        commercial crew providers' cost and schedule estimates ``to the 
        bank'' and consequently is asking to talk to them on issues of 
        schedule and cost and whether they can still deliver within the 
        time horizon they presented to the Augustine Committee, and if 
        so, under what assumed conditions.

        <bullet>  Who assumes the liability for astronauts or 
        researchers transported on commercial crew vehicles?

           NASA has not indicated who would assume the liability for 
        astronauts or researchers transported on commercial vehicles.

           The Commercial Space Launch Amendments Act of 2004 put an 
        initial regulatory framework in place for commercial human 
        space flight. The intent of the law was to support the 
        development of this private sector effort while also protecting 
        the safety of the uninvolved public on the ground. The law 
        established an ``informed consent'' regime for carrying space 
        flight crew and participants (passengers). As part of the 
        ``informed consent'' regime, FAA regulations require an 
        operator to inform in writing any individual serving as crew 
        that the United States Government has not certified the launch 
        vehicle and any reentry vehicle as safe for carrying flight 
        crew or space flight participants. Similarly, the operator must 
        inform each space flight participant in writing about the risks 
        of the launch and reentry, including the safety record of the 
        launch or reentry vehicle type. NASA has not established 
        whether its astronauts or funded researchers would be flying 
        under the ``informed consent'' regime.

        <bullet>  How will NASA ensure that commercial crew 
        transportation systems meet its safety requirements?

           The Administrator has stated that he is confident that 
        commercial crew vehicles will be safe. In introducing NASA's FY 
        2011 budget request, he said:

           ``Commercial launch vehicles have for years carried all U.S. 
        military and commercial--and most NASA--satellites to orbit. 
        Now, as 50 years ago when we upgraded existing rockets for the 
        Gemini program, NASA will set standards and processes to ensure 
        that these commercially built and operated crew vehicles are 
        safe. No one cares about safety more than I. I flew on the 
        space shuttle four times. I lost friends in the two space 
        shuttle tragedies. So I give you my word these vehicles will be 
        safe.''

           Documents provided in conjunction with NASA's FY 2011 budget 
        justification indicate that NASA plans to complete its 
        definition of human rating requirements in FY 2010.

           In establishing the human rating requirements for commercial 
        crew vehicles, NASA needs to consider the following:

                <bullet>  The Aerospace Safety Advisory Panel (ASAP) 
                has expressed concerns about the safety of potential 
                commercial crew vehicles. In testimony before the 
                Subcommittee on February 3, 2010, VADM Joseph Dyer, the 
                Chairman of ASAP, said in his prepared statement:

                   ``For these reasons, the Panel stated, ``To abandon 
                Ares I as a baseline vehicle for an alternative without 
                demonstrated capability nor proven superiority is 
                unwise and probably not cost effective. The ability of 
                any current COTS design to ``close the gap'' or even 
                provide an equivalent degree of safety is 
                speculative.''

                <bullet>  At the Subcommittee's hearing on human space 
                flight safety in December 2009, Joseph Fragola, a 
                safety specialist and former member of NASA's 
                Exploration Systems Architecture Study, said in his 
                prepared statement regarding the Constellation 
                Program's Ares I launcher:

                   ``It is my belief that the Ares I vehicle, because 
                of its inherent focus on being as safe as achievable 
                from the very start, has the best chance to be an 
                outstandingly safe crew launcher. There is no way to 
                insure safety, and spaceflight will always be a risky 
                endeavor, but a launcher that is designed to be safe 
                from the start, at least to me, is a good way to 
                begin.''

                <bullet>  Recently, in response to the administration's 
                proposal for commercial vehicles to provide astronaut 
                transportation to the ISS, NASA's Astronaut Office in a 
                March 2010 memorandum made several recommendations for 
                ``the transition to a commercial-crew vehicle to the 
                ISS which leverages the experience gained in the 
                operation of the Space Shuttle, the ISS, and in the 
                design of Constellation.'' The Chief Astronaut, Peggy 
                Whitson, said in the memorandum:

                   ``Memorandum CB-04-044, Astronaut Office Position on 
                Future Launch System Safety, was released in May 2004 
                by the Astronaut Office after the Columbia disaster, 
                precipitated by a reexamination of all operational 
                aspects of human spaceflight and focusing on launch 
                vehicle safety for any next generation of human rated 
                spacecraft. Although flying in space will always 
                involve significant risk, an order of magnitude 
                improvement during ascent compared to Space Shuttle, is 
                achievable with current technology and represents a 
                minimum safety benchmark for future systems. It is 
                highly recommended that any human-rated launch system 
                include a booster with ascent reliability at least as 
                high as the Space Shuttle's and an abort system which, 
                together with the booster, yield a predicted Loss of 
                Crew (LOC) number of 1/1000. This number assumes a loss 
                of one vehicle per 100 launches and a crew escape 
                system providing a 90% probability of survivable crew 
                escape.''

                   ``Some boosters are designed to highly loft their 
                ascent trajectory to optimize the capability of their 
                propulsion system and the amount of mass the booster 
                can deliver to orbit. For expendable vehicles, these 
                trajectories are efficient and transparent to the 
                payload. For a crewed vehicle however, aborting from a 
                lofted trajectory puts the crew at a significant 
                survival risk in some scenarios due to high G loads and 
                heating. These pans of the trajectory, where an abort 
                is nonsurvivable, are called black zones. A 
                commercially crewed vehicle must have full envelope 
                abort/escape capability with no black zones.'' [A 
                ``black zone'' is a time period during launch when the 
                crew would be unable to safely escape or abort in the 
                event of a failure of the launch vehicle.]

        <bullet>  In the absence of an alternative government system, 
        what recourse will the government have if commercial crew 
        vehicles are unable to attain the safety standard set by NASA?

           Documents provided in conjunction with NASA's FY 2011 budget 
        justification do not indicate what recourse the government will 
        have in the absence of an alternative government system if 
        commercial crew vehicles are unable to meet NASA's safety 
        requirements.

        <bullet>  In the absence of an alternative government system, 
        how will the pricing of the commercial crew transport services 
        be set and enforced?

           Documents provided in conjunction with NASA's FY 2011 budget 
        justification do not indicate how such pricing will be set or 
        enforced in the absence of an alternative government system.

        <bullet>  How many net jobs is NASA assuming will be created by 
        the proposal to seek commercial crew services to support the 
        ISS coupled with the cancellation of the Constellation Program? 
        What is the basis of those assumptions?

           At the Committee's February 25, 2010 hearing, the NASA 
        Administrator said in his prepared statement:

           ``An enhanced U.S. commercial space industry will create new 
        high-tech jobs, leverage private sector capabilities and energy 
        in this area, and spawn other businesses and commercial 
        opportunities, which will spur growth in our Nation's 
        economy''.

           ``NASA will cancel the Constellation Program in favor of a 
        bold new approach that invests in the building blocks of a more 
        capable alternative to space exploration. This new investment 
        in NASA and the corresponding reorientation of the human space 
        flight program will create thousands of jobs nationwide, 
        offsetting the job losses that may be associated with the 
        cancellation of Constellation.''

           Documents provided in conjunction with NASA's FY 2011 budget 
        justification do not indicate how or whether NASA independently 
        determined the number of jobs that would be created by an 
        enhanced U.S. commercial space industry or when they would 
        materialize, nor do they provide a calculation of net number of 
        jobs created nationwide when the cancellation of the 
        Constellation is taken into account.

        <bullet>  Has NASA determined what skills its civil service 
        workforce will need to conduct effective oversight of and 
        validation of human-rating, to ensure safe on-orbit operations, 
        and to enable ``smart-buyer'' practices of any potential 
        commercial crew service? Has NASA determined how that skill 
        base will be preserved?

           Documents provided in conjunction with NASA's FY 2011 budget 
        justification do not indicate the extent of oversight NASA will 
        apply on potential commercial crew service providers or how 
        human space flight skills will be maintained in the absence of 
        new NASA flight programs.

Basis for Requesting New Commercial Cargo Incentives

        <bullet>  What is the basis for proposing a $312 million 
        ``incentive'' for the COTS program, given that the companies 
        involved already have the incentive of a total of $3.5 billion 
        in revenue from the follow-on contract?

           According to the NASA Administrator's response to a similar 
        question Chairman Gordon posed at the Committee's February 25, 
        2010 NASA budget hearing, the Administrator committed to 
        providing the Committee with an answer for the record.

        <bullet>  How will the proposed additional funding [the $312 
        million cited above] be used?

           According to NASA's budget justification, the $312 million 
        will be used for ``incentivizing NASA's current commercial 
        cargo program to improve the chance of mission success by 
        adding or accelerating the achievement of already planned 
        milestones, adding additional capabilities, or tests that may 
        ultimately expedite the pace of development of cargo flights to 
        the ISS. Risk reduction activities may include adding 
        milestones to complete the Probabilistic Risk Assessment (PRA) 
        to identify early risks. Accelerating enhanced capabilities may 
        include adding milestones for early development of items such 
        as the high energy engine for Orbital's Taurus II upper stage, 
        and Block 2 engine upgrades SpaceX's Falcon 9; a demonstration 
        flight may be added to validate the upgrades. NASA will 
        continue to evaluate the Cargo Resupply Services (CRS) contract 
        to determine if funds can be used to accelerate hardware 
        fabrication and assembly of the CRS vehicles.''

           NASA has not provided further details on what specific 
        activities will be conducted or what the consequences of not 
        funding such an increase would be. It should be noted that the 
        requested funding represents a 62% increase over the funding 
        NASA and its funded partners had previously agreed to as being 
        sufficient to complete COTS demonstrations. Given the 
        additional complexity of a commercial crew transportation 
        system, the percentage increase in cost for commercial cargo 
        transport reinforces the importance of determining a credible 
        cost estimate for commercial crew transport development before 
        committing to that approach.

Basis for Cancelling the Constellation Program

        <bullet>  What evidence has been provided that shows that the 
        alternative to the Constellation Program is better? Was an 
        Analysis of Alternatives (AoA) performed?

           The Office of Management and Budget fact sheet accompanying 
        NASA's FY 2011 budget request said:

           ``NASA's Constellation program--based largely on existing 
        technologies--was based on a vision of returning astronauts 
        back to the Moon by 2020. However, the program was over budget, 
        behind schedule, and lacking in innovation due to a failure to 
        invest in critical new technologies. Using a broad range of 
        criteria an independent review panel determined that even if 
        fully funded, NASA's program to repeat many of the achievements 
        of the Apollo era, 50 years later, was the least attractive 
        approach to space exploration as compared to potential 
        alternatives. Furthermore, NASA's attempts to pursue its moon 
        goals, while inadequate to that task, had drawn funding away 
        from other NASA programs, including robotic space exploration, 
        science, and Earth observations. The President's Budget cancels 
        Constellation and replaces it with a bold new approach that 
        invests in the building blocks of a more capable approach to 
        space exploration.''

           At his hearing before the Committee on February 24, 2010 
        regarding the administration's FY 2011 Research and Development 
        budget proposal, the OSTP Director said in his prepared 
        statement:

           ``The new approach--which adds $6 billion over the next five 
        years for NASA--includes a vigorous technology development and 
        test program that will begin to reverse decades of under-
        investment in new ideas. By extending the life of the 
        International Space Station, it increases the number of U.S. 
        astronauts who will be working in space over the next decade; 
        by supporting the development of private sector capabilities to 
        lift astronauts into low Earth orbit it will shorten the 
        duration of our reliance solely on Russian launchers for this 
        purpose; and by investing in new, game-changing technologies it 
        gives promise of getting our astronauts to deep space 
        destinations sooner, faster, safer, and cheaper than what could 
        realistically have been achieved under the old approach.''

           OSTP has provided no information to support this statement, 
        nor have any studies, including an analysis of alternatives, 
        been identified to Congress that demonstrate that the new 
        approach ``gives promise of getting our astronauts to deep 
        space destinations sooner, faster, safer, and cheaper than what 
        could realistically have been achieved under the old 
        approach.''

           At the Committee's February 24, 2010 hearing on the 
        Administration's FY 2011 Science Programs, the Director of OSTP 
        told Ranking Member Ralph Hall:

           Each component of it [Constellation] was very seriously over 
        budget. So, we think that what we are proposing is a program 
        that has a better chance of success than Constellation did and 
        delivering what the American people want and expect from their 
        space program, which is innovation, which is the forward 
        leading program with exciting vision, exciting ideas, the 
        possibility of ultimately taking Americans into deep space 
        beyond the earth moon system with better technology, more 
        efficiently, more safely than Constellation would ever have 
        been able to manage. And we're doing it in a budget that we can 
        afford.

           The Director did not provide specific examples of any 
        Constellation elements that were ``seriously over budget.''

           At the Committee's February 25, 2010 hearing on NASA's FY 
        2011 budget request, Rep. Lincoln Davis asked the NASA 
        Administrator to convince him that the program proposed was 
        ``better than what we have with Constellation'', to which the 
        Administrator replied:

           ``I promised the Chairman that, you know, we are not 
        prepared at this time, and I apologized at the very outset of 
        the hearing because we do not have the type of detailed program 
        outline that one would normally expect when we are making a 
        change like this, but we are working on it.''

        <bullet>  Did NASA conduct independent cost analyses to 
        determine costs associated with Constellation cancellation, 
        termination of workforce, disposition of property and 
        infrastructure, and environmental clean-up?

           Documents provided in conjunction with NASA's FY 2011 budget 
        justification do not indicate that NASA conducted such 
        independent cost analyses.

        <bullet>  What is the plan for the disposition of facilities 
        constructed to support and develop the Constellation Program?

           Documents provided in conjunction with NASA's FY 2011 budget 
        justification do not indicate that such a plan has been 
        completed.

Basis for Exploration Technology Development Priorities and Funding 
                    Needs

        <bullet>  What is the basis for the exploration technology 
        development priorities in the FY 2011 budget request?

           Documents provided in conjunction with NASA's FY 2011 budget 
        justification do not provide specifics on how priorities for 
        propulsion R&D and exploration technology development were 
        established.

        <bullet>  What is the basis of the budget requests for 
        propulsion R&D and exploration technology development programs?

           Documents provided in conjunction with NASA's FY 2011 budget 
        justification do not provide specifics on how requested funding 
        levels for propulsion R&D and exploration technology 
        development were established.

        <bullet>  What is the basis of the precursor robotic missions 
        projected by NASA?

           Documents provided in conjunction with NASA's FY 2011 budget 
        justification do not provide specifics on why NASA must send 
        precursor robotic missions to specific destinations. It is 
        worth noting that NASA has already sent robotic missions to 
        Lagrangian points, asteroids and Mars and continues to plan 
        such missions as part of its Science programs. Also, the Google 
        Lunar X Prize, which is a private activity, has nearly 
        identical objectives as that proposed for the robotic precursor 
        mission to land a robot on the Moon that can be remotely 
        operated and that can transmit near realtime video.

Impact of Cancelling Constellation on NASA's Workforce

        <bullet>  Has NASA determined the impact of cancelling 
        Constellation on NASA's workforce?

           At the Committee's February 25, 2010 hearing on NASA's FY 
        2011 budget request, the NASA Administrator said in his 
        prepared statement:

           ``NASA recognizes that this change will personally affect 
        thousands of NASA civil servants and contractors who have 
        worked countless hours, often under difficult circumstances, to 
        make the Constellation Program successful. I commend the 
        investment that these dedicated Americans have made and will 
        continue to make in our Nation's human spaceflight program. 
        Civil servants who support Constellation should feel secure 
        that NASA has exciting and meaningful work for them to 
        accomplish after Constellation, and our contractor colleagues 
        should know that NASA is working expeditiously to identify new 
        opportunities for them to partner with the Agency on the new 
        Exploration portfolio.''

           Specifics on workforce impacts are not yet developed and the 
        basis for the NASA Administrator's statement that ``Civil 
        servants who support Constellation should feel secure that NASA 
        has exciting and meaningful work for them to accomplish after 
        Constellation'' is unclear. In his response to a question from 
        Rep. Michael McCaul, the Administrator said:

           ``I wish I could give you definitive programs that we are 
        going to have now, but we are 2 weeks, 3 weeks after the 
        rollout of the budget, and we have not gotten those types of 
        answers. But I promise you that within months, because I have 
        asked for studies to be brought to me to help us determine 
        which programs we are going to do. Within months we will be 
        able to put some meat on the bones, if you will, because I 
        realize there is a lack of detail, and that is disturbing to 
        everybody. It is disquieting and discomforting to me, but we 
        are going to get some answers for you. We will have some 
        programs defined.''

           In addition, NASA has not provided any information on how 
        the redirection will affect the types of skills it will need. 
        This is important because it is likely that skills needed under 
        the original plan which assumed NASA's direct involvement in 
        the design of space launchers and vehicles will not be the same 
        under a scenario where the agency procures crew transportation 
        services.

Impact of Cancelling Constellation on the Nation's Industrial Base

        <bullet>  What implications does the proposed cancellation of 
        Constellation have for other Federal agencies, such as the 
        Department of Defense's space industrial base?

           At a March 10, 2010 hearing by the Senate Armed Services 
        Committee's Subcommittee on Strategic Forces, the Deputy Under 
        Secretary of the Air Force for Space Programs said in his 
        prepared statement that:

           ``Factors contributing to rising launch costs are the 
        depletion of inventory purchased in prior years, reduced number 
        of annual buys increasing unit costs, and a deteriorating 
        subcontractor business base without commercial customers. These 
        industrial base factors will also be affected by the decision 
        to replace NASA's Constellation program with a new, more 
        technology focused approach to space exploration, which will 
        likely reduce the customer base for solid rocket motors and 
        potentially increase demand for liquid engines and strengthen 
        the liquid fuel rocket industrial base. We have initiated 
        several efforts to examine the severity of these business base 
        issues and identify potential mitigation steps.''

           This issue was also addressed in a recent Air Force Times 
        article:

           ``The Air Force and National Reconnaissance Office could 
        face major increases in the cost of launching satellites as a 
        result of the Obama administration's decision to cancel NASA's 
        shuttle replacement program, a top Air Force official said.

           Gary Payton, deputy undersecretary of the Air Force for 
        space programs, told Members of Congress that the Obama 
        administration had not asked the Air Force to examine the 
        effects of canceling NASA's Constellation program before the 
        Feb. 1 announcement.

           The military and intelligence community rely on the same 
        manufacturers as NASA to build the rockets that launch their 
        satellites, but the White House plans to turn to commercially 
        owned rockets to launch astronauts following retirement of the 
        shuttle later this year.

           Early information shows the price of rocket propulsion 
        systems for the military and NRO `might double' as a result, 
        Payton said.''

           At that same hearing, according to the same Air Force Times 
        article, Senator David Vitter asked Mr. Payton if the Air Force 
        was explicitly asked the impact on the service of canceling 
        Constellation before the decision was made:

           `` `No sir,' Payton said. Six studies are now underway 
        together with NASA and NRO to examine price questions, 
        workforce issues and reliability concerns, he said.''

Impact of Cancelling Constellation on Existing NASA Contracts

        <bullet>  What is the basis for the $2.5 billion for transition 
        costs associated with cancelling the Constellation Program?

           Documents provided in conjunction with NASA's FY 2011 budget 
        justification do not provide specifics on how the $2.5 billion 
        figure for Constellation transition costs was established.

           According to a recent article in Aerospace Daily & Defense 
        Report, the comprehensiveness of that figure has recently been 
        called into question. The article reported that NASA's Chief 
        Financial Officer characterized the $2.5 billion in NASA's 
        Fiscal 2011 budget request to terminate the Constellation 
        Program as probably ``oversubscribed'' and that NASA is 
        developing a plan for managing the requested funds and handling 
        contract termination liability whose costs are not included in 
        the $2.5 billion figure.

International Space Collaboration

        <bullet>  What is the U.S. strategy for international 
        engagement in human spaceflight activities and exploration 
        under the proposed plan?

           According to a February 6, 2010 article in Space News, the 
        Administrator indicated plans for expanded international 
        collaboration in space:

           ``Flexible Path says we're going to multiple destinations 
        and we're going to go there as we develop the capability to do 
        it, ' Bolden said, adding that Obama instructed him to expand 
        NASA's involvement with international partners to accomplish 
        such missions, including collaborative development of a heavy-
        lift launcher.''

           `` `We're going to put international partners in the 
        critical path, which means they may develop a system that we 
        know how to do, but we don't know how to do it as well as they 
        do,' he said.''

           ``Bolden said greater reliance on international partnerships 
        would be one of the biggest changes NASA would see under his 
        leadership.''

           NASA's FY 2011 budget justification does not provide 
        specifics on NASA's plans for international engagement in human 
        spaceflight activities and exploration other than through 
        potential international involvement in some of the proposed 
        advanced technology development programs. How such potential 
        technology development activities would be affected by 
        International Traffic in Arms Regulations (ITAR) restrictions 
        is also unclear.
    Chairwoman Giffords. This hearing will come to order. 
Before we get started we have had some interest from other 
members from outside committees that would like to attend, and 
I would like to remind folks that non-committee members are 
only recognized for questions after the full subcommittee 
members get a chance to speak.
    So without objection, Ms. Jackson Lee, Mr. Perlmutter, and 
Mr. Posey will be allowed to participate if they so choose.
    Good afternoon, everyone. Thank you for being here. I would 
like to welcome our witnesses today. Both Mr. Doug Cooke and 
Mr. A. Thomas Young have long and distinguished careers in 
aerospace, and we look forward to gleaning from their decades 
of knowledge on the subject.
    Mr. Cooke has very generously agreed to give us answers to 
the many questions that have been raised concerning the 
President's budget proposal, but it is important for members to 
understand that Mr. Cooke is not the architect of the proposal.
    I have called this hearing today because we have very 
serious issues to address; the future of America's human 
spaceflight program and the Congress and the President needs to 
get this one right. The clock is ticking. It is now almost two 
months since the Administration's fiscal year 2011 budget 
request for NASA was submitted to Congress, and there are still 
too many unanswered questions surrounding it.
    We are here today because the President's budget has been 
found deficient by this Congress and by the American people. It 
proposes drastic changes in the future of NASA with tremendous 
impact to high-skilled jobs and high-tech manufacturing 
capabilities. It could leave our country with no human 
exploration program, no human-rated spacecraft, and little 
ability to inspire the youth of America. The budget proposed 
does all this with very few details to support this new 
direction.
    This hearing is but the latest in a series that have been 
held by the full committee on Science and Technology and also 
the subcommittee. It is our job and the responsibility to 
ensure that American taxpayer dollars are spent wisely. We must 
be certain that existing programs are worthwhile and well 
managed, and we must be fully informed of the impact of 
cancellations of programs.
    Over the past few months we have held many hearings to 
address safety concerns for human spaceflight, the competition 
of international space programs, and the impact of NASA's 
programs on the skilled aerospace workforce and industrial 
base. We have also heard from the Government Accountability 
Office and NASA's Inspector General, and just last month NASA's 
Administrator, General Charlie Bolden, testified on the fiscal 
year 2011 budget proposal.
    Unfortunately, the NASA Administrator was unable to satisfy 
many of the members of this subcommittee. Today we are going to 
continue to take a closer look at the elements of the proposed 
plan and try to get additional information to the extent that 
that information exists. We are also going to examine the 
impacts and consequences that would flow from its adoption. 
Some of those impacts are quite profound and quite troubling.
    Today we are going to try to review the status of the 
current Constellation Program with just passed--we have just 
passed a significant design milestone, and we will determine 
whether the intent of Congress expressed in the fiscal year 
2010 Appropriations Act is being met. This oversight is the 
purpose of this subcommittee hearing, and we intend to be 
thorough.
    The fact of the matter is that Congress is being asked to 
support a budget request that proposes the cancellation of the 
Constellation Program; cancellation of a successful program 
that has been underway over the past five years, cancellation 
of a program that has met significant milestones and would keep 
the United States of America as a world leader in aerospace. We 
have been asked to support a budget request that will leave 
this country without a government system to access low-earth 
orbit and beyond.
    In canceling this program we would write off $14 billion in 
taxpayer money with no apparent plan to make any significant 
use of the results of that investment. We would make this 
country dependent on yet-to-be-developed commercial crew 
services of unknown costs and safety with no government backup 
system available. We would be very likely to be forced to rely 
on other nations to access LEO and for the International Space 
Station for the foreseeable future. We will be left without a 
concrete plan, destination, time table for exploration beyond 
LEO.
    Additionally, this cancellation would negatively impact the 
Nation's defense industrial base and would eliminate the 
program that would ease the transition from the Space Shuttle 
workforce and help retain key human spaceflight skills and 
industrial capabilities needed for our future.
    In place of good explanations and solid rationale for such 
sweeping and frankly puzzling changes, we have been given a 
combination of unpersuasive arguments, and ``we are working on 
the details'' responses.
    For instance, the commercial crew proposal is lacking all 
of the basic information that a would-be investor would demand 
before committing their funds to such a project. For example, 
what is the proposed cost to the government to develop these 
systems, how much, if any, of the development costs will be 
shared by the companies, how much will it cost NASA to buy 
these services, what else will NASA have to provide to make and 
keep these companies' operations viable? When can we credibly 
expect these services to be operationally available, and will 
they meet our expectation of what is safe enough? What recourse 
will NASA have if the companies fail to meet safety standards, 
costs, schedule, and performance? And finally, is there any 
significant, non-NASA market for these services? It is a viable 
one, and is it one that we should use scarce taxpayer dollars 
to promote?
    Congress is being asked right now to invest our money in a 
commercial crew venture without providing us with reasonable 
expectations for success, and as part of my efforts to find out 
whether there was a solid factual or analytical basis in last 
year's Augustine Committee report for the Administration's 
plan, I directed a series of basic questions to the Aerospace 
Corporation, the organization that was asked to support the 
Augustine Committee in this review.
    Aerospace's responses, which I am entering into the record 
as of today's hearing, make it clear that such a basis is 
lacking in many important areas. There is not a criticism--this 
is simply not a criticism of Aerospace. It is a distinguished 
organization, but it does call into question the depth of 
analysis that the Administration proposes--proposals received 
before it was sent here to Capitol Hill.
    In today's hearing we will address the outstanding 
questions in the proposed budget regarding human exploration. 
We ask for clear, fact-based answers. The American people 
deserve no less.
    And as a final note, I would like to share something that I 
received in the mail recently. I hold in my hand the picture 
that was sent to me by a seven-year-old boy. He wrote here his 
name is Noah, and he is seven, and in it he has one of these 
incredible spacecraft that he has imagined, and it looks like 
it is about to land on another celestial body. And on it he 
writes, ``We love space.'' When Noah is grown and considering a 
career in the area of space, will or will not NASA be that 
shining light that inspires the youth of America to actually 
think about the future and the dreams?
    Noah is not alone. This committee has made science and math 
education a priority for young people, and under the leadership 
of our Chairman, Bart Gordon, we will be reauthorizing the 
America COMPETES legislation that aims to boost our stem 
education and workforce in order to keep our country 
economically competitive. And in hearing after hearing we are 
informed that one of the biggest components necessary to get 
young kids inspired and interested in engineering is 
inspiration.
    I believe, and I believe that members of this subcommittee 
and full committee believe that NASA has been the greatest 
source of inspiration for our Nation, this world--and this 
world has ever seen.
    The most troubling aspect of the President's proposal in my 
view, and I believe in the view of my colleagues, is the lack 
for a real solid plan for human exploration, and this is the 
pinnacle of inspiration. We expect more from the Administration 
and frankly from NASA, an organization filled with some of the 
most brilliant analytical minds on the planet that have come 
before us today and are here before us today. We expect more 
than a vague list of hypothetical destinations. We deserve and 
demand a comprehensive human exploration program that details 
where we will go, when we will get there, and how we will get 
there. Only by first determining the mission can we determine 
the necessary technologies and the time table for development.
    It is my firm belief that America should not sit idly by 
for another 20 years before embarking on an expedition to Mars. 
I want to see a plan that includes human exploration beyond LEO 
by the end of this decade, not the following decade. Nothing in 
this budget gives any indication that that would occur, and I 
think that is unacceptable. We have the technology. Let us make 
it happen.
    Thank you very much, and now I yield to our Ranking Member.
    [The prepared statement of Chairwoman Giffords follows:]

          Prepared Statement of Chairwoman Gabrielle Giffords

    Good afternoon. I want to welcome our witnesses today. Both Mr. 
Doug Cooke and Mr. A. Thomas Young have long and distinguished careers 
in aerospace, and we look forward to gleaning from their decades of 
knowledge on the subject. Mr. Cooke has agreed to give us answers to 
the many questions that have been raised concerning the President's 
budget proposal, but it is understood that he is not the architect of 
this plan.
    I have called this hearing today because we have a serious issue to 
address--the future of America's human space flight program--and we 
need to get it right.
    The clock is ticking. It is now almost two months since the 
Administration's FY 2011 budget request for NASA was submitted to 
Congress, and there are still too many unanswered questions surrounding 
it.
    We are here today because the President's budget has been found 
deficient by this Congress and by the American people. It proposes 
drastic changes in the future of NASA with tremendous impact on high 
skill jobs and high tech manufacturing capabilities. It could leave our 
country with no human exploration program, no human rated spacecraft, 
and little ability to inspire the youth of America. The budget proposal 
does all this with few details to support its new direction.
    This hearing is but the latest in a series that have been held by 
the committee on science and technology and this subcommittee. It is 
our job and responsibility to ensure that American taxpayer dollars are 
spent wisely. We must be certain that existing programs are worthwhile 
and well managed, and we must be fully informed of the impacts of the 
cancelation of programs.
    Over the past few months we have held many hearings to address 
safety concerns for human spaceflight, the competition of international 
space programs, and the impact of NASA's programs on the skilled 
aerospace workforce and industrial base. We have also heard from the 
Government Accountability Office and NASA's Inspector General. And just 
last month NASA Administrator, General Charlie Bolden testified on the 
FY 2011 budget request.
    Unfortunately, the NASA Administrator was unable to satisfy many of 
the Members of this Committee. Today we are going to continue to take a 
closer look at the elements of the proposed plan and try to get 
additional information--to the extent that such information exists.
    We are also going to examine the impacts and consequences that 
would flow from its adoption--some of those impacts are quite profound 
and troubling.
    Today we're also going to review the status of the current 
Constellation program, which just passed a significant design 
milestone, and we will determine whether the intent of Congress 
expressed in the FY 2010 appropriations act is being met.
    This oversight is the purpose of this subcommittee hearing, and we 
intend to be thorough.
    The fact of the matter is that Congress is being asked to support a 
budget request that proposes cancellation of the Constellation program. 
Cancellation of a successful program that has been underway for the 
past five years. Cancellation of a program that has met significant 
milestones and would keep the United States as the world leader in 
aerospace. We have been asked to support a budget request that will 
leave this country without a government system to access low Earth 
orbit and beyond.
    In canceling this program, we would write off $14 billion in 
taxpayer dollars spent, with no apparent plan to make any significant 
use of the results of that investment. We would make this country 
dependent on yet-to-be developed ``commercial crew'' services of 
unknown cost and safety, with no government-backup system available; we 
would very likely be forced to rely on other nations to access low 
Earth orbit and the International Space Station for the foreseeable 
future. We would be left without a concrete plan, destination, or 
timetable for exploration missions beyond LEO. Additionally, this 
cancellation would negatively impact the nation's defense industrial 
base and would eliminate the program that would ease the transition for 
the Space Shuttle workforce and help retain key human space flight 
skills and industrial capabilities needed for the future.
    In place of good explanations and solid rationales for such 
sweeping and frankly puzzling changes, we have been given a combination 
of unpersuasive arguments and ``we're working on the details'' 
responses.
    For instance, the commercial crew proposal is lacking all of the 
basic information that a would-be investor would demand before 
committing funds to a project. For example:

        <bullet>  What's the proposed cost to the government to develop 
        these systems?

        <bullet>  How much, if any, of the development cost will be 
        shared by the companies?

        <bullet>  How much will it cost NASA to buy these services?

        <bullet>  What else will NASA have to provide to make--and 
        keep--the companies' operations viable?

        <bullet>  When can we credibly expect these services to be 
        operationally available and will they meet our expectation of 
        what is safe enough?

        <bullet>  What recourse will NASA have if the companies fail to 
        meet safety standards, cost, schedule and performance.

        <bullet>  Finally, is there any significant non-NASA market for 
        these services; is it a viable one; and is it one we should use 
        scarce tax dollars to promote?

    Congress is being asked to invest taxpayer dollars in a commercial 
crew venture without providing us with a reasonable expectation of 
success.
    As part of my efforts to find out whether there was a solid factual 
or analytical basis in last year's Augustine committee report for the 
Administration's plan, I directed a series of basic questions to 
Aerospace Corporation, the organization that was asked to support the 
Augustine committee in its review.
    Aerospace's responses, which I am entering into the record of 
today's hearing, make it clear that such a basis is lacking in many 
important areas. That is not a criticism of Aerospace--a distinguished 
organization--but it does call into question the depth of analysis that 
the Administration's proposals received before they were sent to 
Capitol Hill.
    In today's hearing, we will address the outstanding questions in 
the proposed budget regarding human exploration. We ask for clear, 
fact-based, answers. The American public deserves no less.
    As a final note, I would like to share something I received in the 
mail recently. I hold in my hands a drawing sent to me by a seven year 
old boy scout named Noah. It depicts a spaceship landing on a heavenly 
body with the accompanying caption, written in the bold script of a 
child, ``We Love Space.'' When Noah is grown and considering a career 
or an area of study, will NASA still be that shining light that 
inspires the nation? Noah is not alone. This committee has made the 
science and math education of young people one of its highest 
priorities. Under the leadership of Chairman Gordon, we will be 
reauthorizing the America COMPETES legislation that aims to boost our 
STEM education and workforce in order to keep America economically 
competitive.
    In hearing after hearing we are informed that one of the biggest 
components necessary to get young people interested in science and 
engineering is a source of inspiration. I believe that NASA has been 
the greatest source of inspiration that this nation, this world, has 
ever seen, and I aim to keep it that way.
    The most troubling aspect of the President's proposal in my view, 
and I believe in the view of many of my colleagues, is the lack of any 
real plan for human space exploration--the pinnacle of inspiration.
    I expect more from the Administration and frankly more from NASA, 
an organization filled with some of the most brilliant and analytic 
minds on the planet, than a vague list of hypothetical destinations. We 
deserve and demand a comprehensive human exploration plan that details 
where we will go, when we will go, and how we will get there. Only by 
first determining the mission can we determine the necessary 
technologies and development timeline.
    It is my firm belief that America should not sit idly by for 
another 20 years before embarking on an expedition to Mars. I want to 
see a plan that includes human exploration beyond low Earth orbit by 
the end of this decade. Nothing in this budget gives any indication 
that this would occur, and I find that unacceptable. We have the 
technology. Let's make it happen.
    Thank you, and I now yield to Ranking Member Olson.

    Mr. Olson. Madam Chairwoman, thank you very much for 
hosting this hearing today. I would like to thank our witnesses 
for their appearance today. Both of these men bring years of 
valuable experience and perspectives. I would like to, 
especially like to commend Mr. Cooke in particular for his 
service during what must be to say the least an interesting 
time in the agency's history, especially for your mission 
directorate. And as the Chairwoman said, I understand you are 
not responsible for the budget proposal. I will re-holster my 
Blackberry. Can't get the Texas kid out of Texas, can't get the 
Texas out of the boy.
    Anyway, Madam Chairwoman, I applaud you for your leadership 
in organizing this committee's examination of NASA's proposed 
changes in its human spaceflight program. There are many 
questions to be asked and information yet to be provided about 
such a major redirection.
    Frankly, from my perspective, too many people are behaving 
as if these changes outlined in the budget proposal are a fait 
accompli. That is far from the truth, and no matter what you 
feel about the ultimate choice that should be made, there are 
still too many unknowns, too many issues that must be evaluated 
before Congress can make an informed decision.
    And make no mistake about it, that decision is Congress's 
to make, and this hearing will go a long way toward 
contributing to that debate.
    The President may or may not provide additional details at 
his appearance on April 15 down at the Kennedy Space Center, 
but until then in the absence of mission-specific goals and 
strategies, perception becomes reality. Perception, the 
perception is that Constellation is dead, and in that regard 
rests many of my concerns. Let me share with you a couple of 
them as examples, what I experience when I go back home to the 
Johnson Space Center.
    On March 11 a memo was sent out by NASA halting 
solicitation of outside design submissions for a future lunar 
lander. This procurement activity was not a cancelled contract 
but a cancellation that conflicts with the spirit of current 
law. It does lead me to question the agency's desire to go 
beyond low-earth orbit. It is the kind of judgment call that is 
demoralizing to the workforce. The message we are sending to 
the workforce, march on. The message we need to send is march 
on with Constellation as planned. It is the program of record, 
and until Congress changes it, that is their program that they 
should follow.
    One other concern I have about the workforce is that I am 
increasingly hearing from civil servants who feel that debate 
and dissent when they are talking about upcoming Shuttle 
flights, ISS, or Constellation, they are being squelched within 
the agency, and this is not directed at you, Mr. Cooke, but the 
message of principles, they are important to the agency. We 
can't take them back. We have got to have them throughout the 
leadership of NASA, an atmosphere where questions, informed 
dissent, or well-intentioned alternative approaches are not 
welcome. If that atmosphere is created where they are not 
welcomed, that is going to lead to a fractured, distracted, and 
above all else an unsafe environment.
    Any onset of that kind of repressive management culture 
must be avoided. Each upcoming Shuttle mission and the 
continuous operation of the ISS are too important to the crews, 
the agency, and the future of human spaceflight. NASA employees 
must be confident that they can voice their concerns through 
their management chain without fear of incrimination. They have 
four Shuttle flights left to go. They are pros, but they are 
humans, too.
    Madam Chairwoman, with each day I have more questions and 
more doubts about the reasoning behind the Administration's 
proposed changes in our Nation's human spaceflight program. 
Until better evidence is brought forward, I will state now that 
I am not convinced that the abandoning of Constellation is in 
our Nation's best interest, and I look forward to working with 
you to seek out answers to those questions.
    I thank you, Madam Chairwoman, and yield back the balance 
of my time.
    [The prepared statement of Mr. Olson follows:]

            Prepared Statement of Representative Pete Olson

    Madam Chairwoman, thank you for calling this afternoon's hearing. 
I'd like to thank our witnesses for their appearance today. Both of 
these men bring years of valuable experience and perspective. I would 
especially like to commend Mr. Cooke in particular for his service 
during what must be, to say the very least, an interesting time at the 
Agency, especially for his mission directorate.
    Madam Chairwoman, I applaud you for your leadership in organizing 
this Committee's examination of NASA's proposed changes in its human 
space flight program. There are many questions to be asked--and 
information yet to be provided--about such a major redirection. 
Frankly, too many people are behaving as if the changes outlined in the 
budget proposal are a fait accompli. That is far from the truth and no 
matter what you feel the ultimate choice should be, there are still too 
many unknowns and too many trades that must be evaluated before 
Congress can make an informed decision. This hearing will go a long way 
toward contributing to that debate.
    The President may or may not provide additional details at his 
appearance on April 15, but until then, in the absence of mission-
specific goals and strategies, perception becomes reality. And in that 
regard rests many of my concerns. Let me share with you a couple of 
them as examples.
    On March 11, a memo was sent out by NASA halting solicitation of 
outside design submissions for a future lunar lander. This procurement 
activity was neither a cancelled contract nor a violation of current 
law, but it does lead me to question the agency's desire to go beyond 
low earth orbit. It's this kind of judgment call that can demoralize a 
workforce.
    And in regards to workforce, I increasingly am hearing from civil 
servants who feel that debate and dissent--whether talking about 
upcoming Shuttle flights, ISS, or Constellation--are being squelched 
within the agency. This is not directed at Mr. Cooke, but a restatement 
of principle for all leadership throughout NASA. An atmosphere where 
questions, informed dissent or well-intentioned alternative approaches 
are not welcome will lead to a fractured, distracted, and above all 
else, unsafe environment. Any onset of that kind of repressive 
management culture must be avoided. Each upcoming shuttle mission and 
the continuous operation of the ISS are too important to the crews, the 
agency, and the future of human space flight. NASA employees must be 
confident that they can voice concerns through their management chain 
without fear of recrimination.
    Madam Chairwoman, with each day I have more questions--and more 
doubts--about the reasoning behind the Administration's proposed 
changes in its human space flight program. Until better evidence is 
brought forward, I will state now that I am not persuaded to abandon 
Constellation. I look forward to working with you to seek out those 
answers. I thank you and yield back the balance of my time.

    Chairwoman Giffords. Thank you, Mr. Olson. The Chair knows 
that the Chairman of the full committee has entered the room 
and want to just see whether or not the Chairman has any 
comments that he would like to make.
    Mr. Gordon. This is an important topic, and I am anxious to 
listen to the testimony. Thank you for having this hearing.
    Chairwoman Giffords. Thank you, Chairman Gordon.
    If there are other members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    At this time I would like to introduce our witnesses. As I 
mentioned earlier, they have long and distinguished careers. 
First up we have Mr. Douglas Cooke, who is the Associate 
Administrator of the Exploration Systems Mission Directorate at 
NASA. Mr. Cooke has had a long and distinguished career with 
over 35 years of experience in Space Shuttle, Space Station, 
and in exploration programs. He has led significant activities 
in each of these areas and is widely recognized for his 
leadership in carrying out the Exploration Initiative and the 
development of the Constellation Program. He has received 
numerous awards and commendations and is a true national asset. 
I look forward to his testimony, and in that regard I would 
also hope that my colleagues who have concerns about the 
President's proposed direction will recognize, again, that Mr. 
Cooke is not the President, nor is he the NASA Administrator or 
the architect of this. He is a dedicated civil servant who is 
trying to carry out the direction he has been given to the best 
of his ability. Welcome. We are glad you are here, Mr. Cooke.
    We are also fortunate to have as a witness today Mr. Tom 
Young, who was the Executive Vice President of the Lockheed 
Martin Corporation and former President of Martin Marietta, and 
has a long and distinguished career also in aerospace. He has 
served as Director of the NASA Goddard Spaceflight Center, 
Deputy Director of NASA Ames Research Center, and has led 
numerous reviews and taskforces on issues of national 
importance in both civil and national security space, including 
serving as Chair of the NPOESS Independent Review Team, Chair 
of the Mars Independent Assessment Team, Chair of the 
International Space Station Management and Cost Team, Chair of 
the Taskforce on the Acquisition of National Security Space 
Programs, and Chair of the Independent Panel on the 
Organization and Management of National Security Space among 
others.
    In short, Mr. Young is someone the Nation has come to 
depend on for wisdom based on experience and on analysis. We 
had the benefit of his counsel at last December's subcommittee 
hearing on workforce and industrial-based issues, and we look 
forward to his testimony again today. Welcome.
    As our witnesses should know you each have five minutes for 
your spoken testimony. Your written testimony, of course, will 
be included in the record for this hearing, and when you have 
completed your spoken testimony, we will begin our first round 
of questions, and each member will have five minutes for their 
questions for the panel.
    I would like to begin this afternoon with Mr. Cooke.

     STATEMENT OF DOUGLAS COOKE, ASSOCIATE ADMINISTRATOR, 
 EXPLORATION SYSTEMS MISSION DIRECTORATE, NATIONAL AERONAUTICS 
                    AND SPACE ADMINISTRATION

    Mr. Cooke. Thank you. Chairwoman Giffords and members of 
the subcommittee, thank you for the opportunity to appear today 
to discuss the President's fiscal year 2011 budget request for 
NASA's Exploration Systems Mission Directorate.
    NASA and I personally are grateful for the support and 
guidance we have received from this subcommittee over the years 
and look forward to working with you on the enactment of the 
fiscal year 2011 budget.
    In your invitation you asked me to address three matters; 
the new exploration elements in the fiscal year 2011 budget 
request, status of the Constellation Program, and the 
responsibilities and reporting schedules of Tiger Teams that 
have been established to identify the needed transition efforts 
and budget planning for new programs and requests following the 
proposed cancellation of NASA's Constellation Program.
    My written statement provides more detailed answers to your 
questions, therefore, in the few moments I have let me provide 
you with an overview of the fiscal year 2011 budget request for 
the Exploration Systems Mission Directorate.
    In this budget request for fiscal year 2011 the United 
States will pursue a new approach to human exploration through 
the development and demonstration of transformative 
technologies and systems capabilities and also robotic 
precursors to scout potential destinations. This budget 
challenges us to develop the necessary capabilities to send 
Americans to places humans have not been before, including 
longer stays at exciting places we haven't been on the moon, 
near-earth objects, strategic deep space zones called Lagrange 
points, and the moons of Mars and Mars itself.
    We have not sent people beyond low-earth orbit in 38 years, 
and this budget gives us the opportunity to focus on scouting 
and learning more about destinations, to further explore our 
solar system, and to develop the game-changing technologies 
that will take us there.
    It is important that we pursue these objectives to continue 
leading the world in human spaceflight exploration. Within our 
current horizon the ultimate destination for human exploration 
is, of course, Mars. While we cannot provide a date with 
certainty for the first human visit to Mars, we can identify 
essential capabilities needed for such a mission. These are 
outlined in the programs that are within this budget request.
    They are capabilities that have been recommended 
consistently for over 24 years, and national-level reports of 
committees and commissions addressing the future human space 
exploration. In short, the 2011 budget request for exploration 
includes funding for three new robust programs that will expand 
the capabilities of future human space explorers far beyond the 
capabilities that we have today.
    NASA will embark on these initiatives by partnering with 
the best in industry, academia, and other government agencies, 
as well as with potentially-expanded set of international 
partners. All of these types of partnerships have been integral 
to much of NASA's previous success, and they will be vital to 
ensuring the success of our exploration program.
    Our commercial cargo and commercial crew partners will also 
be vital to the success of the new exploration program. That is 
why the 2011 budget request provides significant funding for 
the development of commercial human spaceflight vehicles. Doing 
so will free NASA to focus on the new work we need to 
accomplish for beyond low-earth orbit missions.
    Additionally, the 2011 budget request includes a 40 percent 
increase in the investment in human, in NASA's Human Research 
Program. This increased funding will allow the agency to 
significantly increase its research in the highest risk to crew 
health and performance during long duration exploration 
missions, especially those beyond low-earth orbit.
    Lastly, the budget request cancels the Constellation 
Program and in doing so includes funding for closeout 
activities in fiscal year 2011 and 2012.
    On a personal note, I have worked for NASA for over 36 
years, and during that time I have served directly on several 
program transitions. These have included the post-Apollo 
development of the Space Shuttle, initiation of the Space 
Station Program, the post-Challenger return to flight, Space 
Station redesign, direct support to the Columbia Accident 
Investigation Board, and the initiation of the current 
exploration programs. So I speak from experience when I say 
that change is never easy for those who have devoted so much of 
their professional and personal time and energy to a program 
they love.
    But I also speak from experience when I say that the NASA 
team, including our industry partners, will do any job asked of 
us to implement our guidance with professionalism, diligence, 
and pride. As Associate Administrator for NASA's Exploration 
Systems Mission Directorate, I am committed to leading the team 
through this period to develop the best outcome in our forward 
path.
    I know that cancellation of the Constellation Program will 
personally affect thousands of NASA and contractor--civil 
servants and contractors. It is difficult for all of us who 
have worked countless hours, often under difficult 
circumstances, to make the Constellation Program successful. 
That work continues now and as we have and continue to work 
through program and project milestones and major tests of 
hardware.
    I would like to publicly say that I sincerely appreciate 
and commend the dedication and sacrifice of the skilled 
Americans and their families who have diligently worked on the 
Constellation Program and for their contributions to our 
Nation's human spaceflight program. Civil servants who support 
Constellation should feel secure that NASA has meaningful work 
for them to accomplish after Constellation, and our contractor 
colleagues should know that NASA is working to offer new 
opportunities for them to partner with the agency on our 
proposed exploration portfolio.
    As I stated, my experience and many transitions helps me 
understand that these large changes are never taken lightly and 
that this experience also brings me to understand how important 
it is to look to the future and that our incredible NASA and 
contractor workforce will apply the skills and drive to 
implement what the policy guidance and enacted budget 
challenges us to do.
    We look forward to developing the technologies to take us 
beyond low-earth orbit, together with our industry, academic, 
and international partners. Chairwoman Giffords, NASA looks 
forward to working with the subcommittee on the fiscal year 
2011 budget, and I would be pleased to respond to any questions 
that your members of the subcommittee may have.
    [The prepared statement of Mr. Cooke follows:]

                  Prepared Statement of Douglas Cooke

    Chairwoman Giffords and Members of the Subcommittee, thank you for 
the opportunity to appear today to discuss the President's FY 2011 
budget request for NASA's Exploration Systems Mission Directorate 
(ESMD). NASA is grateful for the support and guidance received from 
this Subcommittee through the years and we look forward to working with 
you on enactment of the President's new direction.
    The President's FY 2011 budget request outlines an innovative 
course for human space exploration, but does not change our goal--
extending human presence throughout our solar system. NASA's 
exploration efforts will focus not just on our Moon, but also on near-
Earth asteroids, Lagrange points, and ultimately Mars. While we cannot 
provide a date certain for the first human visit, with Mars as a key 
long-term destination we can identify missing capabilities needed for 
such a mission and use this to help define many of the goals for our 
emerging technology development. The research and technology 
investments included in this budget describe the many near-term steps 
NASA will be taking to create the new knowledge and capabilities 
required for humans to venture beyond low-Earth orbit (LEO) to stay.
    ESMD will lead the Nation on this new course of discovery and 
innovation, providing the technologies, capabilities and infrastructure 
required for sustainable, affordable human presence in space. ESMD's 
investment in gaining critical knowledge about future destinations for 
human exploration, as well as transformational technology development 
and demonstration will serve as the foundation of NASA's ongoing space 
exploration effort, broadening opportunities for crewed missions to 
explore destinations in our solar system that we have not been to 
before.
    At the highest level, the President and his staff, as well as NASA 
senior leadership, closely reviewed the Augustine Committee report, and 
came to the same conclusion as the Committee: The Constellation program 
was on an unsustainable trajectory. They determined that, given the 
current budget environment, Constellation's funding needs would have 
required terminating support of the International Space Station (ISS) 
in 2016 and ESMD would not have had sufficient resources to 
significantly advance the state of the art in the technology areas that 
would be needed to enable lowering the cost of heavy-lift access to 
space, and developing closed-loop life support; advanced propulsion 
technology; and radiation protection and other technologies on a faster 
schedule. The President determined that what was truly needed for 
beyond LEO exploration was game-changing technologies; making the 
fundamental investments that will provide the foundation for the next 
half-century of American leadership in space exploration. At the same 
time, under the new plan, NASA would ensure continuous American 
presence in space on the ISS throughout this entire decade, re-
establish a robust and competitive American launch industry, start a 
major heavy lift technology program years earlier, and build a 
technological foundation for sustainable beyond-LEO exploration of our 
moon, near-Earth asteroids, Lagrange points, and ultimately Mars.
    The FY 2011 budget request for Exploration is $4,263.4 million, an 
increase of $483.6 million above the FY 2010 enacted level. Included in 
this budget request is funding for three new, robust programs that will 
expand the capabilities of future space explorers far beyond those we 
have today. NASA will embark on these transformative initiatives by 
partnering with the best in industry, academia and other Government 
agencies, as well as with our international partners. These partners 
have been integral to much of NASA's previous success and are vital to 
our bold new vision.
    NASA will encourage active public participation in our new 
exploration missions via a new participatory exploration initiative. 
Additionally, the FY 2011 budget request builds upon NASA's commercial 
cargo efforts by providing significant funding for the development of 
commercial human spaceflight vehicles, freeing NASA to focus on the 
forward-leaning work we need to accomplish for beyond-low-Earth orbit 
missions. The FY 2011 budget request also includes a 40 percent 
increase over last year's investment in the Human Research Program, to 
help prepare for future human spaceflight exploration beyond LEO. 
Lastly, the budget request includes funding for the Constellation 
Program close-out activities spread across FY 2011 and FY 2012.
    In your invitation, you asked me to address three matters: the new 
Exploration elements in the FY 2011 budget request; current status of 
the Constellation Program; and responsibilities and reporting schedules 
of ``tiger teams'' that have been established to support transition 
efforts following the proposed cancellation of Constellation. The 
remainder of my testimony provides answers to your questions.

Key Elements of the New Plan

    The Exploration FY 2011 budget request includes three new robust 
research and development programs that will enable a renewed and 
reinvigorated effort for future crewed missions beyond LEO:

        <bullet>  Technology Development and Demonstrations: This 
        effort will include two programs--a Flagship Demonstration 
        Program and an Enabling Technology Development Program--that 
        would invent and demonstrate large-scale technologies and 
        capabilities that are critical to future space exploration, 
        including cryo-fluid management and transfer; automated 
        rendezvous and docking, closed-loop life support systems; in-
        situ utilization and advanced in-space propulsion. Once 
        developed, these technologies will address critical 
        requirements needed to send crews to a variety of exciting 
        destinations beyond LEO. The flagship projects will be funded 
        at $400 million to $1 billion over a period of up to five 
        years, including launch costs, while shorter-duration enabling 
        projects will be funded at $120 million or less and will focus 
        on near-term development and demonstration of prototype systems 
        to feed flagship and robotic precursor missions. Such projects 
        could include laboratory experiments, Earth-based field tests 
        and in-space technology demonstrations. By allowing for flight 
        demonstrations, some at a flagship scale, this Technology 
        Development and Demonstration effort resolves the achievement 
        gap between lab demonstration and flight testing that might 
        otherwise prevent NASA from implementing the capabilities that 
        are critical for sustainable human exploration beyond Earth in 
        a timely manner.

        <bullet>  Heavy-Lift and Propulsion Research and Development 
        Program: ESMD will lead research and development activities 
        related to space launch propulsion technologies. This effort 
        would include development of a U.S. first-stage hydrocarbon 
        engine for potential use in future heavy lift (and other) 
        launch systems, as well as basic research in areas such as new 
        propellants, advanced propulsion materials manufacturing 
        techniques, combustion processes, and engine health monitoring. 
        Additionally, NASA will initiate development and in-space 
        testing of in-space engines. Areas of focus could include a 
        liquid oxygen/methane engine and potentially also low-cost 
        liquid oxygen/liquid hydrogen engines. This work will build 
        from NASA's recent R&D experience in this area, and the test 
        articles will be viewed as a potential prototype for a 
        subsequent operational engine that would be restartable and 
        capable of high acceleration and reliability. These 
        technologies would increase our heavy-lift and other space 
        propulsion capabilities and significantly lower operations 
        costs--with the clear goal of taking us farther and faster into 
        space consistent with safety and mission success criteria. In 
        support of this initiative, NASA would explore cooperative 
        efforts with the Department of Defense and also develop a 
        competitive process for allocating a small portion of these 
        funds to universities and other non-governmental organizations. 
        This research effort along with many of our new technology 
        initiatives will be coordinated with the broader Agency 
        technology initiative led by NASA's new Chief Technologist.

        <bullet>  Exploration Precursor Missions: An additional key 
        contributor to a robust exploration program will be the 
        acquisition of critical knowledge gained through the pursuit of 
        exploration precursor robotic missions. Led by ESMD, this 
        effort will send precursor robotic missions to candidate 
        destinations that will pave the way for later human exploration 
        of the Moon, Mars and its moons, and nearby asteroids. Like the 
        highly successful Lunar Reconnaissance Orbiter (LRO) and Lunar 
        Crater Observation and Sensing Satellite (LCROSS) missions that 
        captured the Nation's attention last fall, future exploration 
        precursor missions will scout locations, gather key knowledge 
        and demonstrate technologies to identify the most compelling 
        and accessible places to explore with humans and validate 
        potential approaches to get them there and back safely. These 
        missions will provide vital information--from soil chemistry to 
        radiation dose levels to landing site scouting to resource 
        identification--necessary to plan, design and operate future 
        human missions. These missions will help us determine the next 
        step for crews beyond LEO, answering such questions as: Is a 
        particular asteroid a viable target for crewed mission? Do the 
        resources at the lunar poles have the potential for crew 
        utilization? Is Mars dust toxic? While there may be some 
        synergies between this program and the Planetary Science theme 
        within NASA's Science Mission Directorate, care will be taken 
        to avoid unnecessary duplication. While Science missions are 
        driven purely by science objectives set by the National Academy 
        of Sciences, the Exploration precursor missions will be driven 
        by the needs of human spaceflight. In many cases, there is a 
        synergy between these goals, and ESMD will leverage this 
        synergy when it exists, as we have done successfully for the 
        LRO/LCROSS missions. Dedicated precursor exploration missions 
        are planned to remain below $800 million in total cost, and 
        many will be considerably less expensive. NASA plans to begin 
        funding at least two dedicated precursor missions in 2011, and 
        to identify potential future missions to begin in 2012 and/or 
        2013. Additionally, a new portfolio of explorer scouts will 
        execute small, rapid turn-around, highly competitive missions 
        to exploration destinations. Generally budgeted at between $100 
        million and $200 million lifecycle cost, these missions will 
        allow NASA to test new and innovative ways of doing robotic 
        exploration of destinations of interest to future human 
        exploration. Selected projects may provide multiple small 
        scouting spacecraft to investigate multiple possible landing 
        sites, or provide means of rapid-prototyping new spacecraft 
        approaches.

    Cross-Agency teams for each of these three areas are working to 
develop plans that delineate key areas for research and development, 
specify milestones for progress and set launch dates for relevant 
missions. They will report to the Administrator over the coming months, 
and the results of their efforts will be shared with the Congress when 
they are complete. Additionally, NASA plans to embark on these 
transformative initiatives by partnering with the best in industry, 
academia and other government agencies, as well as with our 
international partners. These partners have been integral to much of 
NASA's previous success and are vital to our bold new approach.
    To more fully engage the public in these transformative efforts, 
NASA will establish a Participatory Exploration Office that will be 
charged with encouraging public involvement and interaction in the 
experience of discovery. Imagine how excited 11-year-old elementary 
school students would be if they got to actually pilot a rover on the 
lunar or Martian surface while they were learning about the planets in 
science class. Or imagine college students helping to design 
exploration payloads that will travel aboard the next-generation 
exploration precursor robotic missions. This is the primary goal of 
participatory exploration--empowering the general public to contribute 
to the Agency's research, development and discovery activities.
    With regard to commercial crew and cargo, the FY 2011 budget 
request builds upon NASA's successful commercial cargo efforts by 
providing significant funding for the development of commercial human 
spaceflight vehicles, freeing NASA to focus on the forward-leaning work 
we need to accomplish for beyond-LEO missions. Specifically, the budget 
request includes $6 billion over five years to spur the development of 
U.S. commercial human spaceflight vehicles. This investment funds NASA 
to contract with industry to provide astronaut and international 
partner transportation to the ISS as soon as possible, reducing the 
risk of relying solely on foreign crew transports, and frees up NASA 
resources to focus on the difficult challenges in technology 
development, scientific discovery, and exploration. We also believe it 
will help to make space travel more accessible and more affordable. An 
enhanced U.S. commercial space industry will create new high-tech jobs, 
leverage private sector capabilities and energy in this area, and spawn 
other businesses and commercial opportunities, which will spur growth 
in our Nation's economy. And, a new generation of Americans will be 
inspired by these commercial ventures and the opportunities they will 
provide for additional visits to space. NASA plans to allocate this FY 
2011 funding via competitive solicitations that support a range of 
activities such as human-rating existing launch vehicles and developing 
new crew spacecraft that can ride on multiple launch vehicles. NASA 
will ensure that all commercial systems meet stringent human-rating and 
safety requirements before we allow any NASA crew member (including 
NASA contractors and NASA-sponsored international partners) to travel 
aboard a commercial vehicle on a NASA mission. Safety is, and always 
will be, NASA's first core value. In addition, the budget request 
includes $312 million in FY 2011 for incentivizing NASA's current 
commercial cargo program. These funds--by adding or accelerating the 
achievement of already-planned milestones, and adding capabilities or 
tests--aim to expedite the pace of development of cargo flights to the 
ISS and to improve program robustness.
    Lastly, the Exploration FY 2011 budget request includes $1,900.0 
million for Constellation Closeout requirements, and a total of 
$2,500.0 million over the FY 2011-2012 timeframe. These funds would be 
used for related facility and close-out costs, potentially including 
increased costs for Shuttle transition and retirement due to 
Constellation cancellation. The Agency has established senior planning 
teams to outline options for Constellation close out expeditiously and 
thoughtfully and to assess workforce, procurement and other issues, 
which will report to the Administrator over the coming months, to 
ensure that people and facilities are best utilized to meet the needs 
of NASA's new missions. NASA will work closely with the Congress as 
these activities progress.

Status of the Constellation Program

    NASA recognizes that the cancellation of the Constellation Program 
will personally affect thousands of NASA civil servants and contractors 
who have worked countless hours, often under difficult circumstances, 
to make the Constellation Program successful. I appreciate and commend 
the dedication and sacrifice that these skilled Americans have made in 
our Nation's human spaceflight program. Civil servants who support 
Constellation should feel secure that NASA has exciting and meaningful 
work for them to accomplish after Constellation, and our contractor 
colleagues should know that NASA is working expeditiously to offer new 
opportunities for them to partner with the Agency on our new 
Exploration portfolio.
    Consistent with the provisions of the FY 2010 Consolidated 
Appropriations Act (P.L. 111-117), NASA is continuing to implement the 
programs and projects for the architecture of the Constellation 
Program. NASA completed the Constellation Preliminary Design Review 
earlier this month, and will complete documentation of the PDR this 
year. In light of the FY 2011 budget request's proposal regarding the 
Constellation Program, the Administrator has instructed the 
Constellation Program to refrain from initiating new work not currently 
under contract, and also to refrain from expanding the scope of any 
work that currently is under contract. All work that is currently under 
contract is continuing. These actions are prudent and necessary steps, 
and are consistent with the provisions of P.L. 111-117.
    Please see the attached charts, which provide a list of major 
program acquisitions to date; the status of key milestones and program 
activities planned for the Constellation Program in FY 2010; and a 
brief overview of the accomplishments of the program to date.

``Tiger Team'' Responsibilities and Reporting Schedules

    Although NASA is continuing Constellation Program activities in FY 
2010, at the same time, NASA must plan for all likely budget outcomes 
so that the Agency is ready to implement any new direction and 
implement appropriate transition activities. This is consistent with 
how the Agency plans to implement any pending budget in any given year. 
Forward preparation and planning work is always necessary, even though 
a budget has not become law.
    Following the release of the FY 2011 budget request, NASA 
established six study teams within ESMD to ensure we understand the 
steps (and the implications of those steps) that would need to be taken 
for an orderly transition of the Constellation Program and to plan for 
the implementation of the new Exploration program. The work undertaken 
by these teams is a necessary part of that planning. This is only an 
evaluation of plans, and no termination action has been directed or 
taken. The data assembled by the study teams will equip NASA with vital 
and substantive information that we will need once the new fiscal year 
begins and once NASA embarks on its efforts to implement the FY 2011 
budget request.
    The six study teams and their areas of planning are as follows:

        <bullet>  Constellation Transition: The team is leveraging 
        expertise from across the Agency to develop a rapid and cost 
        effective ramp-down plan that will free the resources required 
        for new programs. As part of the early characterization and 
        integrated planning effort, this team has initiated a broad 
        survey of current workforce, contracts, facilities, property, 
        security, knowledge capture, information technology, and other 
        government agency interface issues to determine what 
        infrastructure and hardware could be used by the new programs 
        and projects. The transition plan will outline three phases as 
        part of an action plan for initial deliverables: Near-term 
        actions, cancellations of Constellation, and transition of 
        assets/resources to new Exploration focus areas and other NASA 
        programs, where appropriate.

        <bullet>  Heavy Lift and Propulsion Technology: The team is 
        formulating plans for a program that will investigate a broad 
        scope of research and development activities to support next-
        generation space launch propulsion technologies. This includes 
        foundational propulsion research and demonstrations of first 
        stage and in-space engines.

        <bullet>  Commercial Crew: The team is formulating plans to 
        expedite and improve robustness of ISS crew and cargo delivery. 
        In addition, the team is developing a plan that supports the 
        development of commercial crew transportation providers to whom 
        NASA could competitively award crew transportation services.

        <bullet>  Exploration Robotic Precursors: The team is 
        formulating plans for a series of candidate exploration robotic 
        precursor missions to scout targets for future human activity. 
        Potential destinations include the Moon, Mars and its moons, 
        Lagrange points and nearby asteroids.

        <bullet>  Flagship Technology Demonstrations: The team is 
        formulating plans for a series of in-space demonstrations that 
        validate next generation capabilities key to sustainably 
        exploring deep space.

        <bullet>  Enabling Technology Development and Demonstration: 
        The team is formulating plans for conducting smaller scale 
        development and testing of key, long-range exploration 
        technologies.

    The teams are being led primarily by Headquarters personnel, but 
include membership from the Centers, other Mission Directorates and 
other Cross-Agency groups. Members were selected based on their subject 
matter expertise. Each team has the ability to utilize resources 
anywhere in the Agency, including tapping experts at all Centers.
    With the exception of the Constellation Transition team, the teams 
are engaged in pre-formulation activities: developing program strategy; 
identifying needs and goals; exploring alternate implementation 
strategies; and establishing high level milestones and a budget 
profile. The focus is at the program level with identification of 
potential projects or missions. Therefore, the teams will not engage in 
workforce assignments nor will they define Center participation or 
management of programs. The teams also will not develop or award new 
contracts. Decisions related to team activities are made through normal 
Agency approval processes.
    It is expected that teams will complete a majority of their work by 
the end of the 3rd quarter of FY 2010. As that effort is completed over 
the next several months, NASA will share our findings with Congress and 
engage with this Subcommittee on our planned next steps.
    After assessing the current Constellation baseline status and 
developing the action plan for a Constellation transition, and 
receiving appropriate legislative direction, future implementation and 
execution of the plan will be transferred to a Constellation Transition 
and Closeout Project. Existing Agency infrastructure will be utilized 
to the maximum extent possible to codify decisions and conduct reviews, 
analysis, and integration of transition activities and plans, such as: 
the ESMD Program Management Council; the Agency Program Management 
Council; the Center Management Council; the Constellation Control 
Board; the Systems Engineering and Integration Control Board; the 
Budget Rollout Integration Team and the Transition Control Board.

Conclusion

    Americans and people worldwide have turned to NASA for inspiration 
throughout our history--our work gives people an opportunity to imagine 
what is barely possible, and we at NASA get to turn those dreams into 
real achievements for all humankind. This budget gives NASA a roadmap 
to even more historic achievements as it spurs innovation, employs 
Americans in fulfilling jobs, and engages people around the world as we 
enter an exciting new era in space. NASA looks forward to working with 
the Subcommittee on implementation of the FY 2011 budget request.
    Chairwoman Giffords, thank you for your support and that of this 
Subcommittee. I would be pleased to respond to any questions you or the 
other Members of the Subcommittee may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Achievements of NASA's Constellation Program

    The following are some of the Orion Project's key achievements:

        <bullet>  The Orion PDR was conducted during the summer of 
        2009, and completed in August 2009. The PDR was an extensive 
        review of Orion's detailed subsystems and integrated systems 
        designs to date. The PDR board unanimously recommended 
        proceeding with detailed designs toward Critical Design Review 
        (CDR) in February 2011.

        <bullet>  In 2009, NASA conducted preliminary capsule recovery 
        tests at both the Navy's Carderock facility in Maryland and in 
        the ocean near Kennedy Space Center (KSC) in Florida. Using a 
        mockup of the Orion capsule, these Post-landing Orion Recover 
        Tests involved search and rescue teams simulating stabilization 
        and recovery of the Orion capsule in a variety of sea state 
        conditions. Results were intended to lead to design features 
        for both the spacecraft and recovery equipment, as well as 
        contributing to development of the final recovery procedures.

        <bullet>  Fabrication of the Orion Ground Test Article crew 
        module is progressing at the Michoud Assembly Facility in 
        Louisiana. Completion is estimated for the fall of 2010, 
        followed by completion of the service module and launch abort 
        system ground test article, currently scheduled for 2011. NASA 
        is using a friction stir welding technique on this ground test 
        article, and is hoping to demonstrate the longest continuous 
        friction stir weld ever attempted.

        <bullet>  In May 2010, NASA plans to perform its first 
        developmental test of the Orion Launch Abort System (LAS) at 
        the White Sands Missile Range, New Mexico. Orion's Launch Abort 
        System (LAS) includes three newly designed solid rocket motors: 
        1) abort motor, 2) jettison motor, and 3) attitude control 
        motor. All of these motors have been successfully demonstrated 
        in static firings on the ground. The next step is the Pad 
        Abort-1 test, which will be the first integrated firing of all 
        three motors in a real flight environment.

    The following are some of the Ares I Project's key achievements:

        <bullet>  Having completed its PDR in 2008, the Ares I Project 
        is now working toward its CDR, which is scheduled for September 
        2011.

        <bullet>  In September 2009, NASA and ATK conducted the first 
        successful test of the Ares I's five-segment development motor 
        in Promontory, Utah. Beyond validating the basic performance 
        characteristics of the stage, the test has enhanced modeling 
        and understanding of key attributes that have historically been 
        very difficult to predict analytically such as erosive burning, 
        thrust oscillations and thrust tail off. The next static test, 
        DM-2, is currently scheduled for September 2010.

        <bullet>  In October 2009, the Ares I-X test flight took place 
        at Kennedy Space Center in Florida. Data from more than 700 on-
        board sensors showed that the vehicle was effectively 
        controlled and stable in flight. Thrust oscillation frequencies 
        and magnitude data from the Ares I-X flight also were 
        consistent with measurements from recent Shuttle flights that 
        were instrumented, leading us to conclude that the oscillation 
        vibration on the Ares I would be within the bounds that the 
        Ares I is currently being designed to. In the end, this test 
        flight provided tremendous insight into the aerodynamic, 
        acoustic, structural, vibration, and thermal forces that Ares I 
        would be expected to experience.

        <bullet>  J-2X Test Hardware Status: Having passed its CDR in 
        2008, development and verification testing at the component and 
        subsystem level continues. Current planning includes a fully 
        assembled engine, minus the full nozzle extension, to be 
        available the end of calendar year 2010, followed by receipt of 
        an additional developmental engine in 2011. Static fire testing 
        for engines is currently slated to begin in the February-March 
        2011 time frame.

    The following are some of the recent infrastructure achievements 
for the Constellation Program:

        <bullet>  The Operations and Checkout building at KSC was 
        completed in January 2009, marking activation of High Bay 
        Facility. When outfitted, the O&C will support final assembly 
        of the Orion spacecraft.

        <bullet>  The final 600-foot Lightning Protection Tower at 
        KSC's Pad B was completed in February 2009. This was where the 
        Ares I-X test flight launched from in October 2009.

        <bullet>  Workers at KSC topped out the tenth and final segment 
        of the new mobile launcher (ML) after it was lifted by crane 
        and lowered onto the ninth segment in January 2010. When 
        completed, the tower will be 345 feet tall and have multiple 
        platforms for personnel access. Its base was made lighter than 
        Space Shuttle mobile launcher platforms so the crawler-
        transporter can pick up the heavier load of the tower and a 
        taller rocket.

        <bullet>  A-3 Test Stand at Stennis Space Center in 
        Mississippi: Construction of the long-duration altitude test 
        stand for the J-2X engine is nearly 75 percent complete. When 
        completed in 2012, the A-3 facility will provide a unique 
        critical capability to simulate environments at greater than 
        100,000 ft altitude necessary to demonstrate altitude starting 
        and perform full-duration hot-fire testing.

        <bullet>  Space Environmental Test Facility (SET) at Glenn 
        Research Center's Plum Brook Station in Ohio: Construction 
        started in 2007 and is about 75 percent complete. SET is 
        planned for conducting qualification testing of the fully 
        integrated Orion spacecraft, including vibration, acoustics, 
        and EMI testing.

                      Biography for Douglas Cooke

    Doug Cooke is Associate Administrator for the Office of Exploration 
Systems Mission Directorate. The Exploration Systems Mission 
Directorate is responsible for managing the development of flight 
hardware systems for future support of the International Space Station 
and the exploration of the moon, Mars and beyond. This includes 
development of lunar robotic precursors, critical technologies and 
human research to support future human spacecraft and exploration 
missions.
    Mr. Cooke has over 35 years of unique experience in the Space 
Shuttle, Space Station, and Exploration Programs. He has been assigned 
significant responsibilities during critical periods of each of these, 
including top management positions in all three programs.
    Mr. Cooke's first major challenge began in 1975 when he was tasked 
with defining and implementing an entry aerodynamic flight test program 
for the Space Shuttle. This program was successfully implemented during 
the Approach and Landing Tests in 1977, and early orbital flights of 
the Space Shuttle beginning in 1981 through 1984.
    Mr. Cooke was asked to lead the Analysis Office when the Space 
Station Program Office was first organized in 1984. He accepted the 
challenge and led the work that defined the Space Station configuration 
and many of its design details and technical attributes.
    Following the Space Shuttle Challenger accident, Mr. Cooke was 
assigned to the Space Shuttle Program Office. He helped lead a Civil 
Service and contractor team to provide the system engineering and 
integration function that resulted in the return of the Space Shuttle 
to flight on September 29, 1988. He reached the position of Deputy 
Manager of the NSTS Engineering Integration Office.
    Mr. Cooke has played a pivotal role in planning for future space 
exploration beginning in 1989. He helped to lead a NASA team that 
produced the ``90 Day Study'' on lunar and Mars exploration. Mr. Cooke 
was subsequently assigned to the Synthesis Group led by Lt. General Tom 
Stafford, Gemini and Apollo Astronaut. The team produced a report for 
the White House entitled ``America at the Threshold: America's Space 
Exploration Initiative.'' Mr. Cooke was selected to be the Manager of 
the Exploration Programs Office under then Exploration Associate 
Administrator Michael Griffin, where he initiated and led NASA agency-
wide studies for the human return to the Moon, and exploration of Mars.
    In March of 1993, the agency undertook the redesign of Space 
Station Freedom. Mr. Cooke was assigned the responsibility of leading 
the engineering and technical aspects of the redesign. He was 
subsequently chosen to serve in the Space Station Program Office as 
Vehicle Manager, leading and managing the hardware development and 
systems engineering and integration for the International Space 
Station. From April to December of 1996, Mr. Cooke served as Deputy 
Manager of the Space Station Program.
    Prior to his current appointment to NASA Headquarters, Mr. Cooke 
served as manager for the Advanced Development Office at the Johnson 
Space Center, Houston. Mr. Cooke provided leadership for the planning 
of human missions beyond Earth orbit; including the Moon, Mars, 
libration points, and asteroids. This team developed integrated human 
and robotic mission objectives, defined investment strategies for 
exploration technologies, and managed NASA exploration mission 
architecture analyses. Mr. Cooke was detailed to NASA headquarters 
during portions of this period to contribute to headquarters level 
strategies for human exploration.
    Mr. Cooke served as NASA technical advisor to the Columbia Accident 
Investigation Board from the time of the accident to the publishing of 
the report.
    Prior to his current assignment Mr. Cooke served as Deputy 
Associate Administrator for the Exploration Systems Mission 
Directorate. He has made significant contributions to the structuring 
of its programs, defining the program content, and providing technical 
leadership. He initiated and led the development of the Global 
Exploration Strategy activity that led to defined themes and objectives 
for lunar exploration. International, science, industry, and 
entrepreneurial communities were engaged, and they contributed to the 
development and shaping of these themes and objectives. He has led and 
guided the development of the planned lunar exploration mission 
approach and architecture. Mr. Cooke has also led the efforts to define 
long term NASA field center assignments for lunar hardware development 
and operational responsibilities. He has been the Source Selection 
Authority for the major exploration contract competitions. In this role 
he has successfully selected the companies who will develop the next 
human spaceflight vehicle, composed of the Orion spacecraft and Ares I 
rocket.
    Mr. Cooke is a graduate of Texas A&M University with a Bachelor of 
Science degree in Aerospace Engineering.
    Major Awards: SES Presidential Distinguished Rank Award--2006, SES 
Presidential Meritorious Rank Award--1998, NASA Exceptional Achievement 
Medal--2003, NASA Exceptional Achievement Medal--2002, NASA Outstanding 
Leadership Medal--1997, NASA Exceptional Achievement Medal--1993, NASA 
Exceptional Service Medal--1988, JSC Certificate of Commendation--1986, 
JSC Certificate of Commendation--1983

    Chairwoman Giffords. Thank you, Mr. Cooke. Thank you for 
your service and for your testimony.
    Mr. Young.

      STATEMENT OF A. THOMAS YOUNG, LOCKHEED MARTIN (RET.)

    Mr. Young. Chairwoman Giffords, Mr. Olson, and committee 
members, I am pleased to have the opportunity to present my 
views on the United States Human Spaceflight Program.
    The proposed NASA fiscal year 2011 budget represents a 
significant departure from the current program and raises some 
important issues worthy of debate prior to setting a course 
that will define human spaceflight for many decades.
    Continuation of the International Space Station and Mars as 
the ultimate human exploration destination appear to be the 
consensus. While Mars is not explicitly identified, subsequent 
Administration statements suggest this conclusion. Areas with 
significant differences in implementation approach are, one, 
the method of transporting humans to earth orbit and 
specifically to the International Space Station; two, the need 
for a detailed plan for human exploration beyond earth orbit; 
three, the development of a heavy lift capability to submit--
support missions beyond earth orbit; four, the development of a 
capsule to support astronauts traveling to and beyond earth 
orbit; and five, the definition of a technology program focused 
on specific mission needs.
    Approaches being discussed to provide transportation to 
earth orbit are Soyuz, Space Shuttle, Ares I or a derivative 
based on Ares I/V concepts, and commercial. Soyuz has been and 
will continue to be a valuable space transportation system. I 
do not believe Soyuz is a long-term solution. The United States 
needs an indigenous system.
    Space Shuttle has been the U.S. workhorse for three 
decades. It has remarkable crew and cargo capabilities. I do 
not believe Shuttle is the long-term solution.
    Private and in some cases government investments have 
created commercial enterprises focused on space tourism and 
cargo transportation to the Space Station. These companies 
should be encouraged, supported, and applauded for their 
accomplishments.
    NASA's proposed budget, if implemented, will result in the 
United States being totally dependent upon commercial crew 
space transportation for an indigenous capability to earth 
orbit. I believe we are a long way from having a commercial 
industry capable of satisfying human space transportation 
needs. In my view this is a risk too high and not a responsible 
course. The commercial crew option should not be approved, and 
I would like to restate that. The commercial crew option should 
not be approved.
    The United States needs a transportation capability to 
earth orbit that can be used for several decades. A system that 
can be the basis for a heavy-lift capability would be 
advantageous. Considerable resources have been expended, and 
significant progress has been made in the development of Ares 
I. I believe the most logical path forward is to commit to a 
transportation system based upon the Ares I investment. 
Consideration should be given to the ability to evolve the 
system to a heavy-lift capability. NASA should be asked to 
undertake a study to define the required system.
    My interpretation of the fiscal year 2011 budget is that 
the proposed Human Exploration Program is a technology endeavor 
without an exploration plan. A technology program without focus 
and identified missions can result in wasteful, non-productive, 
hobby-shop activities. A detailed explanation--exploration plan 
with destinations, dates, and implementation plans is needed. 
Options were effectively identified in the Augustine Committee 
report.
    A factor requiring consideration is that a lunar lander and 
facilities for extended stay on the moon are expensive, making 
the lunar option a function of funding availability. I 
personally am troubled by this observation since I believe 
human exploration must have boots on the ground. An asteroid 
landing may be less challenging and expensive than a lunar 
landing. Again, NASA should be instructed to develop options 
and recommend a specific exploration plan.
    Human exploration beyond earth orbit will require a heavy-
lift launch vehicle. I do not believe we need a technology 
program as a prerequisite. Available budget will determine the 
heavy-lift implementation plan. NASA should be directed to 
develop an integrated space transportation plan that will 
result in the timely development of a heavy-lift launch 
vehicle.
    Human spaceflight requires a capsule for crew support. 
Given my strong opinion that commercial crew should not be the 
selected option, the logical starting point in selecting a 
capsule concept is Orion. Significant investment has been made 
in Orion, and it should be the basis of a capsule to support 
Space Station operations and be the basis for initiating 
exploration beyond earth orbit. A study by NASA to define the 
crew support capsule is required. Cancellation, excuse me, 
Constellation should not be cancelled. The NASA study most 
likely will identify required Constellation modifications. 
Deferral of a lunar option may be required depending upon 
available budget.
    The technology program identified in the proposed budget 
lacks definition and focus. However, a technology program 
largely directed toward resolving critical issues associated 
with a detailed exploration plan and specifically a human Mars 
mission is required. NASA, with appropriate outside support, 
should define the required technology program.
    I have cited the need for NASA studies for most of the 
areas of discussion. A plan A is needed, which is absent from 
the proposed fiscal year 2011 budget. The availability of plan 
A will facilitate informed decisions relative to funding and 
affordability of a human spaceflight program that will be in 
place for decades.
    I would start by applying the $6 billion commercial crew 
funding, the funding for precursor robotic missions, a portion 
of the technology funding, and the $2.5 billion allocated for 
Constellation termination to plan A.
    I was asked to comment on the most significant impacts of 
the changes contained in the proposed fiscal year 2011 budget. 
Changes as significant as those proposed cannot be implemented 
without collateral impact. An example is the increased cost 
identified by the Air Force in their programs.
    I believe the most significant impact will be the 
deterioration in the capabilities of the aerospace workforce. 
We currently have a government, university, and industry 
workforce that is a national treasure. Many of the best and 
brightest are attracted by the excitement and challenge of 
space exploration.
    Decades of experience and investment have been instrumental 
in building this extraordinary workforce. Without a challenging 
and meaningful space program, this national capability will 
atrophy. Assigning responsibility to the commercial sector for 
earth orbit crew transportation will have a major adverse 
impact on the NASA workforce.
    The loss of capability that has been built over decades 
will happen quickly. This is not a resource that can be turned 
on or off. I suspect the uncertainty created by the proposed 
NASA budget is causing people to evaluate their futures. Good 
people always have a choice. Rebuilding lost capabilities will 
take decades.
    When the dust settles, I believe the United States must 
have a space, a human spaceflight program worthy of a great 
nation as suggested by the title of the Augustine Committee 
report. In my view the human spaceflight program contained in 
the proposed fiscal year 2011 budget fails this goal. I believe 
a program can be developed that will put us on a responsible 
course to Mars with exciting and challenging intermediate 
destinations. A program that will utilize the capabilities of 
the total aerospace workforce. A program of which the current 
generation can be proud. A program of which the future 
generations can be inspired. A program that I believe will 
require some budget augmentation. A program that is worthy of a 
great Nation.
    Thank you.
    [The prepared statement of Mr. Young follows:]

                 Prepared Statement of A. Thomas Young

    Chairwoman Giffords and committee members, I am pleased to have the 
opportunity to present my views on the U.S. human spaceflight program.
    The proposed NASA FY 2011 budget represents a significant departure 
from the current program and raises some important issues worthy of 
debate prior to setting a course that will define human spaceflight for 
many decades.
    Continuation of the International Space Station and Mars as the 
ultimate human exploration destination appear to be areas of consensus. 
While Mars is not explicitly identified, subsequent Administration 
statements suggest this conclusion.
    Areas with significant differences in implementation approach are

        1)  the method of transporting humans to Earth orbit and 
        specifically to the International Space Station,

        2)  the need for a detailed plan for human exploration beyond 
        Earth orbit,

        3)  the development of a heavy lift capability to support 
        missions beyond Earth orbit,

        4)  the development of a capsule to support astronauts 
        traveling to and beyond Earth orbit and

        5)  the definition of a technology program focused on specific 
        mission needs.

    Approaches being discussed to provide transportation to Earth orbit 
are Soyuz, Space Shuttle, Ares I or a derivative based on Ares I/V 
concepts and commercial.
    Soyuz has been and will continue to be a valuable space 
transportation system. I do not believe Soyuz is a long term solution. 
The U.S. needs an indigenous system.
    Space Shuttle has been the U.S. workhorse for three decades. It has 
remarkable crew and cargo capabilities. I do not believe Shuttle is the 
long term solution.
    Private and in some cases government investments have created 
commercial enterprises focused on space tourism and cargo 
transportation to the Space Station. These companies should be 
encouraged, supported and applauded for their accomplishments. NASA's 
proposed budget, if implemented, will result in the U.S. being totally 
dependent upon commercial crew space transportation for an indigenous 
capability to Earth orbit. I believe we are a long way from having a 
commercial industry capable of satisfying human space transportation 
needs. In my view, this is a risk too high and not a responsible 
course. The commercial crew option should not be approved.
    The U.S. needs a transportation capability to Earth orbit that can 
be used for several decades. A system that can be the basis for a heavy 
lift capability would be advantageous. Considerable resources have been 
expended and significant progress has been made in the development of 
Ares I. I believe the most logical path forward is to commit to a 
transportation system based upon the Ares I investment. Consideration 
should be given to the ability to evolve the system to a heavy lift 
capability. NASA should be asked to undertake a study to define the 
required system.
    My interpretation of the FY 2011 budget is that the proposed human 
exploration program is a technology endeavor without an exploration 
plan. A technology program without focus and identified mission uses 
can result in wasteful, nonproductive, ``hobby-shop'' activities. A 
detailed exploration plan with destinations, dates and implementation 
plans is needed. Options were effectively identified in the Augustine 
Committee report. A factor requiring consideration is that a lunar 
lander and facilities for extended stay on the moon are expensive 
making the lunar option a function of funding availability. I am 
troubled by this observation since I believe human exploration must 
have ``boots-on-the-ground.'' An asteroid landing may be less 
challenging and expensive than a lunar landing. Again, NASA should be 
instructed to develop options and recommend a specific exploration 
plan.
    Human exploration beyond Earth orbit will require a new heavy lift 
launch vehicle. I do not believe we need a technology program as a 
prerequisite. Available budget will determine the heavy lift 
implementation plan. NASA should be directed to develop an integrated 
space transportation plan that will result in the timely development of 
a heavy lift launch vehicle.
    Human spaceflight requires a capsule for crew support. Given my 
strong opinion that commercial crew should not be the selected option, 
the logical starting point in selecting a capsule concept is Orion. 
Significant investment has been made in Orion and it should be the 
basis of a capsule to support Space Station operations and initiate 
exploration beyond Earth orbit. A study, by NASA, to define the crew 
support capsule is required. Constellation should not be cancelled. The 
NASA study will most likely identify required Constellation 
modifications. Deferral of the lunar option may be required depending 
upon available budget.
    The technology program identified in the proposed budget lacks 
definition and focus. However, a technology program largely directed 
toward resolving critical issues associated with implementing plan A 
and specifically a human Mars mission is required. NASA, with 
appropriate outside support, should define the required technology 
program.
    I have cited the need for NASA studies for most of the areas of 
discussion. A plan A is needed which is absent from the proposed FY 
2011 budget. The availability of a plan A will facilitate informed 
decisions relative to funding and affordability of a human spaceflight 
program that will be in place for decades. I would start by applying 
the 6B$ commercial crew funding, the funding for precursor robotic 
missions, a portion of the technology funding and the 2.5B$ allocation 
for Constellation termination to plan A.
    I was asked to comment on the most significant impacts of the 
changes contained in the proposed FY 2011 budget. Changes as 
significant as those proposed cannot be implemented without collateral 
impact. An example is the increased cost identified by the Air Force in 
their programs.
    I believe the most significant impact will be the deterioration in 
the capabilities of the aerospace work force. We currently have a 
government, university and industry work force that is a national 
treasure. Many of the best and brightest are attracted by the 
excitement and challenge of space exploration. Decades of experience 
and investment have been instrumental in building this extraordinary 
work force. Without a challenging and meaningful space program, this 
national capability will atrophy. Assigning responsibility to the 
commercial sector for Earth orbit crew transportation will have a major 
adverse impact on the NASA work force.
    The loss of capability that has been built over decades will happen 
very quickly. This is not a resource that can be turned on and off. I 
suspect the uncertainty created by the proposed NASA budget is causing 
people to evaluate their futures. Good people always have a choice. 
Rebuilding lost capabilities will take decades.
    When the ``dust settles'' I believe the U.S. must have a human 
spaceflight program worthy of a great nation as suggested by the title 
of the Augustine Committee report. In my view, the human spaceflight 
program contained in the proposed FY 2011 budget fails this goal. I 
believe a program can be developed that will put us on a responsible 
course to Mars with exciting and challenging intermediate destinations. 
A program that will utilize the capabilities of the total aerospace 
work force, a program of which the current generation can be proud and 
by which future generations can be inspired. A program that I believe 
will require some budget augmentation. A program that is worthy of a 
great nation.

ATTACHMENT

COMMERCIAL CREW
    I believe the commercial crew option is a risk too high, not a 
responsible course and it should not be approved.
    The U.S. space industry is second to none and has been instrumental 
in the extraordinary accomplishments of the U.S. space program. My 
concerns about the commercial crew option are not caused by 
reservations about the industry capabilities. My concerns are that the 
space industry alone is not adequate to successfully implement an 
endeavor as challenging as human spaceflight.
    Continuity of the nation's human spaceflight expertise resides 
within NASA, not an industrial enterprise. NASA has been continuously 
leading our human spaceflight program for almost five decades. Several 
companies have been partners with NASA, but not on a continuous basis. 
I can make the same case for JPL relative to planetary exploration and 
the Air Force and NRO for national security space.
    In my opinion, there is no logic that supports having an industrial 
enterprise totally responsible for crew transportation to Earth orbit 
with NASA defining safety requirements and general oversight.
    We actually tried a similar approach in the 1990s. The Air Force 
implemented a program called ``Acquisition Reform.'' System 
responsibility for national security space programs was ceded to 
industry under a contracting approach called Total System Performance 
Responsibility (TSPR.) Air Force and NRO project managers were told to 
step back, to not interfere and to let industry have total 
responsibility. Additionally, the Air Force and NRO essentially 
eliminated their system engineering capabilities since the 
responsibility would reside with industry.
    The results were devastating and the adverse impact is still with 
us today. Good project managers and project management personnel left 
and an exceptional systems engineering capability was eliminated. 
Projects were a disaster and TSPR was judged by all to be a total 
failure.
    Problems were not isolated to one project or to one company, the 
impact was systemic. As examples, FIA managed by Boeing was cancelled 
after the expenditure of about 10B$. SBIRS High, managed by Lockheed-
Martin, has been referred to as ``a case study in how not to execute a 
space program.'' NPOESS, managed by Northrop Grumman, is a story that 
is still evolving. On average, programs implemented using this approach 
resulted in half the intended program for twice the cost and six years 
late.
    NASA implemented a similar approach called ``Faster-Better-
Cheaper.'' Mars '98 is the most significant example of this approach. 
Mars '98 was a total failure with the loss of the orbiter, lander and 
two probes. The orbiter managed by Lockheed-Martin, under contract to 
JPL, failed because of confusion between metric and English units. This 
confusion resulted in errors large enough during Mars orbit insertion 
to cause the spacecraft to enter the atmosphere and be destroyed. These 
same errors were prevalent during midcourse corrections implemented on 
the trip from Earth to Mars without a cause being determined. Had the 
JPL institutional navigation capability been applied to understand 
these midcourse errors, I believe they most likely would have found the 
cause and implemented corrections to prevent the failure. They were 
excluded from the management of Mars '98 because of the ``give the 
contractor the responsibility'' concept. This is an example of how 
NASA's continuity of expertise could have been applied to an important 
and challenging project.
    An Aerospace Corporation study documented 11.2 B$ of total mission 
failures during the 1990s.
    NASA is supporting new industrial enterprises to provide cargo 
transport to the Space Station. This commercial cargo approach has the 
potential to develop new commercial space enterprises. While this is a 
reasonable concept, performance has yet to be demonstrated. The 
proposal that this cargo capability, which has yet to be proven, can be 
extrapolated to include commercial crew is not credible.
    An argument is made that NASA will specify human safety 
requirements for use by potential commercial crew companies. This is 
necessary but far from sufficient to assure mission success. Today, 
space projects do not fail because of the items that would be contained 
in the safety requirements document. I doubt the requirements would say 
``don't confuse metric and English units,'' or ``don't write down a 
wrong number to be used in the guidance equations,'' which resulted in 
a Titan IV failure, or ``don't let the foam hit the Shuttle wing 
leading edge.'' Because humans are involved, errors will happen.
    Success results when problems are successfully managed. I believe 
successful management occurs when the continuity of expertise of NASA 
or the Air Force or the NRO is combined with the implementation 
capability of industry. The application of this combined capability 
with the resulting checks and balances and constructive technical 
debate is the foundation of our extraordinary success.
    There is much discussion as to whether commercial crew is cheaper 
or, in the end, will cost more. Similar debates are occurring relative 
to schedule. These cost and schedule issues deserve resolution; 
however, I believe the most important issue is ``Will the commercial 
crew concept be successful?'' I do not believe the probability of 
success is sufficiently high to justify commercial crew as a 
responsible option. It is an option, that if not successful, will 
result in the U.S. having no space transportation for two decades or 
longer.

    Chairwoman Giffords. Thank you, Mr. Young. We appreciate 
your service and your testimony today as well.
    Votes will be called in a couple of minutes, but we do have 
time get in a couple of questions, and we are going to bring 
our first round, and the Chair recognizes herself for five 
minutes.

           Use of FY 2010 Funds for Constellation Termination

    Mr. Cooke, I would like to read an excerpt from the 2010 
Consolidated Appropriations Act, and I quote, ``None of the 
funds provided herein and from prior years remain available for 
obligation during fiscal year 2010 shall be available for the 
termination or the elimination of any program, project, or 
activity, underscore or activity, of the architecture for the 
Constellation Program.''
    I would like to go through a short list of some of the 
actions that NASA has recently undertaken or maybe I should say 
activities that NASA has terminated. NASA cancelled the Ares V 
Phase I Concept Definition and Requirements Development RFP, 
NASA cancelled the Altair Lunar Lander Concept Design Contract 
RFP. NASA cancelled the Kennedy Space Center Exploration Ground 
Launch Services RFP, NASA has stopped allowing Ares prime 
contractors to make planned hardware subcontract awards for 
both the Ares Instrument Unit production and Ares Upper Stage 
production contracts.
    So, Mr. Cooke, I would like you to explain if you can how 
NASA's actions are not in direct contravention with the 
unambiguous intent of the Congress and in some cases the direct 
law and the prohibition of the termination of any Constellation 
activities.
    Mr. Cooke. Yes. I can address these. We actually are 
continuing with the major work on the contracts and are 
making--and have--we have had a number of decisions where we 
were asked whether we continue or not. We do--we are continuing 
to work. There are a number of things that we have not started, 
some of which have become outdated in terms of how we started 
them out.
    Others--we also have the effect of the enacted 2010 budget 
and some budget changes in 2010, that--for one we had a $50 
million budget, general budget reduction, we had actually an 
internal NASA rescission that was to fund needed infrastructure 
investments. We also had a tentative agreement with one of the 
contractors for cost sharing that actually we ended up not 
being able to put in place.
    The continuing resolution that we started with this year 
did not allow us to get things started, for instance, on some 
of the lead items, so we were not able to start those when we 
would have. So there are some that are in that category, and we 
are reassessing the budget reductions that we have seen. So 
that is a part of things that we have not started.
    We--in terms of the Altair and Ares V study contracts, we 
did have proposals in on those, and we actually had them on 
hold since last year before--when we were going through the 
transition period and learned of the upcoming Augustine 
Commission, we thought that we should hold those at that time. 
So we have been holding those for a year.
    And we just a little while back we got to the point where 
we felt that they were--because we didn't have funding to 
support lunar investments, we stopped the Altair, and in terms 
of the Ares V, it--because of studies that have gone on over 
the last year, we have evolved in our thinking and felt that we 
should re-look at what we went out with. So we think that in 
the coming, actually in the coming months that we will put out 
another request for proposals on studies, study contracts for 
heavy lift.
    Chairwoman Giffords. Mr. Cooke, we have had the 
Administrator state to us that there haven't been changes, that 
NASA is complying with the direct law, but obviously we have 
examples where that is simply not the case, and there is a deep 
concern, and Congress put that language in there specifically 
for a purpose. We wanted time to allow for careful and 
deliberate review of any Administration's proposal that was 
going to significantly change or--basically we have a program 
of record. We wanted to make sure that that program was allowed 
to be carried through and that we could analyze that record 
based on the information that Congress had intended.
    And, you know, and we are deeply concerned. We have brought 
it up a variety of times with, you know, leading officials at 
NASA, and I guess, I think before I am going to turn the floor 
over to Mr. Olson, but I would just suggest that NASA spend a 
little less time figuring out ways to wiggle out of some of 
these contracts and to figure out how to negotiate this without 
thinking that we are going to notice and more on following what 
the direction of the Congress and the United States people had 
in mind.
    So with that, Mr. Olson.

                    Status of Constellation Project

    Mr. Olson. Thank you, Madam Chairwoman.
    In its justification of the fiscal year 2011 budget the 
Administration's painted the Constellation Program as 
hopelessly behind schedule and over budget, and I think there 
is an analysis that suggests that the goal of landing on the 
moon by 2020 was in jeopardy. Both the goal of Ares I, taking 
Orion to the ISS, NASA always asserted that it could be 
achieved by 2015.
    Mr. Cooke, would you speak to the basis of the allegations 
that the Constellation was over budget.
    Mr. Cooke. I can speak to the budget numbers and 
predictions of the program that I have been--that I am 
responsible for. Until the 2010 enacted budget, we felt that we 
were on a course. Although we had schedule risks, we felt we 
were on a course to March, 2015. Since--mentioned in the last 
response, my last response to a question that we had had some 
reductions in 2010 that would--at this point the March, 2015, 
is probably not possible but--and we have just been through 
preliminary design review and have in front of us based on that 
data the work to develop costs and schedule that goes with that 
baseline to understand exactly where we are in terms of where 
we would end up.
    Mr. Olson. And just to confirm I understand what you are 
saying, Mr. Cooke, so that NASA was on track for Ares I by 
2015, but then budget reductions last year got them off track. 
Was that--is that a fair assumption or fair understanding of 
what you said?
    Mr. Cooke. That is our assessment, and of course, you know, 
there are other assessments and other evaluations, but that was 
the program's assessment.
    Mr. Olson. Thank you very much, and Mr. Young, would you 
give us your perspective on the ability of NASA to develop Ares 
I and Orion to accomplish just the ISS mission?
    Mr. Young. First I should be clear, I have not done a 
review of the program and did not participate in that, but I, 
you know, have been a close watcher, I guess, of the activity 
maybe is the way to say it. I think that it is reasonable to 
assume that having invested $9 billion in Ares I and Orion, and 
I am setting the lunar aside because I think that is a tough 
challenge. I don't want to--I want to be clear about that, but 
only talking about Ares I and Orion, having invested 9 billion, 
having successfully had a PDR, not being terribly far from a 
CDR, would give--and Mr. Cooke is the right person to answer 
this, but not having--seeing great problems that have come out 
of the PDR, then I think it is reasonable to assume that there 
is credibility to the Ares I/Orion approach and concept and 
design.
    And I think, again, even if you use some of the larger 
numbers that were in the Augustine report or other locations, 
it is not a stretch to believe that an Ares I/Orion system can 
be made to work in close to the current budget. So in my view 
when I have thought about it a lot and looked at the 
alternatives, no alternative strikes me as being credible, as 
credible as Ares I/Orion as the basis for a space 
transportation system to low-earth orbit and to the Space 
Station.
    So I think deviating from that course until we have maybe 
done all of the studies the Doug Cooke is talking about would 
just be a significant mistake.

                  Funding Termination of Constellation

    Mr. Olson. Thank you for those comments, Mr. Young, and I 
have one final question that is for you, Mr. Cooke.
    I understand that NASA is requiring Constellation 
contractors to fund termination liability out of existing 
fiscal year 2010 funds. This would be a blatant violation of 
the fiscal year 2010 Appropriations Law.
    I also understand that insufficient funds were included in 
the fiscal year 2011 budget request for the Constellation 
contractor termination liability. Can you assure me that NASA 
will not seek to use existing appropriations for termination 
liability unless specifically authorized by Congress?
    Mr. Cooke. This is an area that is very sensitive. It is--
there are laws that we are working with and anti-deficiency is 
one of them. We are not changing our contracts, and we have not 
directed anything other than what is in the contracts to our 
contractors.
    Mr. Olson. I know I am over my time but just one final 
question for you, Mr. Cooke. Can you assure me that should 
Congress agree to the termination of any Constellation Program 
or activity that NASA will provide sufficient termination 
liability funding at that time?
    Mr. Cooke. I am sorry. I didn't understand that.
    Mr. Olson. Okay. Should we agree to the termination of the 
Constellation and all the program activities there, can you 
assure me that NASA will provide termination liability funding 
at that time?
    Mr. Cooke. We have--we are not, as in the appropriations 
language and law, we are not terminating contracts, and we--but 
we are funded at the levels we are for our contracts at this 
time.
    Mr. Olson. Thank you very much. I just want to follow up on 
my Chairwoman's comments. I mean, we are having a great debate 
here about the future of our human spaceflight program, but the 
marching orders now are Constellation, and that is what the 
appropriations bill language is in there, and until that 
changes some time later this year, that is it. I mean, from my 
perspective Constellation, Constellation, Constellation.
    I yield back my time.
    Chairwoman Giffords. Thank you, Mr. Olson.
    The Chair recognizes Ms. Kosmas.

                      NASA's Inspirational Mission

    Ms. Kosmas. Thank you, Madam Chairman. Thank you, 
gentlemen, for being here today.
    While I certainly appreciate the need to identify and 
develop the missing capabilities for going to Mars, I am very 
concerned that in the meantime we are giving up our current 
capabilities to reach space without any plans for the next 
mission, and that this downtime will not only affect our 
workforce but also our national security. And I want to echo 
the comments made by the Chairwoman with regard to this being 
unique in its inspirational aspect.
    I, too, received a letter from a constituent. She is nine 
years old. Her name is Hero, and she has been wanting to be an 
astronaut for many years and is concerned about the loss. This 
echoes, I think, throughout the community of young folks who we 
want desperately to encourage to be interested in science, 
technology, engineering, and mathematics. So I am greatly 
concerned about it.
    More currently, however, I am concerned about the job loss 
at Kennedy Space Center.

                        Future of NASA Workforce

    So, Mr. Cooke, at the February 25 hearing with this 
committee the NASA Administrator stated that civil servants who 
support Constellation should feel secure that NASA has exciting 
and meaningful work for them to accomplish after Constellation, 
and you repeated this in your testimony, but I need to ask you 
why should they feel secure? Can you provide any specifics on 
work that human spaceflight proposals currently before us will 
have waiting for these, for this unique workforce if 
Constellation is cancelled? What about the Space Shuttle 
operations personnel who are planning to transition to 
Constellation, and what work will be waiting for them?
    Mr. Cooke. Representative Kosmas, the--as I stated, there 
is funding and will be funding to support civil servants, and 
there--in our particular budget and explorations budget next 
year we have 483 million more than we have this year. It a 
shift in direction, and it is a shift in the work that will be 
done, but the civil servants will be----
    Ms. Kosmas. I think that is the question that I am trying 
to get to the bottom of, Mr. Cooke, is aren't you allocating 
funds that will be used for a different set of skills perhaps 
than those people whose jobs I am worried about as we speak?
    Mr. Cooke. Skills are always part of the discussion when 
there is a shift in the type of work being done. There is 
significant technology work that is possible at KSC and has 
been done there in the past in terms of cryo management and 
resource utilization. There are skills there.
    Ms. Kosmas. Okay. I am going to have to move on because I 
am going to run out of time, and I want to make sure I get this 
question in.

                             Cost of Ares I

    There seems to be, and this follows up on the questions 
asked to you by Mr. Olson, there seems to be a good deal of 
confusion on what it would cost to launch an Ares I once it is 
developed. In other words, the marginal cost. This is something 
I just wanted to get on the record, so a yes or no from you, 
Mr. Cooke, is all that is required.
    NASA stated last year that when Ares I is operational in 
fiscal year 2016, its marginal costs based on a rate of two 
flights per year will be about 176 million per flight. Now that 
you have completed the Constellation Program preliminary design 
review, has that number changed significantly, or is it still a 
reasonable estimate?
    Mr. Cooke. In terms of marginal cost it is still a 
reasonable estimate.

                        Net Change in Workforce

    Ms. Kosmas. Okay, and then my last question is how many net 
jobs could you guarantee would be created by NASA's decision to 
procure commercial crew services given the nationwide job 
losses that will result from the retirement of the Shuttle 
Program and the cancellation, proposed cancellation of 
Constellation? We have heard numbers proposed by the commercial 
industry, but have you independently validated those estimates, 
and can you tell me how many Constellation jobs will be lost, 
including those additional jobs that would be created if 
Constellation continues? Congress needs this information if we 
are going to properly assess the Administration's proposals.
    Mr. Cooke. Yes, and I would like to follow up with those, 
with more detail on those. I don't have all those numbers at 
hand, but I would say that I don't know, I don't have an 
assessment of what jobs would be created with the commercial 
approach to this. Until we had competed and had chosen or 
selected for--in agreements with specific companies. So I don't 
have that number.
    In terms of contractors nationwide, there are over 8,600 
contractors working on Constellation.
    Ms. Kosmas. Okay. I just want to say that for the record it 
seems to me that the current plan, not only does it lack 
vision, destination, and architecture, but it seems to lack--
and inspiration, but it seems to lack the attention and respect 
of the workforce that we were promised we would get from NASA 
and from the Augustine Commission and frankly never received.
    So from my perspective it is obviously a very significant 
issue as we move forward.
    Thank you.
    Chairwoman Giffords. Thank you, Ms. Kosmas.
    Mr. Rohrabacher.

                       Benefits of Privatization

    Mr. Rohrabacher. Thank you very much, Madam Chairman, and 
this debate is a bit perplexing. It just seems to me that there 
are different role reversals going on here in terms of what 
people actually believe is the best way to structure our 
society and our society's goals and obtaining those goals. I 
always thought that it was the Republicans and others who 
depended on the private sector rather than a government 
workforce to achieve certain ends, and it was the Democrats 
that wanted to socialize different services. It seems to me was 
have a role reversal here.
    Let me just note that we have faced these decisions before 
as to whether or not we would rely on commercial enterprise 
versus government-run operations. The building of the 
railroads, for example, Abraham Lincoln wisely decided that we 
would be providing land to the railroads for building the 
railroads. He did not create a government railroad company that 
was actually--or a government railroad agency that decided to 
develop railroads and the railroad transportation in our 
country.
    Similar, when we came to the airplane age, there were 
contracts that were given for delivering the mail to private 
companies rather than having a government agency that became 
the government airline agency.
    And today we are now on the verge, I believe, of actually a 
huge step forward into space where the large numbers of people 
can be engaged in enterprise in space, and we have the argument 
instead that, no, this must be a government-based operation 
because basically it might hurt the NASA workforce.
    And I went down, Madam Chairman, I went down to see Space X 
a couple of weeks ago just to see how far they were along on 
their private commercial alternatives to Ares, and let me tell 
you, I was shown around the plant by one employee, but he had--
he was actually the manager there on the floor of getting these 
jobs done. And I remember when I visited NASA facilities, they 
have about a dozen people walking around you trying to 
basically curtsey to you and pat you on the back and do 
everything they can, and none of them have any other 
responsibility except to promote the NASA workforce or the NASA 
job there versus any line responsibility.
    And maybe that is why when you have NASA doing something it 
costs $9 billion to produce no new technology and over at Space 
X they have built their own rocket engines, they have had a 
whole new system, all new technologies, and they have done it 
on just a miniscule amount compared to what NASA has already 
spent on the Ares Project.
    Listen. If we are going to be in space, we had better do it 
cost effectively, and cost effectively is not relying on the 
government. We have learned that over and over again, whether 
it was the railroads or private airlines. It is better to go 
with commercial and private people than a Federal bureaucracy, 
and it is not efficient the other way.
    Now, people say we can't be sure of anything. Well, there 
is nothing for sure. One thing is for sure, that we built the 
Shuttle, we built the Shuttle, and I remember when that debate 
came down, and that has cost us $1 billion every time we put it 
up. Every single time when we put it up. There might have been 
some other transportation systems that have proved more 
effectively in the idea of getting people up into orbit rather 
than the Space Shuttle System.
    Chairwoman Giffords. Will the gentleman yield?
    Mr. Rohrabacher. As long as it doesn't----
    Chairwoman Giffords. Well, I would just--I would like to 
get--if the witnesses----
    Mr. Rohrabacher. Actually, we need to get their responses.
    Chairwoman Giffords. Well, yes, we would like to hear from 
the----
    Mr. Rohrabacher. Absolutely.
    Chairwoman Giffords. Absolutely.
    Mr. Rohrabacher. I am sorry.
    Chairwoman Giffords. The Chair recognizes Mr. Young.
    Mr. Rohrabacher. It is just that I am the only one who 
seems to be presenting these arguments.
    Chairwoman Giffords. And this is why we have them. Mr. 
Young.
    Mr. Rohrabacher. Mr. Young, let us go to you to answer this 
basic philosophical question. You were involved with a private 
company. Does--is Atlas missiles, are they--rockets. Are they 
so limited that they are not going to be able to pick up some 
of this weight that we need to put up into space? Is--was your 
company less competent than NASA to move forward and run some 
sort of operation that could put human beings into space?
    Mr. Young. Let me see if I extract a question out of that.
    Mr. Rohrabacher. All right.
    Mr. Young. Let me comment because it is an important issue 
that you are identifying. First off, let me tell you Atlas is 
not commercial, and I will come back to that in a minute. Bear 
with me. I will come back. You know, I am a product of the 
aerospace industry, so I have a teensy bit of knowledge about 
the aerospace industry.
    My--I am strongly against commercial crew, and let me tell 
you why. Okay. I am not--I believe our aerospace industry is 
second to none. I--my issues are not with aerospace industry, 
either the more mature or the developing. My issue is that I do 
not believe the aerospace industry alone can successfully 
execute a program as challenging and complex as human 
spaceflight.
    And let me see if I can give you a little bit of why I say 
that. The continuity of expertise that we have in this country 
as to how you do human spaceflight is with NASA. Not with any 
company. Companies, you know, different companies come in and 
out on the programs, and they do well, but they do well as a 
partner with NASA, not when we turn the total responsibility 
over to the industry.
    Now, let me give you an example. We tried this in the '90s. 
We actually tried it wholeheartedly, and the Air Force 
implemented something they called Acquisition Reform. 
Fundamentally what they did was they took system responsibility 
for national security space programs, and they ceded it to 
industry, and they did it contractually. They did it with 
something that was called Total System Performance 
Responsibility or TSPR, and in essence they told their program 
managers, look. You stand back, get out of the way, sit in the 
back of the room, don't ask questions. We are turning this over 
to industry. They went further than that. The government had an 
enormous systems engineering capability. We terminated it, and 
we went about implementing a collection of the most important 
NASA security space programs that this country has.
    The results were devastating, and the adverse impact is 
with us today. In essence what happened was good project 
managers left because if they can't influence what they are 
doing, they don't want to do the job. As I mentioned earlier, 
good people have a choice. The systems engineering capability 
was eliminated, which was a horrible item, and the projects 
were a disaster, and I don't think there is anybody who 
believes that TSPR was anything other than a total failure.
    And let me give you some examples. This was not isolated. 
It was systemic. Boeing, FIA, $10 billion cancelled. SBIRS, 
program with Lockheed Martin, there is a quote, ``If you wanted 
to find out how to not manage a space program, this is it.'' 
NPOESS is one, and actually, I went back and looked at it. Of 
these programs for the 1990s not one of them except Wide Band 
Gapfiller has been launched. These all started in the late '90s 
and not one has been launched to date.
    And in essence, if you take and average those programs, 
which you will find is the following, today we are getting half 
of the program content for twice the money six years late. So 
you say, now why do I think--and I could go on with NASA, 
different--but I want to make it short, the Aerospace 
Corporation actually documented, there is a report, that there 
were $11.2 billion worth of total mission failures in this time 
period. I think you can trace it to this, and the reason is 
that the industry is not constituted to do these things by 
themselves. We have a technique where if you take the expertise 
of NASA and the implementation capability of industry, and I am 
not in favor of a NASA arsenal, but if you take the 
institutional capability of NASA and you take the execution or 
implementation capability of industry, you have got kind of the 
beginnings of the keys to success.
    What this results in good checks and balances, good debate, 
good mission assurance practices, and I think she is trying to 
stop me but----
    Chairwoman Giffords. It is a great debate. Hold that 
thought.
    Mr. Young. Okay.
    Chairwoman Giffords. We are going to--votes have been 
called, so----
    Mr. Young. Okay.
    Chairwoman Giffords. --we are going to call on Mr. McCaul. 
We are going to--if we have enough time, we are going to call 
on Ms. Jackson Lee. Then we are going to recess and then come 
back, but I want to make sure that we get the members when we 
have them, if we have enough time.
    Mr. Young. Okay.
    Chairwoman Giffords. Yes, and a second round.
    Mr. McCaul.

                   Space as a National Security Asset

    Mr. McCaul. Thank you, Madam Chair, and let me follow up on 
this because that is excellent testimony. You make great points 
about the Air Force trying to do this and it didn't work. This 
is a national security asset. I don't think you can completely 
turn it over to commercial spaceflight. It has national 
security aspects to it, military aspects to it. I don't see the 
transition here either. I mean, and Mr. Cooke, maybe you can 
educate me or enlighten me as to how or when this gets turned 
over to commercial spaceflight. I don't see a transition 
period, something that we have invested 8, $9 billion in, and 
then we are going to just hand it off to commercial spaceflight 
as if it is going to be a seamless transition. I don't think 
that is going to happen.
    And the other question I had was was the Department of 
Defense consulted on this decision? Because it seems to me we 
are putting the United States in grave danger here, at risk by 
this decision.
    Mr. Cooke. Representative McCaul, I have not personally 
been in discussions on that. I know that my Administrator has 
been in some conversations. I don't know the extent of those.
    Mr. McCaul. Well, and I think the answer is that they 
weren't, and I think we have had several people from the 
Department of Defense come out and say, you know, we would have 
liked to have been at the table talking about this because it 
does impact our defense capabilities and the national security 
of this country, and I think that was a big mistake.
    Mr. Young, do you have any comments on this transition 
period and also on the national security, you know, aspects?
    Mr. Young. I honestly don't know any of the details of the 
deliberations. As I made in my comment, I do know that anything 
as sweeping is what we are talking about, has significant 
collateral impacts, and so, you know, it is important to 
understand those impacts.
    Relative to the transition, see, I am not convinced that 
transition is anywhere in the near future because I think that 
we have a formula for how to make these things successful, and 
it is a NASA-industry partnership. It is not a turn-it-totally-
over-to-industry kind of a solution. So I don't look at a 
transition, you know, down the line but when we talk about NASA 
doing it, you know, NASA does it fundamentally with using the 
strengths of our aerospace industry to implement these 
programs.
    Mr. McCaul. So do you think that there is going to be a gap 
in human spaceflight now? Certainly we will have to rely on the 
Russians and the Chinese far more than we do today.
    Mr. Young. Well, if--my personal opinion, yes, because I do 
not think there is a sufficiently high probability that 
commercial crew will be successful. So I think we are looking 
at decades with no, you know, with no exploration.
    I shouldn't take your time, but I, too, have--I have a 
seven-year-old grandson, and you mentioned Noah, named Spencer, 
who has been to a Shuttle launch, who goes to the Air and Space 
Museum with me, and to be honest with you if we implement this 
budget, I hesitate saying this but being as it got introduced I 
can build on that, I am worried how am I going to--and by the 
way, whenever I go visit him, he is in Northern Virginia, his 
father is a commander in the Navy. When I go visit him, he 
always has another book on space for us to, you know, look at, 
and I am really wrestling with, seriously, how do I tell him 
that if this program is implemented, the next time NASA flies 
in space he could well be 30 years old.
    Mr. McCaul. Yeah. I think we are letting down our kids. 
This has been a great program for, you know, science and math, 
and the technology spin-offs that have come out of this--one of 
the best investments of Federal dollars that we have had, and I 
am concerned about our ability to compete globally, not only 
from a defense standpoint but from a technology standpoint if 
this decision goes forward.
    And with that, Madam Chair, I yield back.
    Chairwoman Giffords. Thank you, Mr. McCaul.
    Unfortunately we only have about 3 minutes remaining until 
we--the vote will be past due, so what I am going to hopefully 
respect is--or request is if Ms. Jackson Lee and Mr. Perlmutter 
would like to return, we will have a second round of questions, 
and if our witnesses wouldn't mind waiting a few minutes, we 
will go vote and hurry back as soon as possible.
    And with that our committee is in recess.
    [Recess.]
    Ms. Edwards. [Presiding] The hearing will be in order, and 
I thank you very much for waiting, and we will reconvene, and 
we will begin with questions from our visitor today but no 
stranger, Ms. Jackson Lee from Texas.

                        Collaboration on Budget

    Ms. Jackson Lee. Thank you, Madam Chair, and it feels good 
to be in this room again as a former member of the Science 
Committee, and I thank the subcommittee and Chairwoman Giffords 
for her courtesies and to the staff as well for your 
courtesies. I thank the witnesses as well.
    I will start with Mr. Cooke. I think you have gleaned from 
the number of members who have been here that the majority on 
both sides of the aisle have a strong commitment to NASA and 
human spaceflight exploration. My question to you and I have 
always felt that when the Administration and Congress works 
together we are moving toward a home run, a home run for the 
issue that we are working on and certainly a home run for the 
American people.
    Is there a sense that NASA would be welcoming to the ideas 
and suggestions of Members of Congress who have oversight and 
others who are advocates for NASA? Are we still in a realm--
there is a budget process moving forward, there is an 
appropriations process that is still in play. Is the NASA 
headquarters open to engagement and working with us?
    Mr. Cooke. In very simple terms, yes, we are definitely 
interested in pursuing engagement on this budget with Congress.
    Ms. Jackson Lee. And I pretty much have listened to your 
testimony, so Mr. Young, I am going to probe you and try to 
glean some additional points.
    First of all, I have introduced legislation, and I thank 
you, Mr. Cooke. I, too, think that we are best when we are 
collaborating. I think in hindsight we can look back on what 
the analysis was to put forward the present budget, and I would 
think that there was probably issues that drew and caused the 
budget to be drawn as it is presently, but I will tell you as 
we go through this process I think you will see more and more 
issues, the Administration will see more and more issues that 
will lean toward what I have seen as the bipartisan position on 
this committee so far from listening to this testimony, that 
Congress wants to move forward with the human spaceflight. It 
is valuable to America.

                      Weaknesses of Privatization

    But I do want to ask Mr. Young, I introduced legislation to 
address the question of NASA as a national security asset. So 
let me quickly have you assess, move into or merge into that 
point and the point that you made that I thought was so potent, 
and that is the start and stop of the commercial, private 
sector, to no fault of their own. Companies go in and out of 
business, but if we are to have a continuous stream of thought 
and intelligence and commitment and if you will, the 
continuation of knowledge, the holding of knowledge that is not 
loss, is this not the government the best receptacle, if you 
will, for that?
    The second point if you can reflect, and Mr. Cooke, you 
should as well, my enthusiastic friend of this committee 
mentioned the whole commercial opportunities and there are, but 
I am reminded tragically of some of the work that one private 
entity did, Blackwater, compared to the military, and we all 
have our ups and downs, but some things warrant not 
privatizing, at least in its totality.
    Would you comment on that, Mr. Young?
    Mr. Young. Okay. Let me really come to your first question 
first because it is quite a good question. I believe that the, 
I am going to call it the continuity of expertise in human 
spaceflight, resides with NASA. I could make a similar comment 
about the continuity of our expertise in planetary exploration 
is at JPL, and the continuity of our expertise in doing 
national security space programs is in the Air Force NRO and 
Aerospace Corporation.
    These are organizations that the country has deliberately 
established and invested in that have the full spectrum of the 
successes and the problems, the lessons learned, and they go 
forward.
    Industry plays a very important role, and the thing I was 
trying to make with Congressman Rohrabacher, I am--I think our 
industry is second to none, so my comments have nothing to do 
with the deficiencies in industry.
    Ms. Jackson Lee. Absolutely.
    Mr. Young. It is just if we take human spaceflight just as 
an example, and I don't know how much I do from memory but Doug 
could help me, but if we go to Mercury, it was McDonnell 
Douglas, you know, if we go to Gemini, it was also McDonnell 
Douglas. If we then go to Shuttle, it was North American 
Aviation. If we go to Orion, I guess it is Lockheed Martin. 
They are all extraordinary companies, but they don't have the 
continuity, and I could do the same thing with the other 
activities.
    So it is my strong belief that the formula for making these 
things successful is to take that--is to not have it a 
government program and not have it a commercial program, have 
it a national program, and that means that the continuity of 
expertise that NASA has gets combined with the implementation 
capability that industry has, and it is that combination 
together that makes these things successful.
    And none of us are smart enough that we don't need checks 
and balances, and we don't need healthy technical debate about 
how is the best way to do that or how is the best way to do the 
other, and it is this integration of the activities that make 
these things successful, and my personal belief is I don't 
think that industry alone can make this program a success.
    So I do not believe we will have a success if we, you know, 
if we don't go in that particular direction. So, you know, the 
Blackwater or what have you, I don't know enough of the details 
there. I am, again, I am not in favor of, as I mentioned 
earlier, a government arsenal where we do it all in-house, but 
I really want to highlight the fact that in my view it is this 
integration of these capabilities where the Doug Cookes have 
healthy debate and interaction at the PDR with counterparts in 
industry. And it is out of that process that we really make 
these things to succeed, and I personally believe if we pursue 
a commercial crew where it is basically turned over to 
industry, I think we will be making a colossal error. I mean, I 
don't think it is a close call.
    Ms. Jackson Lee. Madam Chair, if you would indulge me just 
one quick question, please.
    Ms. Edwards. Very quickly.

                  Protecting NASA's Acquired Expertise

    Ms. Jackson Lee. To Mr. Cooke, could you comment on whether 
or not people who are associated with Constellation are being 
terminated and whether or not there is now just a hold on those 
positions or whether we are losing those positions, and just 
quickly on that national security issue. Is there some value to 
NASA intelligence that they have, knowledge that they have, 
that it is an asset that we should protect.
    Thank you, Madam Chair.
    Mr. Cooke. Yes.
    Ms. Edwards. Thank you, and then we will go to our second 
round of questions.
    Mr. Cooke. We are not--we at this point are not 
terminating, and we certainly are going to continue with the 
civil servant participation in our programs. In terms of that 
we are--this year we are not terminating.
    Ms. Jackson Lee. National security?
    Ms. Edwards. Thank you, Mr. Cooke.

                  Funding Termination of Constellation

    We will go to our second round of questions, and I would 
like to begin and continuing along that same line, Mr. Cooke, 
at yesterday's House Appropriations Hearing NASA Administrator 
Bolden was asked whether NASA was taking any actions in fiscal 
year 2010 that would unduly delay or impact the Constellation 
Program if Congress ultimately decides to continue 
Constellation in the 2011 budget. At the hearing Administrator 
Bolden assured the appropriators that NASA wasn't doing 
anything in 2010 that would result in any significant delays or 
impact to the Constellation Program.
    However, now we are hearing and the Administrator didn't 
disavow it at yesterday's hearing that NASA may be preparing to 
send letters to Constellation contracts as soon as the end of 
this week. Those letters would call on contractors to hold back 
sufficient sums from their fiscal year 2010 funding to cover 
termination costs in fiscal year 2010, despite the fact that 
the 2010 Consolidated Appropriations Act specifically said that 
no Constellation terminations could even take place until a 
subsequent Appropriations Act is enacted.
    So, Mr. Cooke, won't the impact of those letters be such 
that in order to comply the contractors will still have to stop 
or delay work on Constellation that was planned for FY 2010, 
despite the Administrator's assurances to the contrary?
    Mr. Cooke. In terms of communication with the contractors 
on Constellation, we are not going to tell them anything that 
isn't in their contract.
    Ms. Edwards. But under what authority do you have to do 
that if the--if this, you know, any such actions that would go 
to the 2011 budget was not required or specified in the 2010 
budget?
    Mr. Cooke. We are not directing the contractors to take 
actions.
    Ms. Edwards. So what will be the content of the letter 
then?
    Mr. Cooke. I haven't seen the letter, so I don't--and I 
don't know that they exist at this point.
    Ms. Edwards. Are you aware of any human spaceflight, major 
human spaceflight programs over the past 30 years that required 
contractors to set aside each year the funds needed to cover 
termination while the project is still underway and still 
authorized and appropriated as now is being contemplated?
    Mr. Cooke. The contracts that we write are not different 
today as they have been. I probably ought to take that for the 
record to make sure that we get appropriate procurement and 
legal answers to the questions.
    Ms. Edwards. Well, then we will expect then that we will 
receive a response to this set of questions, though, on the--
for inclusion in the record.
    I wonder if you could tell me whether the new requirement 
is inconsistent with past practices with the fiscal year 2010 
Appropriations Act?
    Mr. Cooke. The--in going forward we are, once again, we are 
not changing the contracts. I mean, these are the contracts 
that have been in place, and so we are not directing changes.
    Ms. Edwards. But if a contractor were asked for a--in 
fiscal year 2010, to set aside a part of its contract for the 
purposes of preparing for termination, where would that 
authority come from? I mean, it didn't come from Congress.
    Mr. Cooke. We are not directing them to do anything other 
than what is in their contract. I mean, these are the contracts 
that have been in place. I am sure I answered the question.
    Ms. Edwards. Then let me just conclude by just requesting 
that you prepare a full answer to this question for our 
records.
    Mr. Young, do you have any comments about that? Have you--
in your experience have you experienced a contract where you 
were required under one appropriation or authorization to set 
aside money in preparation for termination of the contract? Is 
that something that you have experienced before?
    Mr. Young. That is not an issue I have been thinking about 
the last little bit, so I am going to beg off and tell you--it 
is a good question, and I think you deserve a, you know, a 
response to it. There is clearly--how it should be done is not 
ambiguous. I mean, maybe I can say that. I mean, there are 
clear, you know, statements in the FAR, and there is clear 
contractual requirements as to how it should be done.
    Being as I haven't really kind of let that wrestle through 
my head I don't want to maybe get you off track.
    Ms. Edwards. Thank you very much. Okay.

                         Status of Tiger Teams

    Mr. Cooke, I want to go to, you know, following really 
along the same lines, I would appreciate it if you would 
provide any or you can provide any new information today on the 
responsibilities and reporting schedules of the tiger teams 
that have been established. I mean, one--that is helpful 
because one sentence in your prepared statement sort of stands 
out, in which you say that, ``The data assembled by the study 
teams will equip NASA with vital and substantive information 
that we will need once the new fiscal year begins and once NASA 
embarks on its effort to implement the 2011, budget request.''
    Your statement goes onto the project completion, to 
project--to project rather the completion of a majority of the 
team's work by the end of the third quarter of fiscal year 
2010. So based on the fact that so much is still unknown and 
will remain so potentially through the end of this fiscal year, 
how can Congress be reasonably expected to evaluate the 
appropriateness of NASA's exploration budget?
    Mr. Cooke. We will--we are--we do have these teams in 
place, and it is part of the budget planning process in terms 
of laying out the processes and understanding how these 
programs would be put in place. We can, I mean, we will share 
information at logical points in that development as part of 
the budget process.
    Ms. Edwards. Thank you.
    Mr. Olson.

                   Filling the Human Spaceflight Gap

    Mr. Olson. Thank you, Madam Chairwoman, and Mr. Cooke, a 
question for you, sir. Just prior to the decision to cancel the 
Constellation in February, NASA was still on a path for the 
Space Station by March, 2015. In fact, earlier in our first 
round, I mean, you confirmed that that was still a good number. 
At the February 1 teleconference brief to the media on NASA's 
budget request, the Deputy Administrator Lori Garver said that 
for planning purposes NASA expected a crew, commercial crew 
transport system to be ready to go in 2016.
    And all of us aren't interested in lengthening this gap 
between human spaceflight services in the United States, and, 
again, March, 2015, is what Ares would have done. Commercial at 
best now we are hearing some time in March of 2016.
    Can you resolve--how does that increase or--it sounds to me 
like it increases, you know, our gap, and why is that in our 
country's national interest, our security interest to increase 
the gap when we have got a program of record that is working 
right now?
    Mr. Cooke. In terms of the comparisons, the, of course, 
there was the Augustine Committee that delivered their 
independent view of it, and their estimates were different than 
the program's. In terms of the readiness of Ares and Orion, I 
can only speak to my understanding of the program data that I 
have seen, and that is why I said what I did on the 2015 date, 
and that is based on development of data from the contractors 
and evaluating our internal schedules.
    And in the March, 2015 date there has been schedule risks 
that I think we have talked about in the past. In terms of--I 
would not want to speculate on what might come of commercial 
crew because that will require that we put out solicitations 
for that work, and really understanding the proposals and what 
is possible for what amount of money is what is required in my 
view to assess that.
    Mr. Olson. Thank you for that answer. So kind of in summary 
I think you would be saying that certainly with Ares I as part 
of the Constellation you have got a much better comfort level 
with what is capable as opposed to these commercial operators 
who right now are unproven. Is that a fair statement?
    Mr. Cooke. I can really only speak to my understanding of 
the Constellation Program.

                      Delays to the Constellation

    Mr. Olson. And, Mr. Young, one more question for you. Given 
the agency's decisions for fiscal year 2010 to refrain for 
initiating new work not currently under contract and to refrain 
from expanding the scope of any work that is currently under 
contract, what is the scale of the delay to reach IOC if 
Congress were to direct continued development of Constellation?
    Any thoughts on that, Mr. Young?
    Mr. Young. Yeah. I don't have the, you know, the detailed 
knowledge or study to really, you know, really comment on that. 
I do think that there is one factor that, you know, one, the 
circumstances have somewhat changed in that we said that we are 
going to continue Space Station at least until 2020. So, you 
know, one of the--and, in fact, I, you know, even read that out 
of the International Partners meeting there was discussion of 
2028 there. So we are talking about--and you would kind of have 
the feel that if Space Station is productive, continuing to be 
successful, it is going to be hard to not continue that to 
operate.
    So I think we are now talking about a system to support 
transportation to and from the Space Station that is not 
measured in the part of the next decade, what we are talking 
about for a decade or even, you know, another decade beyond 
that. So in my view that somewhat changes the equation as to 
how you evaluate what is the best space transportation system 
to go back and forth to the Space Station.
    Mr. Olson. Yes, sir. Thank you for those comments because 
as I read the report one of the main reasons why they were 
skeptical of Ares I was the station was scheduled to be de-
orbited in 2015. The Ares I would come online 2015, 2017, by 
their estimates on the committee. So, okay, that makes sense if 
what we are using is going to be gone, but as you alluded to, 
bipartisan agreement that we need to go to 2020, and there are 
international partners interested in going beyond that.

                  Incremental Transition to Commercial

    And then just one final question, and I just wanted to sort 
of address my good colleague, my friend from California. I just 
want to assure you that I am a supporter of commercial 
spaceflight, but we have got to do this incrementally, and they 
need to prove to us first that they can do the cargo mission, 
and I think they, you know, if they can do that cargo mission, 
that is a great first step. But as my colleague knows, there is 
a huge difference in flying cargo and flying human beings. Just 
the modifications to the vehicle, the redundant systems, the 
backup to the backup to the backup that are required because a 
human being, a man or a woman, is placed on that vehicle. It is 
a much different equation. I have had many meetings with the 
commercial contractors, and they are good people, they are very 
capable, and they are doing the American dream. I mean, they 
are out there developing, and the stuff that has made our 
country great, but they are not ready yet for human 
spaceflight. They are getting to the point where they are 
getting ready for commercial, but they are not ready for human 
yet, and that is my concern.
    In talking to them, one of them in particular, one that you 
are very familiar with, said, you know, we are complying with 
NASA's requirements for human spaceflight, and we have had 
Admiral Dyer come here and testify to us a couple months ago 
who said no one can say that with a straight face in this world 
because NASA hasn't published the requirements for human 
spaceflight.
    So just want to make sure for the record everybody knows 
that I am a supporter of commercial spaceflight, but it has got 
to be incremental. Cargo first and then human.
    And I yield back my time. Thank you.
    Ms. Edwards. Thank you, Mr. Olson. I would like to 
recognize at this time Mr. Hall.
    Mr. Hall. Thank you. Mr. Cooke, and by the way, I am glad 
to see Mr. Young here, back here. I know some good days with 
Norm Augustine and the services of the two of you and others 
yielded to this Congress and to this country, and I thank you 
for your part of that.

                        Planning for Termination

    And I understand the question was asked of you if you had a 
plan to how you are going to shut down something. I don't how I 
would answer that. If I organize something, I don't think about 
it shutting down. Now, if you are going to fight a war, I would 
admit you need to have a way out if you are going to do that, 
you know, to have a plan for retreating if you have to, but in 
this I don't think you would think about shutting it down if 
you are going into it. Maybe I am just not thinking enough, but 
I started and finished several industries and never occurred to 
me that I could fail until I failed one time, and I never 
forgot that. You know, it is like in Vegas what you lose hurts 
you a lot more than what you win helps you.
    But I understand your not wanting to make an answer to that 
question, but I guess you could think about it and give her a 
letter on it later if that would help.

               Transitioning Constellation Infrastructure

    I wanted to ask Mr. Cooke, the Shuttle Program is carrying 
a lot of the overhead costs associated with human spaceflight, 
and a lot of that agency overhead cost was planned to be 
assumed by the Constellation Program after the 2010.
    Where will NASA--how will they account for that, for the 
overhead cost under the commercial crew program? And will the 
burden for maintaining America's human spaceflight capabilities 
be shifted to the emerging so-called commercial entity since 
they will clearly be beneficiaries of it?
    Mr. Cooke. The transition of workforce, the transition of 
facilities and hardware has been something that we have worked 
between the Shuttle and the Constellation Program. We have had 
an active effort in that, so now we will be working a 
transition effort with some of what that content was as well as 
from Constellation. That is forward work. We do have a 
transition team that is working, building off of that 
experience to understand how we do work through those 
facilities and so on.
    But we don't have an answer on what that will be yet. That 
is underway.
    Mr. Hall. Whatever happens to NASA's existing launch 
infrastructure such as the launch pads or the processing 
facilities, the mission control center? What happens to those? 
Just shut them down?
    Mr. Cooke. Sir, that is forward work, and certainly we will 
be--and it is not in my budget but in the Space Operations 
Mission Directorate budget to work the 21st Century Launch 
Program down at the Cape, but we will be working with industry, 
we will be working within NASA to understand the future of all 
of that capability and perhaps----
    Mr. Hall. Do you think there will be some benefit to that?
    Mr. Cooke. There could well be. Should be.

                       Status of Commercial Cargo

    Mr. Hall. Well, then what exactly is the purpose of the 312 
million you are requesting for commercial cargo in FY 2011?
    Mr. Cooke. That part of the budget is--we are working 
through the details with the companies that we have onboard 
now, which are Space X and Orbital Sciences, to understand how 
we can reduce some risks in their schedules by--with additional 
testing, potentially an additional flight test for one of them, 
developing, enhancing some of their capabilities to provide 
cargo to Space Station.
    Mr. Hall. I thank you, and I yield back.

                      Termination of Orion Capsule

    Ms. Edwards. Thank you, Mr. Hall. I would like to recognize 
Mr. Perlmutter, who is visiting with us today, for five 
minutes.
    Mr. Perlmutter. Yeah. From far away. My name is Ed 
Perlmutter. I represent the suburbs of Denver, so we have a 
substantial facility, Lockheed manages and operates, that is 
building the Orion capsule, and this--I have to say that the 
decision by NASA to cancel the program, cancel the entire 
Constellation Program has sort of turned things upside down in 
Jefferson County. It has been a very solid project, seems to 
have been, you know, operating, you know, and passing all of 
the tests that NASA and the Augustine Committee have talked 
about.
    So can you explain to me why Orion is a casualty in all of 
this, too, or am I mistaken?
    Mr. Cooke. The exact decisions are something that I was not 
directly a part of. I made inputs during the Augustine 
Committee, during the fall with NASA management on 
possibilities and options given the Augustine deliberations, 
and so I had input into that process, but I was not a part of 
the final decisions. I can't speculate on that.
    The--in terms of where we go from here in the budget 
request there is the commercial crew part of the budget that is 
$6 billion over the run-out, where these kind of capabilities 
certainly could be involved in that future through proposals.
    Mr. Perlmutter. I guess where I am coming from, I think Mr. 
Olson, he and I are pretty much on the same wavelength with 
respect to the Constellation Project and its many features, but 
it is lots of jobs in my area, and they are great jobs and with 
good people.
    And I know the space industry, Lockheed, Raytheon, General 
Dynamics, all of the, Northrop Grumman, it can be boom or bust 
in that business, but here is one where, you know, you get to 
the guts of the thing, which we--I believe in manned 
spaceflight. I believe that it is sort of a component part of 
American science. It is about exploration, it is about, you 
know, our desire to be bigger than we are, to do things beyond 
our reach, and then you get down to the real particulars, and 
it is a lot of jobs.
    So how does the program plan to deal, you know, as I am 
trying to build jobs in Jefferson County and in the seventh 
Congressional District, now I have got to deal with this hole. 
Is there any kind of way that NASA or anybody else is planning 
to backfill this stuff?
    Mr. Cooke. I definitely understand your concern, and with 
the new programs that we have and the technology development 
and the commercial crew and in precursor missions that are in 
our budget to scout out some of the destinations that are 
possible with humans, as well as in flagship demonstrations and 
technology demonstrations, there will be opportunities to 
compete for those, and that is what is in our budget request.
    Mr. Perlmutter. So you would then suggest that these folks 
could just move straight into the commercial side and really 
not have to be a project that is managed by NASA. It is just 
let Lockheed do it itself.
    Mr. Cooke. That is a potential. In terms of how we do that.

                          Contractor Response

    Mr. Perlmutter. But let me ask a question. In dealing with 
your contractors, do they want this? Does a--I mean, I haven't 
asked Lockheed. I don't know whether Northrop Grumman, I don't 
know whether some small company up in Boulder, Colorado, 
because I know there are companies in Colorado that are 
interested in the commercial side of this.
    But this is so intensive in terms of the infrastructure and 
the cost that I don't know how any company can do it. I mean, 
maybe it is a rhetorical question. If you can respond, I would 
appreciate it.
    Mr. Cooke. Well, certainly it is a shift in direction for 
exploration, and you know, what we will be doing is providing 
these competitions and those opportunities.
    Mr. Perlmutter. Thank you, and I appreciate the committee 
allowing me to speak, and I yield back.
    Ms. Edwards. Thank you. At this time I would like to 
recognize Mr. Rohrabacher for five minutes.

                      Composition of Future Panels

    Mr. Rohrabacher. Well, thank you very much. I am sorry that 
the Chairman had to step out or Chairwoman had to step out 
because I would like to make a recommendation. This sounds like 
a very significant issue that is being discussed, and maybe it 
would be nice to have more than one person in the room who had 
the other side of the argument to present, and I would suggest 
to my colleagues that we might want to have an actual debate or 
presentation to the committee in which sides could actually 
make their points and discuss it openly and be on the record. 
It might be nice to have a little real honest debate among 
experts on this issue, and I do not pretend to be an expert. 
Mr. Young, you, of course, are a much better expert at this 
than I am, as is Mr. Cooke, but I would suggest that to the 
committee.

            Government Inadequacy at Technology Development

    To my colleague who just said, hey, I can't conceive, it is 
very hard to see how private sector can do these things, it is 
really impossible to consider how the private sector could 
build an airplane back early on in the last century, and what 
we did and the same way--it was almost impossible to conceive 
how we were going to have railroads and how they were going to 
provide transportation to the country. And the fact is the 
government did not do the job. That was left to the private 
sector in both airlines as well as in railroads. Otherwise it 
would have been ten times as costly.
    Let us just note that the Ares Project was $9 billion and 
not one new piece of technology was developed for that $9 
billion yet. That--when they took off, there was no new piece 
there that they said, the engines or anything else, that there 
was a brand new piece of technology. I went down to Space X, 
and they have invested about $300 million, and they have got 
brand new technology, and of course, they don't have as many PR 
men working for them, they don't have all the other government 
things that are guaranteed to companies that make things more 
expensive, but if the private sector can do something for half 
as much or even 1/5 as much as what the public sector can do, 
we are limiting what our accomplishments are going to be in 
space by insisting that the government or the bureaucracy is 
the only one who can really be trusted to get the job done.
    I would note that we also--there was also a colleague 
suggested, well, this is like Blackwater. We can't contract 
with Blackwater. Well, we do contract with Blackwater for some 
important jobs, and they have done a good job, but let me note 
maybe the better comparison would be when our government 
contracts with a private airline to take our troops someplace. 
We are talking about setting up a space transportation system, 
just like we had a system of railroads and an airline system.
    Would it be better to have the government run it and have 
an agency dominate all the decisions? No. No, it wouldn't have 
been, and I believe that is the same way and the same truth for 
what we are setting up now as a space transportation system. 
But we need the government to set standards as they do for 
aviation, et cetera, and help in developing technology as they 
do for aviation.

                       Human Rating Requirements

    Mr. Cooke, how long will it be before NASA develops human 
rating requirements and qualifications and verifications for 
the process for--in terms of commercial crew? How long is that 
going to take NASA?
    Mr. Cooke. We are working on that right now. We have a 
draft set of requirements and processes that we will be putting 
out at the end of April for comment by industry with responses 
back by the end of May, and we are due to vet those within 
the--within NASA and be complete with that process by the end 
of this fiscal year.
    Mr. Rohrabacher. Okay. So by the end of the year we are 
going to know what NASA believes are the actual prerequisites 
for human spaceflight and what requirements for various 
vehicles?
    Mr. Cooke. That is our plan.

                     Efficiency of Government Plan

    Mr. Rohrabacher. Okay, and Mr. Cooke, do you think that it 
would be more expensive to--of course, we don't know what those 
requirements are yet, the government part hasn't done their job 
yet to see what those requirements are, but once they do, do 
you think it will be more costly or less costly to proceed with 
having Delta and Atlas meet some of those qualifications and 
meet those requirements versus the $9 billion that we have 
already spent on Ares and Orion that hasn't gotten us anywhere?
    Mr. Cooke. I really can't speculate until we do 
solicitations and get proposals.
    Mr. Rohrabacher. Okay. Well, see, Mr. Young should answer 
that, too.
    Mr. Young. If I could answer a couple of your questions if 
the Chair would allow.
    I have got to go back--allow me. You mentioned airplanes, a 
good analogy. I am a big admirer of our airplane industry. Even 
today airplanes is a very mature industry. Airplanes land every 
day with problems that would be catastrophic in the human 
spaceflight program. Every day. They probably have done it 
while we have been having this hearing.
    So I think the analogies, you know, are interesting but not 
directly applicable. If we come back to the requirements, and I 
think what Doug Cooke said of NASA levying the requirements for 
safety is a good thing to do, but I will remind all of us that 
the reason things fail today won't be in those requirements 
documents. In other words, the requirements will not say don't 
confuse English and metric units, which is the reason Mars '98 
failed. It won't say don't write down the wrong number in the 
guidance equation for a Titan IV which is why a Titan IV 
failed. It won't say don't let the foam hit the leaning edge of 
the wing, and the only thing I really--the point I am really 
trying to make is the requirements, the safety requirements are 
important, and they should be done, but they won't get the job 
done. What will get the job done, repeat it again, is the 
strength of NASA and the incredible strength of industry, you 
know, working together to make these items happen.
    You mentioned the EELV. Two comments. First off, the EELV 
started out as a commercial enterprise as you know as well as I 
do obviously.
    Mr. Rohrabacher. Yeah.
    Mr. Young. There were a large number of space system 
failures. I chaired a review for Lockheed Martin, Sheila 
Widnall chaired one for Boeing, looked into that, and Larry 
Welch chaired a Presidential Commission to look into the launch 
vehicles.
    And out of that the Presidential Commission's basic 
conclusion was that EELV proceeding as a commercial system when 
the commercial market fell apart and didn't really happen, were 
following practices that were not consistent with the practices 
that we knew were necessary to make these things have a 
sufficient and high probability of success.
    So the EELV Program was changed, and it was changed to 
implement techniques that we have experience with that we know 
how to make these things work. So EELV is no longer, you know, 
really a commercial system, and your other comment about we 
could certainly take the EELV, and we could human rate it.
    Mr. Rohrabacher. Right.
    Mr. Young. Aerospace did a study. They said it would take 
between 5-1/2 and 7 years----
    Mr. Rohrabacher. Right.
    Mr. Young. --to do that. I must admit, I am kind of struck 
by it being that long to be honest, but that is what they said. 
They identified no basic cost advantage, and in addition to 
that what I know about it is that if you what you would like to 
do is to take your initial space transportation system that you 
went back and forth to Space Station, and you would like to be 
able to grow that to--and I am not working your economic 
equation. You would like to be able to grow that to a heavy-
lift, you would like not to have two systems, and there is no 
question in my mind and Doug could certainly comment, no 
question in my mind you can grow something like an Ares I into 
a heavy-lift capability much more efficiently than you can grow 
an EELV into a heavy-lift capability.
    And I think, again, if you go back and look at the details 
of that Aerospace study, you know, it will kind of support 
that.
    So, again, the point I, you know, that you and I have 
really been discussing, and I always enjoy my discussions with 
you I should say----
    Mr. Rohrabacher. Thank you.
    Mr. Young. And by the way, it is a terrific example of what 
I am trying to say is I end up with better thoughts having 
debated with you, and I hope maybe you have debating me.
    Mr. Rohrabacher. Absolutely. Thank you.
    Mr. Young. And that is really what I am talking about is 
how NASA and industry works together.
    Mr. Rohrabacher. Yes, sir.
    Ms. Edwards. Thank you, Mr. Young, and thank you, Mr. 
Rohrabacher.

                Technology Development in Constellation

    We are going to about draw to a close and because we are 
expecting votes shortly, but I want to just ask as we close 
here, Mr. Cooke, in reference to Mr. Rohrabacher's point, what 
new technologies has Constellation developed?
    Mr. Cooke. In the Constellation Program we actually have 
some technologies we have been working that will be potentially 
migrated into our technology programs. Automated rendezvous and 
docking is one that we are working on the Orion. In the upper 
stage we are making further progress on the technology of 
friction stir welding. We are working composite structures. We 
have made some advances in lightening protection on space 
vehicles, advanced batteries. We are using advanced solar 
arrays on the spacecraft. We are making advances in guidance, 
navigation, and control and other avionic software that will be 
possible.
    We have actually in an advanced development work out at 
Ames we have developed technology in thermal protection system, 
advanced thermal protection systems for spacecraft. We are 
working in closed life support, and we have--we are actually 
charting some new territory in modeling of the environments and 
characteristics of the spacecraft during launch and entry 
through new modeling techniques and software.
    Ms. Edwards. Thank you. I mean, as you described a number 
of new technologies developed in that little government-
supported program.
    Mr. Cooke, just as we do close, by the end of the 
authorization and appropriations process I hope that we and the 
Administration can craft a productive path forward for NASA's 
human spaceflight program, and given the concerns expressed by 
members both on and off the committee over the suitability and 
sustainability of the proposed redirection, we are going to be 
looking at this investment that we have already made in the 
Constellation Program, significant investment to see whether it 
and how it can be part of the solution.

                           Constellation PDR

    And in that regard, I mean, you have just completed the 
Constellation Program's PDR. What is the status of 
Constellation? Does it have any fundamental problems, or is it 
on track technically, and just a yes or no answer would be good 
for that.
    Mr. Cooke. Just briefly, the Board for the preliminary 
design review did recommend its advance toward critical design 
review, which, I mean, we are working issues as all programs 
do, but they are being worked.
    Ms. Edwards. And is there--on the commercial side are they 
anywhere near that?
    Mr. Cooke. Well, at this point we are not developing the 
commercial crew yet, and that is what this new program is for.
    Ms. Edwards. Exactly. Thank you, and just finally, though, 
you know, I hope that part of what you have heard here today is 
that we don't believe, many of us on this committee don't 
believe that the--that NASA either has the authority or either 
through appropriations or authorization to terminate programs 
at this stage. This is a work in progress, and so I hope you 
will go back to your superiors and urge them to rethink any 
approach in dealing with Constellation during the remainder of 
the fiscal year that might impact it and the full program for 
the future given that we haven't closed out the conversation 
yet. This is of deep concern to many Members of the Committee. 
It is a concern that I have as we have heard it over and over 
again, both in terms of the impact on the workforce but also 
the impact on the program given that Congress hasn't weighed in 
yet on the President's budget proposal.
    I want to thank our witnesses for testifying before the 
subcommittee today. The record will remain open for two weeks 
for additional statements from members and for answers to any 
follow-up questions the subcommittee may ask witnesses, and the 
witnesses are excused, and the hearing is now adjourned.
    Thank you very much.
    [Whereupon, at 4:45 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


                   Answers to Post-Hearing Questions

Responses by Mr. Douglas Cooke, Associate Administrator, Exploration 
        Systems Mission Directorate, National Aeronautics and Space 
        Administration

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  NASA's FY 2011 budget request states that commercial human 
spaceflight services ``will ultimately open space travel to many more 
people across the globe.'' Yet a 2002 market study on space tourism 
that the administration used in support of its decision to fund the 
development of a commercial crew transport industry concluded that a 
private citizen would have to have a net worth of at least $200 million 
to afford a ticket for commercial orbital space travel under current 
ticket price projections.

        a.  Is this small percentage of the world's wealthiest people 
        the population that NASA is aiming to support as it funds the 
        development of this commercial crew transport industry?

        b.  If so, given current budgetary constraints, why does NASA 
        consider that to be the best use of scarce taxpayer dollars?

A1a, 1b. NASA is not aiming to support any specific population. The 
vision of commercial human spaceflight to Low Earth Orbit (LEO) is a 
robust, vibrant, profit-making commercial enterprise with many 
providers and a wide range of private and public users. NASA hopes to 
develop a framework for this initiative that accommodates a diversity 
of people (e.g., astronauts, international partner personnel, 
scientists, spaceflight participants) for a variety of reasons (e.g., 
science, research, station operations, tourism).
    NASA's FY 2011 budget request for commercial crew will help develop 
a critical capability that is needed by the Agency. NASA's primary 
objective is to invest in commercial access to space and take advantage 
of it for transportation of U.S. astronauts to and from the 
International Space Station. By investing in commercial crew efforts 
over the next five years, NASA can focus on the forward-leaning work we 
need to accomplish for beyond-LEO missions. Additionally, this 
investment will:

        <bullet>  Reduce the risk of relying solely on Russia to 
        transport astronauts to the ISS following the retirement of the 
        Space Shuttle;

        <bullet>  Free up NASA resources to focus on the difficult 
        challenges in technology development, scientific discovery, and 
        exploration;

        <bullet>  Make space travel more accessible and more 
        affordable.

        <bullet>  Build an enhanced U.S. commercial space industry that 
        creates new high-tech jobs, leverages private sector 
        capabilities, spawns other businesses and commercial 
        opportunities, and spurs growth in our Nation's economy.

        <bullet>  Inspire a new generation of Americans by these 
        commercial ventures and the opportunities they will provide for 
        additional visits to space.

Q2.  In light of continuing accounts regarding other countries' plans 
to undertake human lunar exploration missions in the future, how 
adaptable is the administration's approach, which would result in the 
elimination of all ongoing human spaceflight vehicle development 
programs, to a shift in the geopolitical landscape and subsequent 
renewal of interest in a U.S. Moon landing? For example, would it allow 
us, if necessary, to accelerate development and recover in time to 
perform a lunar landing in the early 2020s?

A2. The Administration developed the FY 2011 budget request based on 
what it believes is the best long-term strategy for human space 
exploration; it did not develop the budget based on an estimate of the 
geopolitical landscape now or in the future. For its part, NASA looks 
forward to implementing whatever policy direction is given to us, now 
or in the future. NASA is capable of accelerating work on the vehicles 
required to reach the lunar surface if that became a national priority 
and adequate funding were to be appropriated.

Q3.  A January 2010 article in Spaceflightnow.com quoted the NASA 
Administrator as saying ``Whether it be future human voyages beyond low 
Earth orbit, or complex sample return missions from Mars and deep space 
objects, or building future large space telescopes, NASA must pursue a 
new era of international cooperation, a relationship where partners are 
treated as equals.''

        a.  What is the U.S. strategy for international engagement in 
        the human spaceflight activities and exploration beyond low-
        Earth orbit proposed in the FY 2011 budget?

A3a. NASA initiated a multilateral dialogue with thirteen international 
space agencies in 2006 that resulted in the May 2007 release of the 
``Global Exploration Strategy--The Framework for Coordination.'' The 
GES ``Framework Document'' articulated common themes and a shared 
vision of globally coordinated human and robotic space exploration. The 
Framework Document also recognized the need to establish a voluntary, 
non-binding international coordination mechanism through which 
individual agencies may coordinate their respective exploration 
interests. The International Space Exploration Coordination Group 
(ISECG) was established in late 2007 for this purpose. In addition to 
this very effective multilateral approach, NASA anticipates continuing 
to build both on its established as well as emerging bilateral 
relationships. Consistent with the U.S. Space Policy, the President's 
proposed budget affords increased opportunities for NASA to serve as a 
global leader and to establish early, critical cooperative 
opportunities with our international partners.

Q3b.  How will we cooperate with our international partners and engage 
other nations in human exploration if we are uncertain about what we 
will be doing and what the architecture will be?

A3b. The GES Framework Document recognizes that each participating 
agency will maintain the flexibility to pursue its national exploration 
interests, yet the ISECG provides a forum for agencies to identify 
common interests from which meaningful cooperation could be achieved. 
The GES framework process was designed to be flexible and to adapt to 
changing circumstances and national priorities. In creating the 
framework document and the ISECG, significant progress was achieved in 
learning how to coordinate common exploration goals and architectures 
that respond to those goals. NASA anticipates utilizing these processes 
to develop global architectures for destinations in addition to the 
Moon, including Near Earth Objects and Mars.

Q3c.  If we are seeking to maintain our international leadership in 
human space exploration, what is it we bring to the table?

A3c. Consistent with the more than 50 years of NASA leadership in human 
spaceflight, the proposed 2011 budget makes significant investments in 
a number of areas which are of great interest to our international 
partners:

        <bullet>  Extension and increased utilization of the 
        International Space Station to test and demonstrate key 
        enabling technologies and capabilities vital to further 
        exploration;

        <bullet>  Transformative technology development and flagship 
        technology demonstrations to pursue new approaches to space 
        exploration;

        <bullet>  Robotic precursor missions to multiple destinations 
        in the solar system;

        <bullet>  Research and development on heavy-lift and propulsion 
        technologies;

        <bullet>  Education and Participatory Exploration, including 
        focus on STEM.

    The level of proposed investments is substantial and serves as a 
catalyst for cooperation and its significance, compared to the 
investments being made by our international partners, sets a strong 
tone of leadership within a context of cooperation. Accordingly, NASA 
has already received significant interest in these areas from our 
partners. We are currently working with them to define our common long-
term exploration interests, as well as near-term cooperative activities 
in several areas of the proposed 2011 budget. In particular, precursor 
robotic missions may be a fruitful area for near-term collaboration 
with other nations.

Q3d.  Under the proposed FY 2011 budget plan, the U.S. government 
wouldn't be able to offer a launch vehicle, a crew exploration vehicle, 
or a lunar lander. How influential could this country expect to be in 
the international space community without such assets?

A3d. The FY 2011 budget request provides NASA with significant 
influence in the international space community because it opens and 
enables many more opportunities for international collaboration and 
partnerships. Under the previous plan, much of our program was off 
limits to international participation, including important roles on 
critical elements. As a result, there was some discontent among the 
international community and there were fewer options for significant 
strategic partnerships that could substantially increase the 
affordability and sustainability of the program. The 2011 budget 
request positions NASA to be the global space technology leader and 
invites international partners to participate in the development of 
transformational new technologies in areas such as heavy lift and in-
space propulsion, flagship technology. At the same time, the new plans 
create a more robust industrial and technical base from which to 
leverage the new capabilities in key mission systems that will open 
greater opportunities for human space exploration. The net result could 
be substantially greater and more robust international participation 
and cooperation to allow more challenging missions sooner, all of which 
is consistent with our new U.S. Space Policy and national objectives, 
and precursor robotics missions to multiple destinations in the solar 
system.

Questions submitted by Representative Pete Olson

Q1.  What is the requirements rationale for attempting to develop a 
high-energy engine for Orbital's Taurus II upper stage?

A1. A high-energy engine for Orbital's Taurus II upper stage has always 
been part of Orbital's development plan for Taurus II. In fact, the 
third mission under the CRS contract incorporates greater cargo 
carrying capability of the Taurus II provided by a high-energy upper 
stage. The plan and proposal was negotiated with Orbital as part of 
Federal Acquisition Regulations part 12 fixed price procurement.

Q1a.  What is the expected cost to the Government to proceed with that 
development?

A1a. If NASA includes a high-energy upper stage for the Taurus II as 
part of its COTS Cargo augmentation items to support multiple missions 
including non-CRS uses, then NASA would only fund a portion of the 
upper stage development costs. This is consistent with the COTS Cargo 
Program philosophy of the commercial partner also providing capital. 
While NASA has not negotiated its share of the development costs, it is 
anticipated that NASA may contribute approximately $30M-$35M for this 
development effort, if deemed appropriate.

Q1b.  If Congress does not appropriate money to pursue this work will 
Orbital Sciences be unable to fulfill any of its existing commitments 
under the CRS contact?

A1b. The $312M in the NASA FY 2011 budget request for commercial cargo 
is for incentivizing current commercial cargo providers to improve the 
chance of mission success by adding or accelerating the achievement of 
already-planned milestones, adding additional capabilities, or adding 
tests that may ultimately expedite the pace of development of cargo 
flights to the ISS. However, whether or not the funds are appropriated 
and used in this manner, OSC is legally required to meet its milestones 
and deliver services under the terms of the CRS agreement.

Q2.  What is the requirements rationale for attempting to develop a 
Block 2 engine upgrade for SpaceX's Falcon 9?

A2. The Block 2 engine upgrade for SpaceX's Falcon 9 would reduce the 
cost associated with the Falcon 9 first stage and provide engine 
commonality with the Falcon 1e. This commonality would increase the 
engine's overall production and flight rate, further reducing cost and 
potentially increasing the engine's reliability. While NASA is 
confident in SpaceX's ability to develop a Block 2 engine upgrade for 
the Falcon 9, this development activity does carry risk.
    With the Administration's decision to extend the life and enhance 
the utilization of the ISS, cargo transportation services are more 
critically important to NASA. Thus, providing an investment to assist 
with the development of a Block 2 engine upgrade for the Falcon 9 
reduces the risk associated with the development of this planned 
capability, potentially reduces NASA costs for cargo transportation 
services, and potentially increases the reliability of the Falcon 9 
cargo transportation flights to the ISS.

Q2a.  What is the expected cost to the Government to proceed with that 
development?
A2a. NASA has not negotiated its share of the development costs 
associated with the Falcon 9 Block 2 upgrade. Thus, exact costs to the 
Government are not known at this time. However, as an estimate, NASA 
may contribute approximately $40M-$45M for this development effort.

Q2b.  If Congress does not appropriate money to pursue this work, will 
SpaceX be unable to fulfill any of its existing commitments under the 
CRS contract?

A2b. Whether or not funds are appropriated and used to develop a Block 
II upgrade for Falcon-9, SpaceX is legally required to meet their 
milestones and deliver services under the terms of the CRS agreements.

Q3.  What changes to the existing CRS contract milestones and/or 
schedule would be necessary if Congress does not appropriate the $312 
million requested for commercial cargo in the FY 2011 budget?

A3. No changes would be necessary because the CRS contract/schedule 
would remain the same should the additional funding not be 
appropriated. However, there is greater risk to NASA and the ISS 
Program.

Q4.  If Congress does not appropriate the $312M requested in the FY 
2011 budget for commercial cargo, how will that impact SpaceX's ability 
to successfully fulfill its CRS contract obligations?

        a.  Which milestones would not be performed?

A4a. Whether or not the $312 million requested in the FY 2011 budget 
for commercial cargo is appropriated, SpaceX is legally required to 
meet all of its currently negotiated milestones and deliver services 
under the terms of the CRS contracts.

Q5.  If Congress does not appropriate the $312 million requested in the 
FY2011 budget for commercial cargo, how will that impact Orbital 
Sciences ability to successfully fulfill its CRS contract obligations?

        a.  Which milestones would not be performed?

A5a. Whether or not the $312 million requested in the FY 2011 budget 
for commercial cargo is appropriated, Orbital Sciences is legally 
required to meet its currently negotiated milestones and deliver 
services under the terms of the CRS agreements.

Q6.  What is the underlying requirements rationale for proposing to 
initiate development of a first stage hydrocarbon engine?

        a.  What requirements would be satisfied that cannot be 
        satisfied with solid rocket motors?

A6. The underlying requirements rationale for proposing to initiate 
development of a first stage hydrocarbon engine is lower development 
and operations costs, with the potential that NASA may not be the only 
user of the engine. When NASA is the only user of a rocket, NASA alone 
must support the industrial base required to build that rocket, which 
can greatly add to the cost of a vehicle.
    NASA plans to continue heavy lift launch vehicle studies in 
partnership with the Department of Defense (DOD) to continue to mature 
the LOX/Hydrocarbon concepts and to assess potential commonality 
between NASA, DOD, and potential commercial needs with the primary 
figure of merit as affordability and operability. The underlying 
requirements rationale for proposing to initiate development of a first 
stage hydrocarbon engine is lower development and operations costs. 
However the trade studies outlined above will confirm this assertion.

Q7.  What is the requirements rationale for the proposed LOX/CH4 engine 
development?

        a.  What has changed since the ESAS decision not to pursue the 
        development of such an engine?

A7a. As part of the FY 2011 President's budget request, NASA will 
initiate development and engine testing with a focus that could include 
a low cost, high performance ``green'' liquid oxygen/methane (LOX/CH4) 
engine and potentially also low-cost liquid oxygen/liquid hydrogen 
(LOX/LH2) engines. This work builds from NASA's recent R&D experience 
in this area, using existing test articles and results to develop a re-
startable engine capable of high acceleration and reliability.
    One of the options for the in-space engine is a LOX/Methane engine. 
The objective of this LOX/Methane development effort is the 
demonstration of key operational performance characteristics of a range 
of new space engines, compatible with future use of in situ resources 
that can eventually lead to the development of a low cost, high 
performance ``green'' service stage to be used with in-orbit fuel 
stations, with large payload and crewed vehicles or as an In-Situ 
Resource utilization (ISRU)-compatible planetary ascent stage.
    During ESAS, the choice of LOX/Methane instead of hypergolic fuels 
for the Service Module and Lander ascent engines was made and was 
supported by several factors such as a higher performance engine with a 
lower overall system mass as well as ground operations at the launch 
site should be simpler. In addition, a more compelling factor was that 
LOX/Methane opened up the possibility using In-situ Resource 
Utilization (ISRU) techniques of using Martian resources for fuel. The 
Constellation program moved away from LOX/Methane due to development 
risk impeding the schedule as well as available budget resources.

Q8.  According to NASA's testimony, the marginal cost of an operational 
Ares 1 based on two flights per year would be about $176 million per 
flight and have the capability to carry approximately 5 metric tons of 
cargo to the ISS orbit. This implies a cost to ISS of about $35,200 per 
kg. NASA's initial CRS contracts (prior to the FY 2011 budget request) 
totaled $3.5 Billion to deliver a total of approximately 40 metric tons 
to the ISS. This implies a cost to ISS of about $87,500 per kg. In 
order to resolve this huge discrepancy and provide NASA's justification 
for pursuing a policy that is so costly to the American taxpayer, 
please provide the following:

        a.  The fully-burdened cost estimate per flight, and the fixed 
        and marginal cost per flight, of the Ares 1/Orion. Please 
        provide these estimates for flight rates between one and six 
        flights per year.

A8a. NASA does not have a full burdened cost-estimate per flight 
because NASA does not commit to development estimates prior to 
completion of Key Decision Point C, where the project transitions from 
Formulation phase (A/B) to Development phase (C/D). Ares I has not 
completed KDP-C.)
    With regard to the fixed and marginal costs, NASA recognizes that 
there is often confusion with regard to publicized flight cost 
estimates associated with the Ares projects, largely because those 
estimates often include different assumptions. One key point of 
confusion, for example, comes from the fact that the Ares I and Ares V 
share significant fixed costs for vendor production base and sustaining 
engineering, since both vehicles would use similar solid rocket 
boosters, upper stage engines and avionics. Therefore, there are two 
ways to consider the cost of an Ares I flight--one, where the Ares I 
fixed costs are lower because it is assumed that certain fixed 
operational costs would be shared with the Ares V, and another, where 
the Ares I fixed costs are higher because the current shared-cost 
scenario is not assumed.
    In general, NASA does not budget by flight, but rather by fixed and 
marginal costs expected on an annual basis. The fixed cost (i.e. prime 
and non-prime support labor, costs of facilities) would be the cost 
that must be incurred whether one rocket or multiple rockets are built. 
In other words, the fixed cost is absorbed by the first annual flight 
and is not counted again that year. The marginal costs, on the other 
hand, are those costs that can be cleanly attributed to the production 
of one unit, and that cost is generally the same, unit by unit. So for 
each subsequent annual flight, NASA adds on only the marginal cost, 
given that the fixed cost has already been absorbed into the first. It 
is important to note, however, that NASA's formula of calculating the 
cost of an Ares I flight (or subsequent annual flights) does not 
include the project costs for the associated support elements, such as 
ground operations, mission operations, EVA and program integration. 
Those costs would be book kept under their respective project lines.
    With regard to the cost per flight, NASA currently estimates that 
both Ares I and Orion account for $69M each in marginal costs for a 
flight unit, thus totaling $138M in marginal costs for each flight 
since each flight would be assumed to have a capsule and a rocket. 
However, the fixed cost per flight would vary based on whether Ares I 
and Ares V shared operational costs were assumed.
    For example, the FY 2010 budget request assumed that Ares I and 
Ares V would share some operational costs--approximately $700M per 
year, which would, in turn, equate to lower fixed costs for the Ares I. 
Therefore, under that scenario the total cost for the first flight 
would be $919M ($781M in fixed cost plus $138M in marginal costs) with 
each subsequent flight costing $138M extra in marginal costs, as 
outlined in the chart below:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    However, if the assumption is that Ares I and Ares V would not 
share operational costs, it is equally true to say that the cost of an 
Ares I flight is nearly $1.6B. Under this scenario, all operational 
costs would be carried by Ares I--which would account for an 
approximate $700M increase in the fixed cost for Ares I. Thus, under 
this scenario, the total cost for the first flight would be $1.461B in 
fixed cost plus $138M in marginal costs, with each subsequent flight 
costing $138M extra in marginal costs, as outlined in the chart below:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q8b.  The fully-burdened cost estimate per flight, and the fixed and 
marginal cost per flight, of the SpaceX Falcon 9/Dragon. Please provide 
these estimates for flight rates between one and six flights per year.

A8b. Specific launch cost data for Falcon-9/Dragon and Taurus II/Cygnus 
are considered procurement and competition sensitive, and their 
provision would compromise the commercial environment for these launch 
activities. We respectfully recommend that you contact Space 
Exploration Technologies and Orbital Sciences Corporation regarding 
this information.

Q8c.  The fully-burdened cost estimate per flight, and the fixed and 
marginal cost per flight, of the Orbital Sciences Taurus II/Cygnus. 
Please provide these estimates for flight rates between one and six 
flights per year.

A8c. Specific launch cost data for Falcon-9/Dragon and Taurus II/Cygnus 
are considered procurement and competition sensitive, and their 
provision would compromise the commercial environment for these launch 
activities. We respectfully recommend that you contact Space 
Exploration Technologies and Orbital Sciences Corporation regarding 
this information.

Q9.  NASA's budget request states that, ``some amount of private 
investment capital'' will be part of any Space Act Agreement.

        a.  Does NASA intend to solicit any evaluations from outside 
        financial analysts before issuing new Space Act Agreements?

A9a. NASA ensures that any selection criteria associated with 
competitive awards are appropriately evaluated. To the extent NASA 
determines that it does not have the appropriate expertise resident 
within the Agency to evaluate any aspect of a competitive award, NASA 
has the ability to engage outside experts prior to making awards. This 
will be decided as NASA develops and finalizes its acquisition 
strategy.

Q9b.  Has NASA determined what level of private investment will be 
required to supplement the federal government's commitment?

A9b. Currently, NASA intends to ask proposers to specify the level of 
private investment they have available to support their development 
efforts if selected to receive NASA funding.

Q9c.  Is there a minimum threshold, or will NASA simply enter into 
agreements with entities offering the best price without specifying a 
minimum percentage or a minimum amount of private capitalization?

A9c. NASA does not currently intend to prescribe the level of company 
investment required to supplement the federal funding commitment. 
Similarly, NASA does not expect any company to be in a position to 
propose a ``price'' for the commercial space transportation ``services 
phase'' as an element of its proposal to participate in NASA's 
commercial crew transportation development effort. The level of 
investment will be assessed as part of the overall business plan and 
will be a risk-based consideration in the portfolio of companies 
selected for award. This will be decided as NASA develops and finalizes 
its acquisition strategy.

Q9d.  What criteria will NASA use to evaluate whether an entity has the 
appropriate level of private capitalization?

A9d. NASA is still finalizing a strategy to support the development 
commercial crew transportation services so that the Agency is prepared 
to proceed if funding is provided in the final FY 2011 budget. 
Selection evaluation criteria will be established as NASA develops and 
finalizes its commercial crew acquisition strategy.
    NASA plans to evaluate the business plans, including financing and 
sources of funds, as part of the overall portfolio selection. The 
amount of private capitalization is just one of several factors planned 
to be evaluated.

Q9e.  What penalties will NASA incorporate in Space Act Agreements to 
protect the government in the event of non-performance by the 
commercial entities?

A9e. NASA is still finalizing a strategy to support the development 
commercial crew transportation services so that the Agency is prepared 
to proceed with competitive awards if funding is provided in the final 
FY 2011 budget. NASA will ensure that the taxpayer interests are 
protected.

Q9f.  What organization within NASA will be responsible for evaluating 
the satisfactory amount of private investment capital?

A9f. A NASA source evaluation board or equivalent will review the 
proposed business and financial plans, and the source selection 
authority will determine how much Government funding to award the 
winner(s) and how much Government funding should be allocated among 
awardees. It is expected that this source evaluation board will be 
established by the Exploration Systems Mission Directorate.

Q10.  Developing the human rating requirements for the Ares/Orion 
system was the product of a long process of negotiations between ESMD 
and OSMA.

        a.  Under the commercial crew proposal, how long does NASA 
        estimate it will take to produce new human rating requirements, 
        and once that step is completed, what will be the process to 
        ensure the U.S. Government has the necessary insight and 
        oversight to determine whether vehicles and systems comply with 
        the standards?

A10a. NASA is still finalizing a strategy to support the development of 
commercial crew transportation services. Such a strategy will include 
planning for applicable technical requirements, certification process 
and the role of the Government versus the industry partners in terms of 
insight, oversight and potential Government-furnished equipment. Also, 
on May 21, 2010, NASA issued a Request for Information (RFI) seeking 
information that will help NASA formulate plans for Commercial Crew 
Transportation (CCT) as proposed in the FY 2011 budget request. The 
purpose of this RFI is to collect information from industry to help 
NASA plan the overall strategy for the development and demonstration of 
a CCT capability and to receive comments on NASA human-rating technical 
requirements that have been drafted as part of this initiative. 
Responses to the RFI and the accompanying draft human rating document 
were due to the Agency on June 11, 2010. NASA hopes to finalize the 
human rating document by the end of the calendar year.

Q10b.  Will it be an iterative process similar to what occurred with 
Ares/Orion?

A10b. The development of commercial human rating requirements has been 
an iterative process with NASA safety, engineering, and health and 
medical technical authority participation, among others. NASA will 
continue the iterative process via the aforementioned RFI soliciting 
comments from industry.

Q10c.  Once the commercial human rating requirements are published by 
NASA, what is your estimate of how long it will take for a commercial 
crew provider to build, certify and flight test its launch system?

A10c. Based on the President's FY 2011 budget request for commercial 
crew development, NASA is currently planning for the demonstration 
phase to be complete in 2015 with actual missions starting in late 2015 
or early 2016. As way of comparison, the Review of U.S. Human 
Spaceflight Plans Committee estimated that a commercial crew launch 
service could be in place by 2016. This estimate was based on estimates 
from providers ranging from three years to five years from the present, 
and an assumption for one year of program realignment with a start in 
early FY 2011.
    Actual proposals from industry, however, will supply the best 
estimate, once they are available.

Q10d.  What is the basis of that estimate?

A10d. When developing schedule estimates, NASA reviewed previous 
proposals received from industry in response to past COTS cargo 
solicitations--solicitations that also offered bidders to offer 
proposals for commercial crew capabilities.

Q10e.  If there is no estimate, how was the budget derived?

A10e. Budget formulation documents and discussions are of a pre-
decisional nature and thus cannot be provided.

Q11.  Since the two COTS companies are significantly behind their 
schedules, why hasn't NASA re-competed the COTS cargo contracts?

        a.  At what point would NASA deem the contractor's performance 
        unacceptable and re-compete?

A11a. Both commercial cargo development partners continue to make 
steady progress in achieving their cargo demonstration milestones. 
While each has experienced some milestone delays, this is not 
unexpected, since both partners have aggressive, success-oriented 
schedules, and are facing challenges typical of a spaceflight 
development program. As such, NASA sees no reason to doubt either 
company's ability to achieve its desired objectives--that of 
demonstrating commercial cargo delivery to and from the International 
Space Station in the 2011 timeframe.
    NASA will not pay for a milestone until it is achieved. However, we 
reserve the right to continue working with a partner if we deem it is 
in the Government's best interest and that they are continuing to make 
acceptable progress toward their demonstration goals. NASA has invested 
significantly in the success of these cargo demonstration efforts and 
we are depending on both partners to develop commercial cargo services 
for delivery to/from the ISS. We want to help them succeed and we need 
for them to succeed. NASA consistently reviews each company's progress, 
and if their progress was deemed unacceptable, we reserve the option to 
terminate the agreement and to seek alternate partners. We would do so 
at the point when a partner stops making technical progress developing 
their system and assessments indicate the partner cannot be expected to 
complete the milestones in the agreement within a reasonable time 
period. This criterion was used when RpK, one of NASA's original COTS 
partners, was terminated when it ceased progress on its technical 
milestones as a result of the failure to meet its negotiated financial 
milestones.

Q12.  During his speech at the Kennedy Space Center on April 15, 2010, 
president Obama directed NASA to begin developing a rescue vehicle 
using the Orion crew capsule.

        a.  What is the cost estimate for such a development?

A12a. NASA will endeavor to develop revised cost estimates as the 
Administration works with Congress to determine how Orion should be 
restructured, consistent with direction outlined in the NASA 
Authorization Act of 2010 and the final FY 2011 appropriations for the 
Agency.

Q12b.  Where in the budget will the funding come from?

A12b. The funding for this restructuring will come within NASA's top-
line request released in February, consistent with direction outlined 
in the NASA Authorization Act of 2010 and the final FY 2011 
appropriations for the Agency. The out year funding profile will be 
refined as part of the President's FY 2012 budget submission.

Q12c.  What previous programs will be displaced by this new change?

A12c. The Administration and Congress will continue to work to develop 
a plan that balances a restructured Orion project with the other 
priorities in NASA's FY 2011 budget, consistent with direction outlined 
in the NASA Authorization Act of 2010 and the final FY 2011 
appropriations for the Agency.

Q12d.  How would such a vehicle get to the International Space Station?

A12d. An Orion crew emergency return module could launch un-crewed as a 
payload on a yet-to-be determined expendable launch vehicle, and then 
utilize autonomous rendezvous and docking technology similar to the 
European Space Agency's Automated Transfer Vehicle and Russian Progress 
spacecraft, or autonomous rendezvous with Remote Manipulator System 
capture/berthing such as the Japanese HII Transfer Vehicle and as 
planned for the COTS cargo vehicles.

Q12e.  Given that NASA will have to use the Russian Soyuz capsule for 
crew access to the International Space Station, what additional 
capability would an Orion-based crew lifeboat provide?

A12e. An Orion-based crew lifeboat would enable an American crew escape 
capability that will increase the safety of our crews on the Space 
Station, reduce our dependence on foreign providers, and simplify 
requirements for other commercial crew providers. This effort would 
also help establish a technological foundation for future exploration 
spacecraft needed for human missions beyond low Earth orbit and will 
preserve some critical high-tech contractor jobs in Colorado, Texas, 
and Florida.

                   Answers to Post-Hearing Questions

Responses by Mr. A. Thomas Young, Lockheed Martin (Ret.)

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  In your prepared statement, you state that ``A detailed 
exploration plan with destinations, dates and implementation plans is 
needed.'' What, in your view, is involved in developing such a good 
plan?

        a.  What can be held up as a model?

        b.  What would you recommend Congress do in the absence of such 
        a plan from NASA?

A1. There are many examples of NASA programs with excellent plans. 
Apollo and the Mars robotic programs are two superb models. Most 
successful programs are characterized by detailed plans that focus the 
efforts of diverse organizations required to work together to 
accomplish a defined objective. A primary responsibility of leadership 
is to establish a detailed implementation plan with all the definition 
needed to provide program direction. Destinations, dates, etc. and 
required elements of the plan.
    Failure to provide a detailed implementation plan is a failure of 
leadership and will result in a failed or highly inefficient program.
    A budget without a detailed implement plan is an oxymoron. Congress 
should refuse to approve a budget without first having and approving a 
detailed implementation plan.

Q2.  As a seasoned aerospace professional who has led and overseen the 
development of many complex, expensive military and civilian 
spacecraft, what, from your perspective, are the most significant 
challenges in implementing NASA's proposed plan for purchasing 
commercial crew services for access to low-Earth orbit?

        a.  Does the administration's estimated price tag of $6 billion 
        and estimated 5-year time horizon to establish commercial crew 
        capabilities across multiple commercial providers make sense?

        b.  What further information would you want to see in order to 
        develop confidence in the proposed timeline and budget for this 
        type of development project?

A2. Space projects are hard. Even with the application of our best 
capabilities all are not successful. We have developed a methodology 
that maximizes the probability of success. This methodology utilizes 
NASA's extraordinary leadership and continuity of human spaceflight 
expertise and the implementation capability of industry which is second 
to none. This partnership is a model that is tested, proven and 
continuously improved. Why would anyone make a drastic, unproven change 
to this methodology? Risk of such a change are enormous and involve 
mission, schedule, cost, workforce and space program risks.
    I do not believe the $6B cost or 5 year schedule are realistic or 
supported by experience. I have seen no analysis that support these 
budget and schedule numbers.
    I would not approve commercial crew without extensive proof of 
capabilities with flight performance. Commercial cargo can be a first 
step followed by non-NASA commercial crew demonstrations. I do not 
believe this can be accomplished on a schedule that will allow 
repetitive commercial crew flights to space stations prior to 2020.

Q3.  The FY2011 request proposes $3.1 billion over five years for 
research in heavy-lift and propulsion technology. One of the areas this 
budget line is to emphasize is development of a first stage engine, and 
in particular, a hydrocarbon engine that would be used for a future 
heavy-lift vehicle. The congressional budget justification also 
indicates the projected level of funding is anticipated to lead to an 
operational engine by the end of the decade.

        a.  How important is the development of a new first stage 
        engine, and in particular a hydrocarbon engine to development 
        of a future heavy-lift vehicle?

        b.  Does the proposed budget and timeline make sense, in your 
        view?

A3. The budget and timeline do not make sense to me. I am a strong 
supporter of technology development and I believe a human spaceflight 
technology program with mission focus is needed. However, I believe we 
have the capability to start heavy-lift today. Heavy-lift is dependent 
upon funding authority not a 5 year technology program. The $3.1B would 
be better utilized to start the heavy-lift development.

Q4.  How will the absence of a specific exploration goal, timeline, and 
mission affect the advanced technology programs that the Administration 
is proposing?

        a.  Are there any lessons learned from previous technology 
        programs that Congress should consider?

        b.  In your statement, you noted that ``NASA, with appropriate 
        outside support, should define the required technology 
        program.'' What type of outside support would be involved and 
        from what institutions?

A4. A technology program without mission focus often results in an 
inefficient, ``hobby shop'' approach. The technology developed in such 
an environment results in technology that satisfies the technologist 
but not the mission need.
    The Mars robotic program has been a highly effective and focused 
technology endeavor. Rover, atmospheric entry, landing, electronics, 
etc., technology development have all supported a highly successful 
program.
    I believe the best source of outside support is the National 
Academies. The Academies National Research Council (NRC) has the 
capability to make available extraordinary individuals to conduct 
reviews of NASA's technology program. Emphasis should be given to 
individuals with space project experience to assure the focus factor is 
not lost. I should note, I am a member of the National Academy of 
Engineering and the NRC Space Studies Board.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


 Letter to The Honorable Gabrielle Giffords from Gary P. Pulliam, Vice 

                  President, The Aerospace Corporation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
